<html>
<title> - S. 368 AND ELECTION REFORM</title>
<body><pre>[Senate Hearing 107-1041]
[From the U.S. Government Printing Office]



                                                      S. Hrg. 107-1041 



                       S. 368 AND ELECTION REFORM

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


(Star Print) 88-707  U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri

                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on May 8, 2001......................................     1
Statement of Senator Cleland.....................................    38
Statement of Senator Hollings....................................    42
    Prepared statement...........................................    42
Statement of Senator McCain......................................     1
    Prepared statement...........................................     1

                               Witnesses

Ansolabehere, Stephen, Ph.D., Professor, Department of Political 
  Science, Massachusetts Institute of Technology.................    47
    Prepared statement...........................................    50
Bayless, Hon. Betsey, Secretary of State, State of Arizona.......    12
    Prepared statement...........................................    14
Lee, Hon. Sheila Jackson, a Representative from Texas............     2
    Prepared statement...........................................     7
Michel, Hon. Robert H., co-chair, National Commission on Federal 
  Election Reform................................................    43
Richardson, Hon. Bill, member, National Commission on Federal 
  Election Reform................................................    46
Willis, Hon. John T., Secretary of State, State of Maryland......    15
    Prepared statement...........................................    19

                                Appendix

Cleland, Hon. Max:
    ``Voting Reform Requires Federal Help,'' Atlanta Journal and 
      Constitution ..............................................    38
    ``Technology Slashes Detroit Voting Error: `Second Chance' 
      Scanners Allow Correction,'' The Washington Post...........    40
National Conference of State Legislatures, prepared statement....    69
Federal Election Commission:
    Prepared statement...........................................    72
    Letter to Hon. Richard Cheney................................    73
    Fiscal Year 2001 Supplemental Request........................    73

 
                       S. 368 AND ELECTION REFORM

                              ----------                              


                          TUESDAY, MAY 8, 2001

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:30 a.m. in room 

SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Today's hearing is our second 
hearing on the issue of election reform. In the Committee's 
last hearing on this issue, we analyzed the problems of our 
existing national voting system, especially the problems 
highlighted by the year 2000 election. In this hearing, we will 
examine solutions to these problems and how to restore the 
American public's confidence in our election system.
    I will include the rest of my statement in the record, 
because we have a short time period this morning. 
Unfortunately, there are three votes that will be taking place 
at 10:15.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    Good morning. Today's hearing is our second hearing on the issue of 
election reform. In the Committee's last hearing on this issue, we 
analyzed the problems of our existing national voting system, 
especially the problems highlighted by the Year 2000 election. In this 
hearing, we will examine solutions to these problems, and how to 
restore the American public's confidence in our election system.
    I would first like to highlight the importance of Congressional 
action. As many newspapers have begun to point out, time is running out 
for Congress to enact meaningful legislation to make reforms before the 
2002 elections. Concerns about the accuracy of our voting system are 
especially pernicious, because they undermine the public's confidence 
in our whole political system. Nothing is more sacred to our democracy 
than a person's right to vote. I found it remarkable when President 
Carter recently said that ``the Carter Center has standards for 
participation as a monitor of an election, and the United States of 
America would not qualify at all.''
    It is promising that the states are beginning to write their own 
legislation to reform their election systems. In the 2001 legislative 
session, 1,505 election reform bills have been introduced in state 
legislatures across the country. Thirty-one states have considered or 
are considering legislation to upgrade or make uniform their voting 
systems. Most notably, Georgia and Florida recently passed legislation 
to comprehensively reform their election systems.
    One important challenge to the federal and state governments is to 
ensure that these reforms are based on rigorous standards that will 
solve the problems of the Year 2000 election. As we will hear later in 
this hearing, a recent study from MIT and Caltech highlights this 
problem by showing that the most reliable voting technology use paper 
ballots, followed by obsolete lever machines and more recent optical 
scanners. Surprisingly, the high-tech Direct Recording Electronic 
devices were found to be less reliable than all types of voting 
machines other than punch card machines.
    This study further emphasizes the need to match the efficiency of 
new technology with the reliability of the more traditional paper 
ballots and lever machines. Senator Hollings, Senator Cleland, and I 
have introduced S. 368, the American Voting Standards and Technology 
Act, to meet this challenge. The bill would direct the National 
Institute of Standards and Technology, or NIST, to develop voluntary 
voting system practices, and accredit laboratories on a voluntary basis 
to test vote casting and counting devices. For over a hundred years, 
NIST has been known for its ability to solve a myriad of technical 
problems and establish voluntary standards. Its expertise can be used 
today to reform current election practices.
    Senator Hollings, Senator Cleland, and I do not profess to have all 
of the solutions to this issue. We look forward today to hearing the 
results of initiatives and reports by the states and independent 
commissions. Any final legislation will have to include input from 
these groups to ensure a comprehensive solution.
    I welcome all of our witnesses here today.

    The Chairman. We are pleased to have the Honorable Sheila 
Jackson Lee here with us this morning. Welcome, Congresswoman 
Lee. Thank you for joining us. We appreciate your taking the 
time to come over and give us your views on this very important 
issue, and you are recognized.

             STATEMENT OF HON. SHEILA JACKSON LEE, 
                A MEMBER OF CONGRESS FROM TEXAS

    Ms. Lee. Chairman McCain, let me thank you for your 
leadership and your persistence in issues dealing with reform 
of the entire electoral process. It is my pleasure to be here 
this morning and to acknowledge the Committee and Ranking 
Member again for the leadership that you have shown. Might I 
also applaud you for your proposed bill dealing with the 
establishment of voluntary national standards on how votes are 
cast and how they are counted and also the importance of 
providing matching funds to assist our local communities in 
areas such as getting new and technologically profound and 
proficient voting machines, as well as providing for education 
programs and continuing to study this issue that we may do the 
best task.
    This is a very important issue for me and I ask the 
Chairman to submit my entire statement for the record and I be 
allowed to summarize and speak to the issues that I hope will 
be helpful to us this morning.
    The Chairman. Without objection.
    Ms. Lee. Thank you.
    I am a product of the 1965 Voting Rights Act. When I say 
that, clearly the surge of voting for African Americans became 
even more prominent after that particular passage of that bill. 
Obviously, we are very proud of the signing of the 1964 Civil 
Rights Act and the 1965 Voting Rights Act. Over the past couple 
of years, I have taken the challenge of revisiting the place 
which generated the 1965 Voting Rights Act. Of course, that was 
in Selma, Alabama, and the march across the Edmund Pettis 
Bridge.
    Many people offered their ultimate commitment in that 
bloody Sunday on March 7th, 1965, to present and express their 
commitment to the fundamental right to vote for all Americans.
    Out of the election, of course, came the opportunity for 
the redrawing of the lines in Texas, and that came and brought 
about the 18th Congressional District in which I serve. There 
are only four holders of that seat. I am the fourth holder of 
the seat and the first holder, the maiden holder, was the 
Honorable Barbara Jordan.
    So lives of Texans were changed by the Voting Rights Act of 
1965. So I bring a passion to this issue and certainly believe 
it is an issue that is fundamental to the American process. 
Alexander Hamilton in his Federalist Papers recognized ``the 
plain proposition, that EVERY GOVERNMENT OUGHT TO CONTAIN IN 
ITSELF THE MEANS OF ITS OWN PRESERVATION.'' The right the vote 
and to fully exercise that vote is a vital component of our 
collective preservation.
    So this past election should have taught us a lot. I was a 
participant, if you will, in the post-election in Florida.
    I went there, of course, with a perspective of assisting 
the candidate that I supported to move on to victory. But I 
think there are other lessons that were learned, and we are 
here today to talk about solutions, but I would be remiss, Mr. 
Chairman if I did not suggest to you that in speaking to the 
people of Florida certainly there are a range of opinions.
    Let me say to you that their greatest concern was that 
every vote should be counted and that some of their votes were 
not counted. It goes along with the issue or the principle of 
the Fifteenth Amendment, that the right to vote shall not be 
denied or abridged by the states or the federal government on 
account of race or color. Also it goes to the National Voter 
Registration Act, which affirms the right of every U.S. citizen 
to cast a vote and to have the ballot counted.
    On election day in Florida, and I think you have obviously 
heard of a number of violations; I only will give you a few: 
that citizens who were properly registered were denied the 
right to vote because election officials could not find their 
names on the precinct rolls; that registered voters were denied 
the right to vote because of minor discrepancies and clerical 
errors; that first-time voters who sent in voter registration 
forms prior to the state's deadline for registration were 
denied the right to vote because their registration forms were 
not processed; and that African Americans may have been singled 
out for criminal background checks at some precincts, and that 
one voter who had never been arrested was denied the right to 
vote after being told that he had a prior felony conviction.
    Let me say to you that the need for election reform is, 
however, all of America's challenge. I say that, Mr. Chairman 
because since that time I have visited across the nation in 
some of our states on the East Coast and the West, and will 
continue to do so, working with the Congressional Black Caucus 
and the House Democratic Caucus.
    We do realize that some 1,500 number of bills throughout 
the states have been promoted. We know that the Florida 
legislature has looked to eliminate the outdated punchcard 
technologies and that Georgia Governor George Roy Barnes has 
required every precinct to install up-to-date touchscreen 
voting.
    So I think the question today is what can we do. I am also 
gratified and hopefully looking forward to the Attorney General 
investigating the voting improprieties that occurred in the 
State of Florida. But I think that there are things that we can 
do.
    Let me suggest to you that, in my State of Texas, 14 
counties, including Harris County which I represent, still use 
punchcard systems like those used in Florida. In Texas during 
the 2000 elections 1.7 million votes were cast statewide using 
punchcard systems, with an average of 1.5 percent undervotes 
and .54 percent overvotes, while over 4 million votes were cast 
statewide using modern optical scan systems, with an average of 
.51 percent undervotes and 1.2 percent overvotes.
    I would suggest that we do have the capacity to utilize 
technology that can be of assistance to ensuring that every 
vote counts. In fact, the House Government Reform Committee 
analyzed the voting technology in Detroit, where they upgraded 
their technology, and saw a decided difference between the 
elections that they held in the past. Where there is certainly 
a diverse economic group, a high rate of poverty, and a high 
minority population, whey were able to determine that the 
percentage of undercounted votes for President in Detroit 
decreased by almost two-thirds, from almost 50 percent above 
the national average in 1996 elections, in which punchcards 
were used, to almost 50 percent below the national average in 
the 2000 election, in which the new machines were used.
    So we do realize that technology can be provided for as a 
source to assist in the fundamental right to vote. That is what 
is going on in the State of Texas, Mr. Chairman. As I see, that 
is what is going on around the country. Just yesterday I sat in 
on a presentation to educate our community about the 
technologies that are available. The questions I asked is 
``What kind of training, what kind of percentage errors do you 
have?''
    I believe legislation that involves studying the best 
selection and the best choice is valuable for us to overcome 
the problems of denying Americans the right to vote. So I would 
encourage studies and legislative initiatives that would, in 
fact, provide us with the information as to how best to choose 
the technology.
    Another improvement that I think is extremely important is 
to provide for provisional voting in every election so that any 
voter wrongfully eliminated from the voting rolls because of a 
haphazard or mistaken voting purge may vote and have their vote 
counted. What I found as I participated in hearings, Mr. 
Chairman, is the terrible impact of purging. I would like to 
submit into the record an article from the Dallas Morning News, 
Friday, April 20, 2001. The headline reads ``Voter Purges Are 
Subject of Panel Hearing.''
    We found out that 700,000, 750,000 votes were purged or 
voters were purged from the rolls in Texas after the last 
election. Their processes for doing so is if you miss at least 
two elections. I am going to offer a suggestion, Mr. Chairman 
that purging be one that we study extremely in detail, because 
I think it is particularly daunting to, as I will read if you 
will allow me, to find Cominar Martinez, who told the Committee 
that she thought she would always be able to vote after she 
registered the day she became a U.S. citizen, but was turned 
away because she had not renewed her registration. ``I did not 
know I had to register twice,'' she said in Spanish.
    Obviously, we want to have the sanctity of the vote and the 
protection of the voting process. But I do believe that when 
voters are not notified that they have been purged and that 
they are then enticed and encouraged and inspired to go vote 
and then they show up at the polls and they are nowhere on the 
polling records, it is a discouragement and a denial of the 
fundamental right to vote.
    So I would encourage a review of the purging process. I 
suggest there be a uniform 10-year period of inactivity before 
a voter's name is purged. This would give people a set amount 
of time in order to anticipate being purged, so that they can 
either vote, thereby resetting the 10-year clock, or if they 
have already been purged to allow them the opportunity to re-
register before going to the polling location or to vote.
    The purging process has seen many African Americans and 
Hispanics off the rolls, therefore denying the fundamental 
right to vote.
    Let me further explain very briefly the provisional voting. 
That is, of course, people coming to the polls, notably as it 
occurred in Florida, and they knew that they had registered to 
vote, particularly Florida A&M students, some 4,000 of them, 
and then their names were not on the list. It would be 
important at that time for them to have the privilege of 
indicating by affidavit, as we do in Texas, to say that I am a 
registered voter, be allowed to vote, and then have that 
determined subsequent to the voting process.
    It does not in any way, I think, support the suggestion 
that fraudulent activities would take place. An affidavit is 
signed. The person has the right to express their vote, and 
there is an appropriate checking system that can be handled.
    Any leaving of the polls, Mr. Chairman, immediately 
extinguishes that person's right to vote, either because of 
timing, either because of intimidation, such as having to going 
to a police station or a court to acknowledge that you are a 
voter in the United States of America.
    I believe that training more poll workers and providing 
them with the understanding of voting procedures can be one of 
the best efforts that we can make. I also think that it is 
important to take stock of what we do on election day. We force 
people to go to work, and there is nothing wrong with going to 
work in America, but we force them to go to work with the 
admonition: Ask your boss to let you off. Certainly in certain 
places of employment, Mr. Chairman, that is readily done. But 
in other places of employment, where the inequities or the 
differences between boss and employee are slightly different or 
where there is a different need for the employer's particular 
business, those opportunities are not given.
    Many times we will find that our low-income workers, 
teachers, nurses--as we know, there is a nurses crisis, but 
people in particular jobs of great necessity are not able to 
get time off. I believe that if there was a National Election 
Day that it does have value. The second Tuesday of every 
presidential year becoming a legal holiday, as I have offered 
in H.R. 934, would go a long way to enhance the voting 
commitment in the United States in presidential years.
    In particular, I think that it would assist us in 
encouraging the number of young people to be poll workers, to 
encourage the number of professional people to be poll workers 
and to work at the polls, to increase the level of knowledge at 
the polls, to be able to assist the physically challenged, to 
assist those who may need a lot more or slightly more 
assistance, to assist those who speak different languages, but 
are American citizens and have every right to vote.
    So I would argue to this Committee that that could be a 
change that would enable us to do better at encouraging our 
particular members of our society to utilize their fundamental 
right to vote.
    I also have introduced H.R. 60, the Secure Democracy for 
All Americans Act, which would develop greatly needed uniform 
standards which may be adopted by the states for the 
administration of elections for federal office by calling on 
the establishment of a commission on the comprehensive study of 
voting procedures, to study and report to the President and 
Congress on all issues relating to voting procedures. I believe 
that this effort is one to ensure again that we are studying 
the process and knowing the answers.
    I have also founded by bipartisan Congressional Election 
Caucus, to allow members a forum to discuss their issues and 
concerns about the process.
    Let me just simply say to you that once we noted, Mr. 
Chairman that there were other elements to the process of 
voting, such as the purging that occurs, such as the need for 
provisional voting. I believe that we can truly say that these 
are concerns that all Americans have, and that we can do this 
in a collective and collaborative way to ensure that not only 
minorities who are disenfranchised, maybe in larger numbers in 
Florida, are never disenfranchised or that the American right 
to vote is promoted and supported and enhanced by what we do 
here in the federal government.
    I will say that your legislation that talks about grants, 
as others have done, is extremely important, because one of the 
issues that were raised as we spoke to local governments is 
that we have the muster and the will, but the collaborative 
effort of federal funding is important. A budget passed without 
dollars for electoral reform certainly is not one being 
responsive to our concerns.
    Let me conclude, Mr. Chairman, by noting the whole issue of 
how you count votes. I might hold Texas as an example and say 
to you that I believe in the last 5 days the Florida 
legislature has risen to the occasion, and I look forward to 
the governor of Florida signing that legislation. But let me 
simply say to you that I think a federal standard is important 
on this basis: that voter intent is premier. Failure to mark a 
ballot in strict conformity with the code does not invalidate 
the ballot, is a premise in Texas law. Therefore we have 
enunciated four elements to suggest how a ballot may be 
counted. I believe that these can contribute to establishing a 
national standard so that all votes can be counted:
    The voter intent premier. At least two corners of the chad 
are detached. Light is visible through the hole. An indentation 
on the chad from the stylus or other object is present and 
indicates clearly ascertainable intent of voter to vote, or the 
chad reflects by other means a clearly ascertainable intent of 
the voter the vote.
    Now, I have just spoken to the fact of trying to eliminate 
possibly the punchcard voting process. But it may not occur. It 
may not occur in 2002, or 2001. It may not occur until some 
time in the near future where all of the nation has changed 
over to technology. If that is the case, then I would suggest 
that we look to the concept of voter intent. This will help all 
voters and this will restore back to the American people the 
sense that my vote does count.
    I will say to you, Mr. Chairman, that Florida and the 
election of 2000 brought about a great deal of emotions. It 
reminded many of the marches of the civil rights leaders of 
past. It reminded them of the bloody Sunday of March 7th, and 
it reminded us of the fact that in this country we still have 
to fight for equality.
    In that instance, I think what we are doing here today in 
this particular hearing will allow us to say to the American 
people--along with other hearings that this Congress will have 
and this Senate will have--that we mean business and that we 
will collaborate together in a bipartisan manner, raising up 
the dignity of everyone's right to vote, and will work hard to 
ensure that not one person walks into a voting booth at any 
time in America and be able to say that, my voice has not been 
heard.
    I thank you for your leadership. I look forward to working 
with you and I hope that out of this will come solutions and 
resolutions and freedom. I thank you very much.
    [The prepared statement of Representative Lee follows:]

            Prepared Statement of Hon. Sheila Jackson Lee, 
                    a Member of Congress from Texas

    Chairman McCain, Ranking Member Hollings, distinguished members of 
this Committee, I would like to commend you for holding this important 
hearing on Election Reform. I believe that we must continue to address 
the overwhelming evidence of grave voting irregularities and voting 
rights violations in the recent presidential election in what was the 
closest and most contested presidential election in the history of our 
great nation. It is imperative that Congress continues to engage in a 
serious review and comprehensive reform of our election process in this 
nation. The disenfranchisement of voters in the federal electoral 
process remains a chilling threat to the integrity of our democratic 
system in America.
    Mr. Chairman, it was Alexander Hamilton in his Federalist Papers 
who recognized the ``plain proposition, that EVERY GOVERNMENT OUGHT TO 
CONTAIN IN ITSELF THE MEANS OF ITS OWN PRESERVATION.'' The right to 
vote, and to fully exercise that vote, is a vital component of our 
collective preservation.
    On November 7th, 2000, only a fraction of Americans were able to 
exercise their right to vote and have those votes counted, while 
thousands, and perhaps even millions of voters were denied this 
constitutional right as guaranteed by the Fifteenth Amendment. It is 
horrifying to me that such systemic mistakes were made in this 
election. We must address this today. But beyond these mistakes, there 
have been serious allegations of violations of the Sections 2 and 5 of 
the Voting Rights Act of 1965, 42 U.S.C. sec. 1973, which mandates the 
obligation and responsibility of the Congress to provide appropriate 
implementation of the guarantees of the Fifteenth Amendment to the 
Constitution, which states ``the fundamental principle that the right 
to vote shall not be denied or abridged by the states or the federal 
government on account of race or color.'' Yet we know today, that such 
violations of fundamental voting rights did occur during the November 
7th elections throughout the nation.
    These irregularities also raise potential violations of several 
provisions of the National Voter Registration Act of 1993, 42 U.S.C. 
sec. 1973gg-5(a) which affirms the right of every U.S. citizen to cast 
a ballot and have that ballot be counted. These must be protected and 
enforced without compromise and without regard to the voter's race.
    Victims and witnesses to Election Day irregularities and 
discriminatory practices at voting precincts came forward in 
significant numbers to tell their stories of how their votes were 
discarded and their voices silenced. My office remains inundated with 
countless letters, phone calls, and e-mails of stories of violations, 
and demands that justice and order be restored to this process.
    If this democracy governed by the people, for the people means 
anything at all, we must listen to the voices of the people spoken 
through their votes, which is guaranteed by the United States 
Constitution.
    Last month, the Democratic Caucus Special Committee on Election 
Reform held its second public hearing in San Antonio, Texas to study 
these election irregularities and to seek solutions. There, we heard 
from law enforcement, poll workers, educators, civil rights 
organizations, state and federal legislators, and disenfranchised 
voters.
    Testimony heard from disenfranchised voters recounted the 
following:
    1. That citizens who were properly registered were denied the right 
to vote because election officials could not find their names on the 
precinct rolls and that some of these voters went to their polling 
place with registration identification cards but still were denied the 
right to vote.
    2. That registered voters were denied the right to vote because of 
minor discrepancies and clerical errors between the name appearing on 
the registration lists and the name on their identification.
    3. That first-time voters who sent in voter registration forms 
prior to the state's deadline for registration were denied the right to 
vote because their registration forms were not processed and their 
names did not appear on the precinct rolls.
    4. That African-Americans voters were singled out for criminal 
background checks at some precincts and that one voter who had never 
been arrested was denied the right to vote after being told that he had 
a prior felony conviction.
    5. That African-American voters were required to show photo 
identification while white voters at the same precincts were not 
subjected to the same requirement.
    6. That voters who requested absentee ballots did not receive them 
but were denied the right to vote when they went to the precinct in 
person on Election Day.
    7. That hundreds of absentee ballots of registered voters in 
various counties throughout the nation were improperly rejected by the 
Supervisor of Elections and not counted.
    8. That African-American voters who requested assistance at the 
polls were denied assistance.
    9. That African-American voters who requested the assistance of a 
volunteer CREOLE/ENGLISH speaker who were willing to translate the 
ballot for limited proficient voters were denied such assistance.
    Mr. Chairman, the U.S. Supreme Court has held that ``The United 
States is a constitutional democracy. Its organic law grants to all 
citizens a right to participate in the choice of elected officials 
without restriction by any state because of race.'' Lane v. Wilson, 307 
U.S. 268, 275 (1939). This is clearly a task for the federal government 
because federal guarantees in federal elections are at stake.
    The evidence that more people went to the polls in Florida to vote 
for Al Gore than went to vote for George W. Bush is substantial. I am 
not alone in believing that a full and fair hand recount would have 
proven this. It is for these reasons that a full investigation by the 
Attorney General is in order. However, although a letter sent to 
President Bush by virtually every House Democrat, called on the 
administration to ``provide essential guidance and leadership on a 
national problem.'' Today, we are still without such leadership.
    So what can be done to remedy these problems for the future? Since 
the 2000 presidential election more than 1,500 election reform bills 
have been introduced in state legislatures around this nation. The 
American Civil Liberties Union and other organizations have been filing 
suits in California and in other states demanding that uniform methods 
of casting and counting ballots be put in place. I applaud these 
efforts, and would like to recognize, for example, the recent election 
reform efforts of the Florida legislature to eliminate outdated punch 
card technologies, and legislation signed last month by Georgia Gov. 
Roy Barnes requiring that every precinct install up-to-date touch-
screen voting machines by the next presidential election. These efforts 
are a step in the right direction, and I believe that outdated 
technology is a large part of the problem.
    In my state of Texas, 14 counties still use ``punch card systems'' 
like those used in Florida during the 2000 presidential election. In 
Texas during the 2000 elections nearly 1.7 million votes were cast 
statewide using punch card systems with an average of 1.53 percent 
undervotes and .54 percent overvotes, while over 4 million votes were 
cast statewide using modern ``optical scan systems'' with an average of 
.51 percent undervotes and .12 percent overvotes. Harris County, which 
I represent, still uses the punch card system and had similar rates of 
error, with nearly 1 million votes cast and 1.51 percent undervotes and 
.67 percent overvotes. These numbers suggest that the newer 
technologies reduce mistakes, and may even expedite increased volume of 
votes cast.
    One study done by the House Government Reform Committee analyzed 
upgrading voting technology in Detroit, having the highest poverty rate 
of any U.S. city, as well as one of the highest minority populations. 
It studied the effects of voter education and the replacement of the 
antiquated punch card machines, such as those used in Florida, with new 
optical scanner machines that let voters know when the voter made a 
mistake and gave the voter an opportunity to fix it. The results of 
this study are staggering. The percentage of uncounted votes for 
President in Detroit decreased by almost two-thirds, from almost 50 
percent above the national average in the 1996 election in which punch 
cards were used, to almost 50 percent below the national average in the 
2000 election in which the new machines were used. Detroit also reduced 
the percentage of uncounted votes significantly, from 7 percent in 
precincts with high rates of uncounted votes in 1996, to less than 1 
percent using the new machines in 2000.
    Finally, even districts with increased turnout where large numbers 
of inexperienced or infrequent voters showed up, had low rates of 
uncounted ballots. For example, in the 18th Congressional District of 
Texas which I represent, turnout increased by over 1000 votes between 
1996 and 2000, yet the rates of uncounted votes for President decreased 
from 2.9 percent to 0.8 percent.
    Another necessary improvement is to ensure ``provisional voting'' 
in every election so that any voter wrongfully eliminated from voting 
rolls because of a haphazard or mistaken voter felony ``purge'' may 
vote and have that vote counted. The ``purging'' process includes 
eliminating a person's name from the voting rolls when that person has 
not voted recently, thus requiring the person to re-register before 
voting again. This is particularly problematic because voters are often 
not notified when their names have been purged. As a result, when the 
person arrives at the polls to vote, he or she is denied access. We 
need to change this practice so that voters are allowed, at the polling 
place, to promptly remedy the error, vote, and have that vote counted.
    We also need to encourage our young people to get involved in the 
voting process, and begin hiring more young people at the polling 
locations. In order for there to be true electoral reform, our youth 
must take a more active roll, and we must give them the tools and the 
opportunity to do so.
    Also needed is education. We must educate those who work at the 
polls and in the local precincts, so that they can anticipate problems 
beforehand, and prepare. For example, in precincts where there are 
large numbers of Creole-speaking people, workers should be informed so 
that they can provide ample ballots printed in Creole, or to ensure 
that there are poll workers onsite who speak Creole. Workers should 
also be educated in the newer voting technologies that are developing.
    We must also educate our law enforcement officers, so that they 
understand the legalities and cultural sensitivities inherent in the 
voting process, and do not inadvertently interfere.
    We must also educate the media so they are more sensitive to the 
influence and impact that their reporting has on people who have not 
yet made it to the polls. Many people, myself included, believe that 
the media played a key roll in last year's election by calling the 
election too early for Al Gore and Joe Lieberman, which resulted in 
many people not going to the polls to vote, believing that their vote 
would not have an effect on the election.
    And last, we must educate and empower our voting citizens, so that 
they know their rights, understand how the voting process works, and 
can operate the newer technologies that are anticipated in the near 
future.
    To help facilitate greater and more regular voter turnout, I 
strongly believe that we need to make election day a national holiday 
in order to reconcile employment commitments, which keep many people 
from voting or participating in this important election process. People 
should not be alienated from our democratic process simply because they 
cannot afford to take off work to vote. That's why I introduced H.R. 
934 in Congress on March 7, 2001, establishing National Election Day on 
the second Tuesday of November, in presidential election years as a 
legal public holiday. This bill will merely federalize what some states 
have done with great success, so that employees in the private sector 
will be able to exercise their constitutional right to vote or take 
part in the electoral process as election volunteers with no 
restraints. Everyone should be able to afford to cast his or her vote. 
As a nation, we simply cannot afford not to.
    I have also introduced H.R 60, the Secure Democracy for All 
Americans Act, which would develop greatly needed uniform standards 
which may be adopted by the states for the administration of elections 
for federal office by calling on the establishment of a Commission on 
the Comprehensive Study of Voting Procedures to study and report to the 
President and Congress on all issues relating to voting procedures in 
federal, state, and local elections.
    In addition, I have drafted a bill that would modify the Secure 
Democracy for all Americans Act by assigning the Federal Election 
Commission the role of providing grants to states and local communities 
to enable them to efficiently implement this study.
    Finally, I have recently founded the bipartisan Congressional 
Election Caucus to enable all members of Congress to engage in a 
serious review and dialog of the election process in this nation as a 
recognition of the disenfranchisement of voters who lost their 
fundamental rights as citizens of the United States, to vote because of 
voter confusion, poor voter machinery, or work commitments.
    While statutes were not enacted during this past election to 
prevent minorities from voting, deliberate actions were taken that 
prevented minorities, women, the elderly and thousands of Americans 
from invoking their constitutional right to vote. These actions 
demonstrate a grave injustice upon our democratic system. Sadly, those 
around the world who look to us as a symbol of justice and freedom have 
borne witness to one of our darkest hours, and the dimming of our great 
light that leads their way.
    We must not let these actions be revived again. To do so would wash 
away the blood stains, and tears of our founders, our ancestors, our 
parents and even ourselves who have fought for the right of every 
citizen's voice to be heard regardless of race, ethnicity, gender, age, 
and yes, even political affiliation.
    The Fifteenth Amendment of the Constitution tells us that ``The 
Congress shall have the power to enforce this article by appropriate 
legislation.'' So, in the words of the Reverend Martin Luther King: 
``[T]he hour is late. And the clock of destiny is ticking out. We must 
act now before it is too late.'' Thank you.
                                 ______
                                 

             [From The Dallas Morning News, April 21, 2001]

  Voter Purges are Subject of Panel Hearing: Committee Considers Ways 
                      Citizens Can Stay Registered

                           (By Carolyn Barta)

    San Antonio. Texas purged 750,000 voters from its rolls last year, 
a congressional election committee learned Friday, prompting members to 
ask how Congress can make it easier for voters to remain registered.
    ``I'm going to research that question,'' said U.S. Rep. Sheila 
Jackson Lee, D-Houston, after hearing a naturalized citizen tell her 
story--through a translator--of being turned away from a San Antonio 
polling place in November.
    Ms. Lee is a member of the Democratic Caucus Special Committee on 
Election Reform, which heard testimony Friday on Texas' election 
problems and procedures at the second of several hearings planned 
across the country.
    The committee's study was prompted by election irregularities in 
Florida and could result in recommendations on a wide variety of 
federally imposed reforms. Thousands of voters in Florida claimed, 
among other complaints, that they were not allowed to vote at polling 
places because their names did not appear on registration lists.
    Carmen R. Martinez told the committee that she thought she would 
always be able to vote after she registered the day she became a U.S. 
citizen but was turned away because she had not renewed her 
registration.
    ``I didn't know I had to register twice,'' she said in Spanish.
    Secretary of State Henry Cuellar, who provided the number of Texans 
taken off the voter rolls, explained that voters were purged at the 
county level if they didn't vote in the last two federal elections and 
did not renew their registration.
    Tommy T.C. Calvert, president of the Neighborhood First Alliance, a 
coalition of 25 community groups, told of other minorities who were not 
allowed to vote because their address or voting location had changed or 
their registration had been purged or lost.
    ``It was eye-opening to me,'' Ms. Lee said of the testimony.
    Mr. Cuellar said Texans who believe they are eligible to vote can 
sign an affidavit at the polling place and vote. But citizens 
testifying said many Hispanic and black voters don't know their rights 
and leave without casting a ballot.
    ``If you can sign an affidavit, why can't we have same-day 
registration?'' asked U.S. Rep. Charlie Gonzalez, D-San Antonio, 
another committee member.
    Mr. Cuellar said the Texas Legislature has repeatedly rejected 
proposals to allow same-day registration.
    ``I think you need to look at whether the purging law is 
burdensome,'' Ms. Lee said. ``If you make an effort to register 
sometime in your life, you should continue to have the right to vote 
whether you've skipped an election or not.'' One issue being reviewed 
by the Democratic committee, headed by U.S. Rep. Maxine Waters, D-
Calif., is whether Congress can force states to have ``provisional 
ballots'' to ensure the right to vote. Those ballots could be cast but 
not counted until the voters' authenticity later can be verified.
    Mr. Cuellar also told the committee that Texas had almost 50,000 
undervotes--ballots on which no vote for president was recorded--and 
14,000 overvotes--ballots with more than one choice for president 
marked. Those votes were thrown out.
    The undervotes made up 1.5 percent of punch-card votes, the system 
blamed for many problems in Florida, and less than 1 percent of 
optical-scan paper ballots and the newest technology of touch-screen 
voting.
    The committee is considering a variety of issues, including 
standardized ballots, uniform poll closing times, a national election 
day holiday, weekend voting, voter education, and federal funds to 
allow local and state jurisdictions to upgrade equipment.
    Friday's meeting was the only scheduled for Texas. Future hearings 
are planned for Florida, Chicago and several locations in the South.

    The Chairman. Well, thank you very much, Congresswoman Lee. 
I want to thank you and the Congressional Black Caucus for your 
leadership and commitment to this issue. There seems to be a 
belief that interest in this issue has largely died out here on 
the Hill. I think your statement today indicates that at least 
there are some Members of Congress that do not agree with that.
    We intend to mark up this legislation, which you and I 
would agree is a modest, very modest piece of legislation, and 
try and get it passed through the Senate. I do not know where 
the controversy would reside. I would look forward to doing 
what I can to help you with H.R. 60 and with other measures.
    I also agree with you that--and I would be interested in 
what our other witnesses have to say--unless there is some 
funding for some of the poorer parts of America, that it is 
highly unlikely that they will be able to make the 
technological changes which are necessary so that every vote 
has an equal opportunity to be voted no matter how high or low 
income area the voting procedure takes place.
    So I want to thank you very much. I thank you for your 
compelling statement. I want to thank you for your leadership, 
and I hope that we can contradict the prevailing view in some 
quarters that the Congress has lost interest in this issue.
    I thank you, Congresswoman Lee.
    Ms. Lee. Thank you very much, Mr. Chairman. If I might 
close by simply encouraging you, as you are already encouraged. 
I believe that the American people still have a passion from 
this issue. The hearings that we have held, both the 
Congressional Black Caucus and the Democratic Caucus on the 
House side, when we have visited in jurisdictions just plain 
citizens, if you will, that are not wearing any particular 
banner, come up and say: We want some solutions.
    I think you are absolutely right. If the federal government 
does not collaborate with funding, rural communities that are 
still using paper ballots, and even though they may be smaller 
in population, probably will not be able to change their 
structures if they do not have the incentive grants or 
collaborative dollars that will be very helpful to us.
    So I think that is extremely important, along with, if you 
will, the work that I hope the Civil Rights Division of the 
Attorney General's office will do to clear up the ills or the 
concerns of what occurred with some of the activities in 
Florida. Without again retracing the steps of that election, I 
would like to just look at how we can be better at allowing 
everyone the right to vote without intimidation or fear.
    So I thank you very much.
    The Chairman. Thank you again, and thank you for coming to 
visit with us. I look forward to working with you as we make at 
least some measurable progress on this issue before the 2002 
election. Thank you very much, Congresswoman Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    The Chairman. Our first panel is: the Honorable Betsey 
Bayless, who is the Secretary of State of the State of Arizona; 
and the Honorable John Willis, Secretary of State of the State 
of Maryland. I want to thank both of you for being here. The 
Honorable Betsey Bayless is an old and dear friend.
    John Willis, I want to thank you for being here and I want 
to mention that we had a wonderful town hall meeting not long 
ago at St. John's after I visited with members of the 
legislature, where I was very warmly received, and I appreciate 
that--far more warmly received than when I went to school 
there. I thank you.
    Betsey, we will begin with you. Thank you.

               STATEMENT OF HON. BETSEY BAYLESS, 
              SECRETARY OF STATE, STATE OF ARIZONA

    Ms. Bayless. Mr. Chairman, good morning. I appreciate the 
opportunity to present my views regarding election reform.
    While election----
    The Chairman. By the way, maybe you might make some 
remarks, if you could, at the end of your prepared remarks 
concerning Congresswoman Lee's comments, if you could. I know 
you were paying attention to them. Thank you. Go ahead.
    Ms. Bayless. Mr. Chairman, in fact, I think I will cover 
some of the points in my prepared remarks, and then I have got 
several other things to say.
    The Chairman. Thank you.
    Ms. Bayless. While elections should be conducted by state 
and local officials, there are several ways that the federal 
government could assist the states in improving the accuracy, 
integrity, and uniformity of voting throughout the United 
States. First, federal funding is necessary to enable states to 
upgrade voting equipment and eliminate punchcards.
    Second, federal standards for voting should be updated, 
including standards for Internet voting systems.
    It has been 6 months since election day 2000. Hardly a day 
goes by without someone saying to me, ``Could the problems of 
Florida happen in Arizona?'' My standard answer is the 
following: Arizona has excellent laws and uniform voting 
procedures in place. However, the voting equipment used in 
parts of Arizona needs to be improved to equalize voting and to 
reduce the rate of voter error in attempting to cast a vote.
    Since 1979, the Arizona Secretary of State has been 
required by statute to adopt a procedures manual to provide 
correctness, impartiality, and uniformity in the conduct of 
elections and tabulations of results. While our laws and 
procedures in Arizona work well to provide uniformity, ease of 
voting would be improved with a modest amount of funding, 
actually $3.4 million.
    In 1994, the Maricopa County Board of Supervisors, of which 
I was a member, voted to purchase optical scanning election 
equipment for $6.4 million. Four other counties followed 
Maricopa County's lead, so now 80 percent of the voters in 
Arizona utilize marked paper ballots with optical scanning 
equipment. Ten of the counties in Arizona, representing 20 
percent of the voters, still rely on punchcards. Cost is 
obviously the controlling factor for continuation of punchcard 
voting in these ten counties.
    I believe that equalizing voting systems across our state 
is the right thing to do because our punchcard counties are 
primarily the rural areas of the state. Many of our minority 
voters live in these counties. The 2000 Census shows that a 
large percentage of the residents of our punchcard counties are 
Hispanic and Native American. For example, Santa Cruz County 
has over 80 percent voters which are Hispanic. In Navajo 
County, over 47 percent of the voters are Native Americans. 
Federal funding will enable Arizona to eliminate punchcards.
    It is also time to update the federal standards for voting 
equipment. During my administration as Secretary of State, I 
have required companies to obtain certification from the 
Independent Testing Authority that their equipment, software 
and hardware, meet the Federal Election Commission's voting 
standards. These standards were adopted in 1993. It is crucial 
that they be updated and also that they address standards for 
Internet voting systems to ensure accuracy, integrity, 
auditability, security, and ballot secrecy.
    I believe all Arizonans should be voting on equipment that 
minimizes the possibility of accidental overvotes. I believe 
all Arizonans deserve to have confidence that their votes 
count. I believe we must eliminate punchcard voting in Arizona 
by the 2002 general election. With matching funds from the 
federal government, and up-to-date federal voting equipment 
standards, we will accomplish these goals.
    Free and fair elections are the foundation of American 
democracy. Public confidence and trust in the process is the 
cornerstone of that foundation. Thank you for your commitment 
to protect that freedom and trust.
    With regard to the Congresswoman's comments, many of the 
points that she made really involved standardization of 
procedures. She talked about punchcards and I think I have 
talked a little bit about punchcards, but one of the things 
that I notice was most lacking throughout the country was 
standardized procedures. Now, as I said in my testimony, 
Arizona for quite some time has had a procedures manual which 
has the force of law with the 15 counties in Arizona. The 
counties follow that to the letter. We update it all the time. 
It says specifically--it calls for an inspection board in the 
counties that have the punchcards so that the inspection board 
will inspect every ballot and will know when to remove the 
chad, and when to leave it on. It dictates how often the 
machines must be cleaned out, how they should be tested, and so 
on and so forth with regard to both punchcard and also with the 
optical scan voting.
    I think it would be very helpful to have some standards 
produced by the federal government, not only dealing with 
equipment, but dealing with all aspects of voting, so that as 
we move forward----
    The Chairman. Including procedures for purging of the 
voting rolls?
    Ms. Bayless. Well, actually, Mr. Chairman, we include that 
as well in our procedure. It covers everything. In Arizona it 
is very, very difficult to even get a voter onto the inactive 
list. Now, once a voter is on the inactive list, an individual 
may, if that person shows up at the polls, the individual may 
vote what we call a ``ballot to be verified.''
    Now, the Congresswoman called it a provisional ballot. It 
is exactly the same thing that we call a ``ballot to be 
verified.''
    People make their assertion and fill out, complete the 
ballot, and that is checked at a subsequent time.
    So, in some states--it is not just Arizona, but in some 
states--these kinds of issues are covered by standards. I think 
it would be very helpful to have some standards published by 
the federal government. Of course, it should be voluntary that 
the states would buy into the standards. But I can tell you 
from Arizona's standpoint, we think it would be very 
worthwhile.
    [The prepared statement of Ms. Bayless follows:]

    Prepared Statement of Hon. Betsey Bayless, Secretary of State, 
                            State of Arizona

    Mr. Chairman, distinguished members of the committee--good morning. 
I appreciate this opportunity to present my views regarding election 
reform.
    While elections should be conducted by state and local officials, 
there are several ways that the federal government could assist the 
states in improving the accuracy, integrity and uniformity of voting 
throughout the United States. First, federal funding is necessary to 
enable states to upgrade voting equipment and eliminate punch cards. 
Second, federal standards for voting equipment should be updated, 
including standards for Internet voting systems.
    It has been 6 months since Election Day 2000. Hardly a day goes by 
without someone asking me, ``Could the problems of Florida happen in 
Arizona?'' My standard answer is the following: Arizona has excellent 
laws and uniform voting procedures in place; however, the voting 
equipment used in parts of Arizona needs to be improved to equalize 
voting and to reduce the rate of voter error in attempting to cast a 
vote.
    Arizona has a solid foundation of long-established statewide 
uniform procedures that govern the conduct of elections. Since 1979, 
the Arizona Secretary of State has been required by statute to adopt a 
Procedures Manual to provide correctness, impartiality and uniformity 
in the conduct of elections and the tabulation of results. This manual 
has the force and effect of law. In fact, it is a criminal offense to 
violate the Arizona Secretary of State's Election Procedures Manual.
    In Arizona, the Secretary of State's Office is also required to 
conduct a mandatory training course in election laws, procedures and 
ethics every 2 years for the certification of county election officials 
and employees.
    While our laws and procedures in Arizona work well to provide some 
uniformity in our state, ease of voting would be improved with a modest 
amount of funding to upgrade voting equipment. We have estimated that 
an investment of $3.4 million would provide optical scan voting systems 
for our counties that are currently using punch card systems.
    In 1994, the Maricopa County Board of Supervisors, of which I was a 
member, voted to purchase optical scanning election equipment for $6.5 
million. Prior to that time, Maricopa County used punch card equipment. 
The large volume of ballots would heat up and burn out the tabulating 
machines. Election results were delayed until the next morning. We had 
had enough of punch cards.
    In addition to speed of obtaining results, one of the benefits of 
optical scan tabulation is that when a voter casts a ballot at the 
polling place, the scanning machine will inform the voter of any 
accidental overvotes, which would invalidate the votes for a particular 
office. The voter then has the option of voting a new ballot or 
directing the election official to accept the ballot.
    Four other counties followed Maricopa County's lead. Now, 80 
percent of the voters in Arizona utilize marked paper ballots with 
optical scanning equipment. Ten of the counties, representing 20 
percent of the voters, still rely on the punch cards. Cost is obviously 
the controlling factor for continuation of punch card voting in ten 
counties in Arizona.
    I believe that equalizing voting systems across our state is the 
right thing to do because our punch card counties are primarily the 
rural areas of the state. Many of our minority voters live in these 
counties. The 2000 Census shows that large percentages of the residents 
of our punch card counties are Native Americans and Hispanics. For 
example:

Cochise County, 30.7 percent of the population is Hispanic/Latino
Greenlee County, 43.1 percent of the population is Hispanic/Latino
Pinal County, 29.9 percent of the population is Hispanic/Latino
Santa Cruz County, 80.8 percent of the population is Hispanic/Latino
Yuma County, 50.5 percent is of the population is Hispanic/Latino
Coconino County, 28.5 percent of the population is Native American
Navajo County, 47.7 percent of the population is Native American

    In Navajo County only 45.9 percent of the population is White/
Caucasian.
    And finally, just a few weeks ago one of Arizona's cities 
experienced a serious problem with punch cards. My state election 
director was appointed by the superior court as a special master to 
oversee a re-tabulation of the results of a mayoral and city council 
race. She discovered that the coded punch cards for two precincts were 
inadvertently switched with each other, causing the votes to be counted 
for the wrong candidates. Neither the pollworkers, nor the voters, 
could determine by looking at the ballots that they were key-punch 
coded for a different precinct. An experienced county election 
official, who was conducting the election for the city, did not pick up 
this error during the first count of the ballots. After the ballots 
were re-tabulated according to the precincts in which they had actually 
been voted, the outcomes of the mayoral and city council races were 
reversed.
    This never would have happened with optical scan equipment. They 
are not only more user-friendly for the voters--they are more user-
friendly for election officials. This incident has only added to voter 
distrust of punch card voting in Arizona. Federal funding will enable 
Arizona to eliminate punch cards.
    It is also time to update the federal standards for voting 
equipment. I have always supported the adoption of federal standards 
for voting equipment. Before equipment may be purchased for use in 
state and federal elections in Arizona, the Secretary of State must 
certify the equipment. During my administration, I have required 
companies to first obtain certification from the Independent Testing 
Authority that their equipment's software and hardware meet the Federal 
Election Commission's Voting Standards. These standards were adopted in 
1993. It is crucial that they be updated and also that they address 
standards for Internet voting systems to ensure accuracy, integrity, 
auditability, security and ballot secrecy before any new system is used 
in binding elections for federal and state offices.
    I believe all Arizonans should be voting on equipment that 
minimizes the possibility of accidental overvotes. I believe all 
Arizonans deserve to have confidence that their votes count. I believe 
we must eliminate punch card voting in Arizona by the 2002 General 
Election. With matching funds from the federal government and up-to-
date federal voting equipment standards, we will accomplish these 
goals.
    Free and fair elections are the foundation of American Democracy. 
Public confidence and trust in the process is the cornerstone of that 
foundation. Thank you for your commitment to protect that freedom and 
trust.

    The Chairman. Thank you.
    Mr. Willis, welcome.

               STATEMENT OF HON. JOHN T. WILLIS, 
             SECRETARY OF STATE, STATE OF MARYLAND

    Mr. Willis. Thank you very much, Mr. Chairman. I want to 
commend the Committee for being one of the first Committees on 
the Hill on March 7 to address this issue, and, I think, 
addressing it in the proper tone and the proper manner.
    Also, your appearance in Annapolis caused quite a stir. 
Unfortunately, I was unable to attend, but I know Delegate 
Hurson and some of the other leaders in campaign reform in the 
State of Maryland appreciate your attendance. They will be 
persisting and, hopefully, they will be as successful as you 
have been here on the Hill in Annapolis.
    The Chairman. Thank you.
    Mr. Willis. As I prepared today I wondered how I could be 
constructive and positive, noting that you wanted to focus on 
solutions. The State of Maryland has just gone through this 
process. What happens as we all look at this issue is we tend 
to think all the voting systems as the one that we used, or the 
one that we use in our state or what we are familiar with. The 
2000 election showed there is this great disparity throughout 
the country and, even among jurisdictions in the state of what 
goes on in the conduct of elections.
    I have distributed a written statement to you. We have 
three minor corrections, edits, we would like to make to that. 
With your permission, I would like to have that entered into 
the record.
    The Chairman. Without objection.
    Mr. Willis. It is a pleasure to be here with Betsey 
Bayless. We were on a National Association of Counties 
committee together some years ago. The second thing is, as I 
indicated, we just went through this process. Our governor, 
even before the election was determined, appointed me as Chair 
of a committee in Maryland to look at the Maryland procedures 
and laws.
    Maryland is among one of the best states in the country in 
capturing voter intent. In the 1996 election we were the third 
best state in the country in terms of the rate of error. We 
even exceeded that in 2000. But I think Maryland is an 
interesting case study. Our full 124-page is on the web. It 
might be instructive to you and your Committee in its work.
    The basic finding was that voting systems do make a 
difference and that procedures, as Secretary Bayless said, do 
make a significant difference. When I do election studies--I 
teach part-time at the University of Baltimore right now and 
have been involved in this subject matter for 20, 25 years--I 
do 20-year studies. We did a 20-year study in Maryland and it 
quite clearly showed 19 of our counties have changed systems in 
the last 6 years.
    We have reduced the error rate in Maryland by two-thirds as 
a result of 19 of our 24 jurisdictions modernizing their 
equipment over the last decade. There is no question that you 
can reduce error rate. It is not a question of spending a lot 
of time. It is a question, quite frankly, of resources, 
training, and proper procedures to implement the system.
    But to give you a perspective on what that means, the State 
of Maryland had over 2 million voters. We had 10,553 who did 
not express a preference for president. That is 0.518 percent. 
At the polling place it was less. It was .450 percent. I mean, 
it was very, very low, and it is directly related to what 
Secretary Bayless had indicated: improvement in machinery.
    We publish through my office, the Secretary of State's 
office, the Code of Maryland Regulations and the procedures for 
the six different types of systems that we use in Maryland are, 
in fact, spelled out in the Code of Maryland Regulations.
    What we have recommended in Maryland is that we move toward 
a unified statewide system, because even in Maryland we have 
disparities that occurred among our voting systems. Montgomery 
County, which I am sure you are familiar with, north of the 
District, is one of our wealthiest jurisdictions. It is the 
last remaining punchcard county in the State of Maryland. Now, 
we are talking about a county that is in the top 15 in 
education, the top 15 in income, the top----
    The Chairman. Well, how do you account for that?
    Mr. Willis. They use punchcards.
    The Chairman. How do you account for the fact that they 
have not changed?
    Mr. Willis. They have not changed because they bought their 
system over 25 years ago. They were in the front edge of 
technology. They do not use the VotoMatic. They use a DataVote 
kind of a system. Twenty-five years ago, that was an advance, 
and they were a growing population at that time and they were 
interested in ``how can we process more quickly the ballots.''
    The Chairman. But is it not generally the rule that the 
oldest technology is in the poorest counties?
    Mr. Willis. Well, it is still true with some of our old 
lever machines that are in rural counties. In Dorchester County 
and Allegany County--in the mountains--we have old lever 
machines. Most of the technology changes in Maryland, as I 
said, have occurred recently. In addition, what our counties 
have done, that gets into a solution, is that they have leased 
their machines as opposed to purchase, which reduces the cost 
tremendously.
    But the point I wanted to make about Montgomery County is 
that in Montgomery County, which has these high indices, they 
are the only county in Maryland that uses the punchcard, 27 
percent of our votes that were not counted came out of 
Montgomery County. It is directly related to technology. We 
have one precinct, a senior citizen precinct in Montgomery 
County, that had more ``no votes'' than votes that were not 
counted in 8 other Maryland counties. The reason is simply the 
technology employed by the seniors that live there was 
inadequate to meet the needs of those seniors.
    Also in that county we have had some large, new immigrant 
Hispanic populations that had obvious language problems with 
that kind of a system.
    Part of the point I would like to make----
    The Chairman. Your argument is made for voter education.
    Mr. Willis. Well, it is not just voter education, because 
it is the system used to do it. We have similar population 
groups in other jurisdictions that do not have that problem, 
because you can have technology that prevents overvoting 
(Baltimore City). We converted in Baltimore City to direct 
recording electronic (DRE) voting system. You cannot overvote. 
DRE systems can be adapted both to the disability community and 
language needs. You can program for different languages.
    Secretary Cox and I--and I see our former Secretary of 
State, Senator Cleland, has joined us. Secretary Cox and I have 
talked about this at great length and she has recommended 
basically the same thing that my committee has recommended, 
that we move toward an electronic kind of a process, which will 
minimize voter error.
    The Chairman. Do you think the best technology is the 
touchscreen technology?
    Mr. Willis. I think ultimately that is the direction we 
will move. I made reference in my printed testimony to the 
debate that we had in this country 65 years ago about paper 
ballots versus voting machines. If you look at the substance of 
that debate, that movement from paper ballots to voting 
machines, we are having the same basic discussion now: How is 
it that we can account for large numbers of votes, process 
those votes in an efficient, accurate, timely manner, and have 
confidence in the system?
    We made that transition. I think we are in that same 
position now, moving from punchcards to electronic voting and 
even to the optiscans, which do a good job in Maryland, of 
counting votes and around the country--as long as they are 
precinct count, not central count systems. You can reduce that 
error rate by improving technology. You certainly could do it.
    We do it in every other phase of our business and daily 
lives. In one of our committee hearings I pointed out to 
somebody that the very person you are trying to help--that 
Congresswoman Lee and I have testified about in front of the 
Black Caucus--is the person who is working at McDonald's, who 
is the deliveryman. What is the delivery person using when they 
are coming for Federal Express? They are punching in numbers 
electronically. If you go to a restaurant and you order a meal, 
the person who is waiting on you uses a touchscreen system.
    The public is way ahead of where the election 
infrastructure is on this. It is not just a matter of access at 
home. It is what the people are using in their daily lives. I 
think that transition is going to come.
    One other solution that our committee came up with was that 
we think the technology is going to change every 3 to 5 years. 
Therefore, we proposed in the State of Maryland--and the 
governor for the first time in the history of the state--
provided for state funds. I asked Secretary Bayless this. 
Historically, counties have been totally funding elections. We 
have agreed to fund any new system in Maryland 50-50, state 
money and county money.
    What we have also suggested is that we look into leasing 
for the next 3 to 5 years because we anticipate the technology 
is going to be able to change, adapt to this system. I an 
encouraged by what I hear from vendors. Major technology 
companies, Cisco, IBM, some of the consultant companies, are 
getting into this market and I think that we are going to see 
some dramatic improvements in the kind of technologies 
available.
    One other point about suggestions----
    The Chairman. Let me ask you and Betsey real quick. You in 
the state are willing to provide matching funds. Do you think 
the federal government should provide matching funds, and if so 
should there be a means test? Should we be providing funds for 
the poorest county in Texas as opposed to Montgomery County? I 
would like to ask you both.
    Mr. Willis. I believe that there should be--yes, that the 
federal government should be a partner with state and local 
governments in correcting this problem. I think that what I 
suggested in my written testimony was that the federal 
government appropriate $1 per person of voting age to each 
state. Then those state funds could be conditioned. I have no 
problems with putting, one, adherence to the standards that 
Secretary Bayless was talking about. I have no problems with 
conditioning that.
    I do think that if you wanted to have a grant process that 
rewarded, additionally, those lower income jurisdictions I 
would not have a problem with that situation whatsoever. But I 
think that states, that jurisdictions that do make 
improvements--for example, the State of Maryland, the State of 
Georgia, the State of Florida--those that are moving ahead 
ought to be eligible to apply for those funds. In other words, 
if we are going to start spending them and later this fall, in 
whatever may come out of this between now and October 1st, that 
we be eligible to apply for those funds if they met those 
certain standards.
    The Chairman. Can I ask if Betsey agrees with that? Do you 
agree with that?
    Ms. Bayless. Mr. Chairman, members of the Committee, in 
Arizona, of course, the 10 counties that I am talking about 
that have punchcards are all the low-income rural counties.
    The Chairman. That is generally the case.
    Ms. Bayless. Yes, that is generally the case. I do think 
that the federal government should be a partner with the State 
of Arizona. Now, it is hard for me to talk about every other 
state because, frankly, I do not understand why some of the 
more wealthy counties have not moved away from punchcards a 
long time ago, like the wealthier counties in Arizona have.
    But having said that, I believe we must get rid of 
punchcards in the United States, period.
    The Chairman. Proceed, Mr. Willis.
    Mr. Willis. Senator, just to clarify for my friends in 
Montgomery County, because sometimes they get disturbed when I 
use that example, you have to remember it is a matter of 
perspective. They do a wonderful job. Their error rate in 
Montgomery County is below 1 percent. They do a very, very good 
job there.
    But even compared to what their demographics would be and 
what the rest of the state, you would expect them to be even 
lower. That is the point. In the research, you have to watch 
out when you use statewide numbers or county numbers. You 
really have to get down to the precinct level. The indication 
is at the precinct level, even in Montgomery, some of the 
disparities that the Congresswoman talked about and Secretary 
Bayless noted will start appearing when you look at the 
precinct level.
    The Chairman. I got you, okay. Are you finished?
    Mr. Willis. Yes, sir. The suggestions--this is a topic--you 
are passionate about the campaign finance and what you have 
been working on throughout all your campaigns. This is a topic 
that I have been devoting a lot of time to over the last 20 
years. It can be done. It is a matter of commitment, it is a 
matter of resources. It is a matter of voting systems, 
training, and education.
    [The prepared statement of Mr. Willis follows:]

    Prepared Statement of Hon. John T. Willis, Secretary of State, 
                           State of Maryland

    Mr. Chairman, Senator Hollings, members of the Senate Commerce 
Committee, thank you for the invitation to appear before you to discuss 
the most important relationship under our constitutional structure of 
government--the relationship between individual citizens and their 
representatives. In Federalist Paper No. 22, Alexander Hamilton closed 
with the observation:

    ``The fabric of American empire ought to rest on the solid basis of 
THE CONSENT OF THE PEOPLE. The streams of national power ought to flow 
immediately from that pure, original foundation of all legitimate 
authority.''

    The 2000 Presidential election highlighted weaknesses in the 
election process which threaten the purity of the flow in the political 
stream from the people to their governmental leaders. It is, therefore, 
not only appropriate, but also imperative, that this Senate Committee, 
and other legislative bodies at all levels of government, take 
necessary, meaningful, and immediate action to guard against further 
deterioration in the quality of the relationship between citizens and 
their government.
    The right to vote is the essence and foundation of the 
constitutional framework of our federal and state governments in the 
United States. The recognition of the sanctity and power of the right 
to vote requires that its exercise not be diminished or impaired. 
Accordingly, it is mandatory that all possible steps be taken to 
guarantee that every eligible citizen in the United States has the 
unfettered opportunity to vote and that the mechanics of voting and 
election procedures facilitate--not frustrate--the free exercise of the 
right to vote.
    The conduct of elections is a complex enterprise. In the 2000 
Presidential election, more than 100 million voters cast ballots on 
over 700,000 voting machines in over 200,000 polling places throughout 
the country that were managed by approximately 22,000 election 
officials and 1.4 million part-time election workers. On election day, 
1,940,089 Marylanders voted in 1,666 precincts at 1,459 polling places 
throughout the state, and 96,366 absentee ballots were counted within 
several days thereafter. Hundreds of state and county election 
officials, along with over 17,000 election judges stationed at the 
polling places, were responsible for the administration of the recent 
election in Maryland.
    Despite the size and scope of election activity, and the important 
consequences of elections for citizens, the infrastructure for the 
administration of elections lags well behind the support systems for 
routine personal, commercial, governmental, and social interaction in 
our nation and respective states. Billions of transactions utilizing 
modern technology are conducted every day by U.S. citizens with a high 
degree of confidence and user satisfaction. Citizen-voters should have 
the same level of confidence and satisfaction in the accuracy and 
capability of the systems and equipment used to exercise the most 
fundamental right--the right to vote. The technologies used for 
obtaining money at the ATM, pumping gas at the neighborhood service 
station, making airplane reservations, or checking out of the 
supermarket should be available for exercising the most important and 
fundamental right in our country.
    Elections in this country should be administered by comprehensive 
election management systems which would provide electronic linkage 
through all phases of election administration--from voter registration 
before the election to the voting machines in polling places on 
election day and from the initial tabulation of results to the official 
certification of the election by the appropriate reviewing entity. 
Assisted by adequate resources and advanced technology, a comprehensive 
election management system can ensure accurate election outcomes and 
enhance public confidence in the election process.
    A central component of the current election process is voter 
registration which the U.S. Congress has long recognized in the passage 
of landmark legislation such as the 1965 Voting Rights Act, as amended, 
the 1984 Voting Accessibility for the Elderly and Handicapped Act, the 
1986 Uniformed and Overseas Citizens Absentee Voting Act, and the 1993 
National Voter Registration Act (the ``Motor Voter'' Act). Modern 
technology can be employed to ensure compliance with these federal laws 
as well as make voter registration easier and more convenient for the 
citizen-voter. On-line access to voter registration information and 
applications, expanded opportunity to register at schools, government 
offices and public places, and electronic transfer of registration 
between jurisdictions can be securely accomplished. Election 
administrators can also benefit from greater use of technology in the 
voter registration process with improved databases, verification of 
information with non-election administrative agencies, and the sharing 
of information across jurisdictional lines.
    For example, the State of Maryland began constructing in 1998 a 
statewide voter registration system as part of its comprehensive 
election management system. It is expected that the system will be 
functional by December 2001 and will allow real-time access to voter 
registration rolls by county and state election officials. This 
capability will ensure that a voter is not registered in more than one 
jurisdiction, interface with other governmental agencies in Maryland 
(e.g., the Motor Vehicle Administration and the court system), and 
enable Maryland to cross reference its voter registration database with 
our neighboring states. With additional resources, Maryland envisions 
having a computer in each polling place with access to the statewide 
voter registration system to ensure that the voter is at the correct 
polling place and to verify the signature on the voter authority card 
signed at the polling place with the signature on the voter 
registration application originally submitted by the voter.
    During the recently concluded session of the Maryland General 
Assembly, legislation was adopted in response to reports of Maryland 
citizens being unable to vote after completing a change of address form 
at Maryland's Motor Vehicle Administration. Maryland Senate Bill 740 
and Maryland House Bill 1458 will simplify the voter registration 
process for a voter moving from one jurisdiction to another within 
Maryland by providing for a simple transfer of registration rather than 
a ``drop and add'' process. In addition, new statutory and 
administrative provisions will streamline the transfer of voter 
information between the Motor Vehicle Administration and the Maryland 
State Board of Elections.
    In addition to needed improvements in the voter registration 
process, the 2000 Presidential Election dramatically highlighted the 
importance of the voting system technology used to cast and count 
votes. Maryland's Governor Parris N. Glendening appointed a Special 
Committee on Voting Systems and Elections Procedures in Maryland on 
December 4, 2000, before the 2000 Presidential Election was judicially 
determined, to evaluate the voting systems and election procedures in 
Maryland, review existing standards for recounts and contested 
elections, recommend appropriate funding levels to provide Maryland 
with accurate, convenient and reliable voting systems, and recommend 
statutory and regulatory changes to ensure full and fair elections. The 
full 124 page Report and Recommendations of the Special Committee can 
be accessed from the Office of the Secretary of State's website at 
http: // www.sos.state.md.us.
    As a result of its 2 months of research, study and work, the 
Special Committee confirmed that the type of voting system used by a 
jurisdiction does make a difference in the accuracy of the vote count 
and that election procedures do affect the quality of the election 
results. During the past decade, 19 Maryland jurisdictions replaced 
mechanical lever and punchcard voting systems with optical scan or 
Direct Recording Electronic (electronic touchscreen ballot) voting 
systems. The change to technologically more advanced voting systems has 
been accompanied by a significant reduction in the percentage of 
overvotes and undervotes for the highest office on the ballot. See 
Exhibits 1 and 2 showing the percentage and number of ``no votes'' for 
President in Maryland subdivisions and by voting system from 1980-
2000.\1\
---------------------------------------------------------------------------
    \1\ A ``no vote'' for President represents the number of voters not 
recorded as voting for President. A ``no vote'' includes voters who 
deliberately did not cast a vote for President, who voted for more than 
one for President, or who may not have had their vote accurately 
counted by the voting system candidate utilized by the voter.
---------------------------------------------------------------------------
    With 2,036,455 voters participating in the 2000 Presidential 
election in Maryland, only 10,553 voters were not recorded as casting a 
vote for President yielding a low percentage of unrecorded votes in 
sharp contrast to the experiences in other states. This computes to a 
0.518 percent percent of ``no vote'' for the 2000 Presidential 
election, a nearly two-thirds reduction since the last Presidential 
election without an incumbent candidate (1988). It should be noted that 
at the polling place, the percent of ``no vote'' for President in 
Maryland in the 2000 election was 0.450 percent. The rate of ``no 
votes'' for absentee ballots is generally higher in each election and 
increases the rate of ``no votes'' for combined county totals. Modern 
voting systems, specifically the precinct count optical scan and Direct 
Recording Electronic voting systems, can prevent the voter from 
``overvoting'' a ballot at the polling place and, in Maryland, have 
proven to be accurate in vote counting. Maryland's current and past 
experiences with voting systems \2\ parallels the experiences around 
the country as described hereinbelow by the type of voting system used:
---------------------------------------------------------------------------
    \2\ See pp. 19-28 of the Report and Recommendations of the Special 
Committee on Voting Systems and Elections Procedures in Maryland 
(February 2001) for a more complete evaluation of the voting systems 
used in Maryland.
---------------------------------------------------------------------------
    1. The Votomatic stylus punchcard voting system, when used in 
Maryland from 1980-1992, failed to capture the voter's intent 
accurately as evidenced by jurisdictions using these systems 
consistently having substantially higher percentages of ``no votes'' 
for President than the statewide average.
    2. The central count Datavote punchcard system was used in the 2000 
Presidential Election at the polling places in Montgomery County, 
Maryland, a large, wealthy, highly educated suburban county, and for 
absentee ballots in Allegany County, a Western Appalachian mountain 
region county with below statewide average education and income 
indices. While Montgomery County represented 18.40 percent of the 
state's total voter turnout, this upscale jurisdiction accounted for 
27.12 percent of the ``no votes'' in Maryland and reported 2,565 
overvotes (in excess of 2,000 more than the rest of the state 
combined). In Allegany County, 9.9 percent of the absentee ballots were 
not counted as having a proper vote for President, more than twice the 
rate of any other jurisdiction and five times the state average.
    3. Although mechanical lever machines prevent overvotes, the 
machines are no longer manufactured, replacement parts and service are 
difficult to obtain, and reviews of precinct level data shows 
substantial and sporadic variances among precincts in ``no votes'' cast 
in each election and for different elections. See Exhibit 3 showing the 
four precincts in the last three Presidential elections that recorded 
the most number of ``no votes'' in Prince George's County, Maryland.
    4. While precinct count optical scan voting systems have proven 
generally accurate in counting ballots in Maryland, voter intent can 
still be difficult to determine and the potential for preventable voter 
error exists. Exhibit 4 contains examples of optical scan ballots where 
the voter intent is clear but the optical scan voting system would not 
count some votes cast because the voter's marks do not fall within the 
circle. Optical scan voting systems are not accessible to all 
individuals with disabilities and do not allow visually impaired 
individuals to cast a secret ballot.
    5. Direct Recording Electronic voting systems (``DRE''), the most 
modern voting equipment available, provide voters with immediate visual 
feedback, can prevent overvotes, are capable of creating a paper trail 
(if necessary for a recount), and can handle the specialized needs of 
the voting population, particularly individuals with disabilities and 
non-English speaking voters. In Baltimore City, the transition from 
mechanical lever machines to AVC Advantage, a Direct Recording 
Electronic voting system, was successfully accomplished resulting in a 
reduction of the percentage of ``no votes'' from 1.73 percent in 1988 
(the last comparable non-incumbent Presidential election) to 0.72 
percent in 2000. The disparities between precinct ``no vote'' rates in 
Baltimore City has been virtually eliminated with 311 precincts out of 
325 having 10 or less ``no votes'' and with the highest number of ``no 
votes'' being 19.
    In order to make reasoned correct evaluations and judgments about 
voting systems, equipment, and election procedures, it is important to 
ensure the accuracy of source data and to employ appropriate 
methodology. Analysis by, and action based upon, anecdotal evidence 
should be avoided. In my research, longitudinal studies and accounting 
for demographic factors (e.g., education, income, and race) are 
essential. It is also important to capture census block and precinct 
level data as aggregating data at the county, state, and national level 
can mask substantial disparities among population groups and disguise 
differentiating circumstances and factors. Other problems in conducting 
research careful attention must be given to differences in terminology 
and procedures used by each of the local election officials which make 
adjustments necessary for accurate analysis.
    Notwithstanding the comparative accuracy of Maryland's voting 
systems, the Special Committee on Voting Systems and Elections 
Procedures in Maryland recommended a Direct Recording Electronic as the 
preferred voting system at the polling place and an optical scan voting 
system for the absentee ballot voting system. The Maryland General 
Assembly recently adopted legislation authorizing the state Board of 
Elections to select a uniform statewide voting system, and the governor 
included funds in a legislatively approved supplemental budget to share 
the cost of new voting systems equally with county governments.
    The selection of electronic voting systems must be preceded, and 
accompanied at every step of implementation, by thorough testing to 
ensure accurate, reliable, and secure election results. Maryland and 
thirty-one (31) other states have included as part of the state 
certification process for voting systems the Voluntary Federal Voting 
Systems Standards developed by the Office of Election Administration 
and the National Association of State Election Directors. While these 
voluntary standards have been implemented in a majority of states, 
adequate resources need to be allocated to the Office of Election 
Administration for continuous updating of the standards as voting 
system technology evolves.
    While the transition to new technology is inevitably resisted for a 
variety of reasons, employing the most advanced voting systems and 
equipment is consistent with our nation's history of progress and with 
the ultimate goal of an informed and satisfied citizen-voter. In fact, 
the contemporary debate over the most appropriate voting system has a 
clear historical analogue. As the country's population grew rapidly, 
and suffrage was expanded, the voting system debate in the middle of 
the twentieth century was between maintaining very carefully crafted 
rules for counting paper ballots and authorizing mechanical lever 
voting systems. The fundamental nature of the debate involving 
accuracy, security of the ballot, and ease of voter use has not 
changed. See Exhibit 5: ``Voting Machines Vs. Paper Ballots,'' The 
Baltimore Sun, May 3, 1935, (Early Edition).
    In American politics, close elections are not unusual and occur 
regularly at every level of government and in every state. In Maryland, 
the 1800 Presidential election produced a tie in the state's electoral 
votes. In the 1904 Presidential election, the difference between the 
leading Republican and Democratic state electors was a mere fifty-one 
(51) votes. Former Congressman Kweisi Mfume commenced his distinguished 
career with a narrow three (3) vote primary election victory in a 1979 
race for City Council. Important offices at county and municipal levels 
of government are often closely decided and, in some recent instances, 
have been decided by a single vote or resulted in a tie vote. The 
frequent occurrence of close elections demands that the voting systems 
and equipment used in elections be accurate and reliable and that 
election procedures be open, clearly understood, and fair. In the 
future, there will be close elections for statewide offices, the U.S. 
House of Representatives, the U.S. Senate and, perhaps again, for 
President of the United States.
    In a speech to the delegates of the Constitutional Convention in 
1787 urging an end to divisiveness and in support of the proposed new 
governing document, Ben Franklin observed,

    ``Much of the strength and efficiency of any government, in 
procuring and securing happiness to the people, depends on opinion, on 
the general opinion of the goodness of that government, as well as of 
the wisdom and integrity of its governors.''

    Franklin's observations ring true today. The citizens' perception 
and opinion of their government and political leaders is based, in 
large part, on their level of trust in fair, open, and accurate 
elections. Improvements in voting systems and election procedures are 
therefore a crucial component in promoting the essential relationship 
in our democratic form of government between actively engaged citizens 
and a fair, responsive government which was cherished by our nation's 
founders. In order to manifest the wisdom and integrity urged by Ben 
Franklin, a strong federal, state, and local partnership needs to be 
forged for election reform.
    While, traditionally, elections have been funded by local 
government, the federal government as well as state governments should 
partner with counties and municipalities in the funding of the 
comprehensive election management systems. Members of the election 
community know the problems with current election administration and 
know how to solve them. What these hardworking and dedicated election 
officials need are resources to make the necessary changes to improve 
the administration and conduct of elections in the United States. State 
and local governments should not bear alone the full burden of 
implementation of new technologies for voter registration and voting 
systems. The National Association of Secretaries of State (``NASS'') 
adopted on February 6, 2001, a useful resolution to guide federal, 
state, and local officials in election reform efforts. See Exhibit 6.
    Accordingly, I strongly urge this Senate Committee and the U.S. 
Congress to seize the opportunity presented by the increased public 
awareness resulting from the confusing and uncertain 2000 Presidential 
Election. I encourage the federal financial support for state and local 
election officials and suggest an annual appropriation from the U.S. 
Congress of $1.00 to each state per individual of voting age to assist 
in the necessary improvements of the equipment, voting systems, and 
procedures used in the conduct of federal, state, and local elections. 
Together, we can take significant, wise steps forward in assuring the 
integrity of the conduct of elections for all of the citizens of our 
country and ensure that the voice of the people is correctly and 
unambiguously heard.
                                 ______
                                 
             SUMMARY OF PROPOSED ELECTION REFORM SOLUTIONS

Recommendations for the U.S. Congress
    1. Annual appropriation from the U.S. Congress to each state of 
$1.00 per individual of voting age to assist in the necessary 
improvements of the equipment, voting systems, and procedures used in 
the conduct of federal, state, and local elections.
    <bullet> Allow federal funds to reimburse those states which have 
made improvements to the equipment, voting systems, and procedures 
since January 1, 2001.
    2. Annual appropriation from the U.S. Congress for continuous 
updating of the existing Voluntary Federal Voting Systems Standards as 
voting system technology evolves.
    3. Encourage states to adopt and implement the Voluntary Federal 
Voting Systems Standards by conditioning federal funds for states on 
their adoption and implementation.
    4. Authorize official election documents to be mailed with first 
class handling at the third class postal rate.
    5. Assist in the research and development of technology used for 
voting systems, equipment, and election procedures.
    6. Provide funding for the testing of current and future voting 
systems and equipment.
    7. Encourage states to develop statewide voter registration 
databases.
    8. Encourage state and local officials to collect and report 
election and voter turnout in a consistent and comparable format.
Recommendations for State and Local Governments
    1. Implement a uniform statewide voting system or uniform statewide 
criteria for the voting systems used in the state. (Maryland recently 
adopted Senate Bill 833 and House Bill 1458 which authorizes the 
Maryland State Board of Elections to select a uniform voting system for 
polling place voting and a uniform voting system for absentee voting.) 
Suggested voting system criteria should include:
    (a) Present the voter with a ballot where it is easy to recognize 
all races, candidates, and issues.
    (b) Properly record a voter's ballot choices by preventing 
overvoting and unintentional undervoting.
    (c) Provide the voter with an opportunity to review the ballot 
choices and, if necessary, correct any ballot errors prior to casting 
the vote.
    (d) Provide individuals with disabilities the ability to cast a 
secret ballot and the ability to verify the votes cast.
    (e) Provide the voter with the highest degree of secrecy as 
practicable when casting a ballot.
    (f) Allow for precinct count of votes as well as future electronic 
linkage to a central location to facilitate reporting.
    2. Implement a statewide voter registration database with links to 
the local election officials.
    3. Share voter registration lists with neighboring states to ensure 
that voter registration lists are clean.
    4. Authorize ``provisional ballots'' or ``challenge ballots'' which 
provide voters with the opportunity to vote at the polling place if 
errors were made in the voter registration process. (Maryland recently 
adopted Senate Bill 740 and House Bill 1457 which authorized 
provisional ballots.)
    5. Use computers in each polling place to assist election judges 
and poll workers with the election administration. The computer should 
have access to the statewide voter registration system to ensure that 
the voter is at the correct polling place and could be used to verify 
the signature on the voter authority card signed at the polling place 
with the signature on the voter registration application originally 
submitted by the voter.
    6. Implement statewide recount provisions. (The Maryland State 
Board of Elections adopted statewide regulations for recount procedures 
for each voting system used in the state. See Subtitle 12 of Title 33 
of the Code of Maryland Regulations.)
    7. Require statewide reporting to the Chief Election Official in 
the state with common definitions and reporting formats. (See Md. Ann. 
Code art. 33, Sec. 11-401.)

[GRAPHIC] [TIFF OMITTED] T8707.001

[GRAPHIC] [TIFF OMITTED] T8707.002

[GRAPHIC] [TIFF OMITTED] T8707.003

[GRAPHIC] [TIFF OMITTED] T8707.004

[GRAPHIC] [TIFF OMITTED] T8707.005

[GRAPHIC] [TIFF OMITTED] T8707.006

[GRAPHIC] [TIFF OMITTED] T8707.007

[GRAPHIC] [TIFF OMITTED] T8707.008

[GRAPHIC] [TIFF OMITTED] T8707.009

[GRAPHIC] [TIFF OMITTED] T8707.010

[GRAPHIC] [TIFF OMITTED] T8707.011

    The Chairman. Well, may I say I appreciate your passion, 
and Secretary of State Bayless' as well. I share that passion, 
because if we have campaign finance reform, unless we have a 
system where all Americans can be represented, and I think 
there is a clear case that can be made that voters in lower 
income areas of America have less opportunity for their vote to 
be counted, then you can render to a large degree campaign 
finance reform meaningless, because then more affluent 
Americans would have more influence in the electoral process.
    We are going to have a vote in a few minutes and what I 
would like to do is go over and vote. Senator Cleland has a 
statement and I think Senator Hollings does. Then I will come 
back for the next panel because, as usual, our 15-minute voting 
period will last approximately a half-an-hour to 45 minutes.
    I just have one question for both the witnesses. I want to 
thank you. What is the proper role in your view of the federal 
government in reforming this election system? I wish you would 
address the area of funding, the area of setting standards, the 
area of setting requirements, whether they be voluntary or 
mandatory. I think once we move forward on this issue there is 
going to be a degree of disagreement on exactly what the 
states' authorities are and whether they would be usurped in 
some respects by the federal government, because I think 
traditionally the role of the state has been paramount in the 
conduct of those elections.
    Ms. Bayless.
    Ms. Bayless. Mr. Chairman, Members of the Committee, I 
believe the federal government should provide some matching 
grants to states to move them out of punchcards and into higher 
levels of technology.
    The Chairman. Should the federal government have the right 
then to impose certain standards along with those moneys?
    Ms. Bayless. Well, Mr. Chairman, Members of the Committee, 
the elimination of punchcards I believe--I believe the federal 
government should provide some standards to the state. Now, I 
have to say that I believe that the adoption of the standards 
should be voluntary. I believe most states would do that, 
because I think we have seen this past year what happens when 
you do not have procedures and you do not have uniform 
procedures.
    I will assure you that, from Arizona's standpoint, we would 
gladly buy into the federal standards. Of course, we would want 
to participate.
    The Chairman. But you think they should be voluntary?
    Ms. Bayless. I believe it should be voluntary, yes, I do, 
Mr. Chairman. I believe the standards, the availability of 
grants--we have followed the FEC standards since they were 
originally adopted. We follow the standards with regard to 
voting equipment. We follow the Independent Testing Authority 
on equipment. I believe that if the FEC standard said no more 
punchcards we would very happily follow that as well.
    The Chairman. Mr. Willis.
    Mr. Willis. Yes, Mr. Chairman. I think I would suggest a 
one-third, one-third, one-third: one-third federal government, 
one-third state, one-third local. That is why I indicated the 
$1 per voting person. That would actually in Maryland be about 
$1 below what our most expensive county is paying right now. If 
we pool these resources, we can actually lower the cost per 
voter, if we pool these resources.
    Second, I think you can have funding----
    The Chairman. With voluntary or mandatory standards?
    Mr. Willis. Well, the National Association of Secretaries 
of State--I am vice chair of the election committee--we 
encourage the federal government to enhance the voluntary 
voting system standards. I believe most of the states, 32 of 
the states, are already there. We have 18 of the states that 
have not adopted those standards. I think we can get those 
other 18.
    I know we are going to be doing a national best practices 
report at our meeting July 13 to 16 in Little Rock. We will be 
coming out with our best practices report after that meeting 
and we will, of course, provide that to the Committee.
    I was intrigued by Senator Hollings and your jurisdiction 
in terms of the Commerce Committee, because I think it is 
absolutely appropriate technology for the Commerce Department. 
Because one of the things the federal government can do 
directly is research and development of voting systems, states 
and counties themselves cannot do the testing that may be 
necessary to develop a system that is appropriate to their 
jurisdiction.
    That involves a lot of research and development dollars 
that local jurisdictions simply do not have. The federal 
government can do it, share that information, and share that 
knowledge with the other jurisdictions.
    Second, you can support the actual testing of the system. 
There are laboratories that need assistance in that. We were 
down to one laboratory and then with corporate mergers we had 
some problems. There is some concern now whether accreditation 
under the National Association of Election Standards can 
actually be done in time for 2002.
    Third, you can ask the states to promote state and local 
collaboration, build statewide voter registration databases. We 
are in the process of building a statewide voter registration 
database. I told the Secretary of the Commonwealth of 
Pennsylvania we will share that with Pennsylvania. We can share 
our databases together to make sure that our rolls, our voter 
registration rolls, are as accurate as possible. We have 
already shared it with the District of Columbia to make sure 
that we are doing the best we can.
    Third, I think the carrot approach will, in fact, work. I 
think there is enough momentum at the state level. I cannot 
speak for all jurisdictions, but I certainly know that that is 
the approach we used in Maryland with our local jurisdictions, 
is the carrot approach, and I think that that could be 
successful.
    The Chairman. Thank you.
    Senator Hollings, I am going to run over and vote and then 
come back. Senator Cleland had an opening statement as well.
    Senator Hollings. Let me yield to my distinguished 
colleague. Thank you, Mr. Chairman.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman. I want 
to thank you, Mr. Chairman, and Senator Hollings for your 
continuing leadership on the issue of election reform. I can 
think of few more important objectives for the Senate than 
ensuring the integrity of the voting process and securing the 
rights of American citizens to have their voices heard and 
their votes counted. Our representative democracy is grounded 
on the principle of popular sovereignty. As Thomas Paine put 
it: ``The right of voting for representatives is the primary 
right by which other rights are protected.''
    Now that we have completed the campaign finance debate, it 
is time for election reform debate and action. In February, the 
National Association of Secretaries of State, the great 
organization I used to be part of, adopted an election reform 
resolution. One of their recommendations was that Congress 
should provide funding to the states to assist the state and 
local efforts for reform. I could not agree more.
    Several bills have been introduced in the Senate this year, 
including the McCain-Hollings-Cleland bill--I like the ring of 
that--as well as the Brownback-Schumer bill and my own 
proposal, which would address the issue of election reform. The 
Commerce, Governmental Affairs, and Rules Committees have also 
begun hearings on this priority issue.
    However, states like Florida, Maryland, and Georgia have 
already developed election reform plans and need federal 
assistance to help their efforts.
    My fear, based in large part on what I saw in my 13 years 
as Georgia Secretary of State, is that passage of time after 
the unique clarion call from the 2000 presidential election, 
especially the Florida recount, will diminish our attention, 
our sense of urgency and priority, and ultimately our 
willingness to appropriate significant sums of federal taxpayer 
dollars to address election systems reform.
    I would urge my colleagues to heed the wise words on 
election reform which appeared in the Atlanta Journal 
Constitution on March 28th: ``Congress should not squander this 
opportunity for meaningful change that will allow people to 
vote with ease and with confidence that their votes will be 
counted.'' I would like to have that inserted into the record, 
Mr. Chairman.
    Senator Hollings [presiding]. Without objection, so 
ordered.
    [The material referred to follows:]

      [From The Atlanta Journal and Constitution, March 28, 2001]

                  Voting Reform Requires Federal Help

    Mistakes are inevitable in a national election process that gives 
50 states and 4,000 counties free rein but no federal money to operate 
their voting systems. When the mistakes grow so pervasive that 
thousands of votes and a presidential election are left in doubt, the 
country has to rethink the way it casts ballots.
    Though Georgia has already set 2004 as its goal for a uniform 
system of voting, many other states have yet to act on the lessons 
learned from the Florida debacle. The U.S. Congress ought to be 
committed to offering financial incentives to states to upgrade and 
modernize their voting systems. But the formation of separate study 
committees on the matter by both Democrats and Republicans makes it 
unlikely that the nation will see comprehensive voting reform any time 
soon.
    An example of the contrary party stances could be seen in the 
testimony this week of Georgia's Democratic Secretary of State Cathy 
Cox and State Rep. Robert Irvin (R-Atlanta) at the National Commission 
on Federal Election Reform meeting in Atlanta. While Cox talked about 
finding ways to make it easier for more Georgians to vote, Irvin 
focused on fraudulent voting and suggested that voter registration be 
done in person and that photo identification be required at voting 
places.
    Still, the best hope for bridging those disparate views rests with 
the commission, which is co-chaired by former Presidents Jimmy Carter 
and Gerald Ford. While Carter was optimistic that some reforms would 
result, he cautioned, ``Whether that will be the least common 
denominator or whether there will be some substance to it still remains 
to be seen.''
    Election reform ought to be a priority of the Bush administration. 
Even voters who feel the best man won the White House cannot be content 
with the system that got him there. A failure by Washington to overhaul 
that system and fund new election equipment will further erode voter 
confidence and ensure more disputed elections and fraud allegations.
    With voters nationwide in support of reform, Congress should not 
squander this opportunity for meaningful change that will allow people 
to vote with ease and with confidence that their votes will be counted. 
It is well within the national interest that every state have the most 
reliable and easy-to-use voting methods available. Because as Florida 
demonstrated, even problems in one state can tip the balance of an 
election.

    Senator Cleland. As a young man I had the opportunity to be 
one of the first in our country to use the then brand new 
punchcard voting machines when they were introduced in my home 
county of DeKalb County in Georgia in 1964. Then, I faced the 
even more daunting challenge of voting on that punchcard system 
absentee while I was serving in Vietnam in 1968. For 14 years, 
from 1983 to 1996, I had the privilege of being my state's 
chief elections official as Georgia Secretary of State.
    So when I saw the problems experienced in our neighboring 
state of Florida during the 2000 presidential election, with 
both citizens and election officials struggling with chads and 
so forth, I had a great deal of empathy and sympathy. I would 
say that from the beginning the punchcard ballot in Georgia had 
problems. A Congressional race recorded over 1200 overvotes 
because people voted for a straight party candidate and then 
went down and voted for that candidate. You could defeat the 
system, and the system could defeat you. We discovered that 
early-on in the punchcard ballot system. That is one of the 
things we found in the Florida system.
    I would hasten to add that I do not think Florida was, or 
is at all, unique in facing serious problems in ensuring every 
citizen's vote is tabulated. From my own experience in Georgia 
and my very able successor, Georgia Secretary of State Cathy 
Cox, who came before this Committee in March, I know that my 
state would fare no better and quite possibly much worse if 
subjected to the same set of circumstances as Florida.
    As a matter of fact, Georgia had about twice the undervotes 
as Florida. We had almost 100,000 undervotes, which means 
people went in the ballot booth, but their votes were not 
counted. Most of those undervotes occurred in the 18 counties 
that involved the punchcard ballot. Therefore, I have declared 
war on the punchcard system, especially since I am up for re-
election next year.
    [Laughter.]
    Indeed, most states suffer from some the following problems 
which jeopardize the voting rights of American citizens:
    One, unclear state laws on the counting and recounting of 
votes and on election contest certifications; Second, use of 
outdated voting machinery and the existence of multiple voting 
systems within the same state, making it impossible to have all 
the votes in the state counted or recounted under the same 
standard. I think that was one of the concerns of the Supreme 
Court when it looked at this issue.
    In Georgia, I might add, Secretary of State Cathy Cox has 
led the way. Governor Barnes has signed into law legislation 
making Georgia the first state in the nation, beginning in the 
year 2004, to have a uniform system of voting. I think the 
tendency, Mr. Willis, is to lean toward--and Ms. Bayless--the 
touchscreen technology.
    But it takes money to implement this. While the first item 
is certainly of national significance, federally established 
and funded efforts to study and make recommendations on ballot 
counting and contest standards can make an important 
contribution, these are now and should remain a matter for 
state governments.
    Although the choice of voting systems and the means for 
assuring the voting rights of service members and disabled 
citizens is also primarily a matter of state and local 
decisionmaking, I believe in these cases consensus exists that 
an infusion of federal funds can make a decisive difference. 
The Washington Post reported on April 5 that the number of 
Detroit voters whose ballots were invalidated dropped by almost 
two-thirds after the city switched from punchcard to optical 
scan machines that warn of errors and allow for an immediate 
revote. I would like that article added to the record if there 
is no objection.
    Senator Hollings. Without objection, it will be included.
    [The material referred to follows:]

               [From The Washington Post, April 5, 2001]

       Technology Slashes Detroit Voting Error; `Second Chance' 
                       Scanners Allow Correction

                  (By Ellen Nakashima and Dan Keating)

    The number of Detroit voters whose ballots were invalidated dropped 
by almost two-thirds after the city switched from punch-card to 
optical-scan machines that warn of errors and allow an immediate 
revote, according to a congressional study to be released today.
    The report, produced by the staff of Rep. Henry A. Waxman (D-
Calif.), is the first to document how a switch in technology affects 
voting results. The study is also significant because it involves a 
city with the nation's highest poverty rate, suggesting that changing 
technology can make a dramatic difference, especially in an area where 
voting machines are often outdated and voters tend to have less 
experience casting ballots.
    ``This report shows very nicely what happened in this community 
where you might expect the barriers to voting to keep the error rate 
high,'' said Charles Stewart, a political science professor at 
Massachusetts Institute of Technology. ``By a simple change in 
technology, you can reduce the error rate.''
    In 1996, when the city was using punch-card machines, 3.1 percent 
of its ballots were spoiled, more than a full percentage point higher 
than the national average. In 2000, the error rate fell to 1.1 percent, 
thanks largely to the use of optical-scan machines with ``second 
chance'' technology, Waxman's study found.
    With the newer system, a special tabulating machine optically 
``scans'' or reads the ballot as soon as the voter is finished, giving 
any voter who made a mistake--for example, by voting twice in a race--a 
chance to correct the error.
    About 20 percent of counties and more than a third of the 
population nationally use punch-card systems, and about 40 percent of 
counties and 28 percent of the population use the optical-scan system, 
although not all those systems are outfitted with second-chance 
technology.
    The use of optical-scan voting is growing as jurisdictions adopt 
newer technology. A Florida election reform task force recommended 
moving the entire state to optical ballots with second-chance 
technology, but election officials in the largest counties have said 
optical ballots are impractical in their jurisdictions.
    For Detroit, said city clerk Jackie Currie, ``It's an answer from 
heaven.'' Currie said she embarked on a search for a better type of 
voting system after a local prosecuting attorney's race in 1992 yielded 
20,000 spoiled ballots out of more 300,000 votes cast.
    In a trip to Milwaukee, she saw the optical-scan machines in use. 
``I just fell in love with it,'' she said. ``I said, `We've got to have 
this in the city of Detroit.' ''
    In 1997, the city spent $3.5 million to purchase 700 Optech 3-P 
Eagle machines, made by ES&S of Omaha, she said. They were placed in 
polling stations in Detroit's 659 precincts. The city also embarked on 
a $100,000 voter education campaign in which election officials gave 
demonstrations on how to use the machine in community centers, 
churches, government buildings and at festivals.
    Some 32 percent of Detroit's nearly 1 million people live below the 
poverty line, the highest poverty rate of cities with more than 200,000 
people. African Americans make up 76 percent of the population.
    Previous reporting by The Washington Post found that minority 
precincts using outdated punch-card machines without second-chance 
technology had the highest rates of failed votes--often as many as 1 in 
6 ballots--and that counties using second-chance technology had many 
fewer failed ballots.
    ``There's a tendency for the communities with the largest number of 
African Americans live to be the most economically strapped,'' said 
Hilary Shelton, director of the Washington bureau of the NAACP, who 
hailed the study's results. ``Most election machines that were utilized 
in black communities throughout the country were quite old and quite 
antiquated and need to be replaced.''

    Senator Cleland. Thank you, Mr. Chairman.
    It is my strong conviction that time is the enemy with 
respect to the provision of sufficient federal funds to really 
make a difference in sharply reducing the number of Americans 
who are literally being disenfranchised by voting machinery. As 
the Supreme Court majority found in Bush v. Gore: ``It must be 
remembered that the right of suffrage can be denied by a 
debasement or dilution of the weight of a citizen's vote just 
as effectively as by wholly prohibiting the free exercise of 
the franchise.''
    Thus, I see the legislation that I am proposing, which 
provides for an immediate, large and one-time infusion of 
federal funding to deal with widely recognized problems with 
our voting equipment, as complementary and not necessarily in 
competition with other bills I alluded to earlier. My bill, S. 
479, the Make Every Vote Count Act, seeks to quickly and 
effectively improve our electoral system by increasing the 
likelihood that all citizens' votes will be properly counted in 
a way which fully respects the primary role of state and local 
governments in the conduct of elections.
    It accomplishes this by providing federal funds to 
modernize voting systems, promote uniformity in voting 
equipment within the states, and require greater 
standardization in assuring the voting rights of military 
personnel abroad. In addition, it allows up to one-third of the 
funds to be used for training of election officials and voter 
education.
    Again, I would just like to thank the Ranking Member and 
the Chairman here for their efforts to address this critical 
need for reform. The issue will not be resolved in one hearing, 
but I think we have made some great strides in this Committee. 
The McCain-Hollings-Cleland bill is a good bill, and I hope it 
will be considered by the full Senate this year.
    Thank you all very much for coming. Thank you, Mr. 
Chairman.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very much, Senator Cleland.
    With respect to the panel and the question asked about the 
federal role, it is quite obvious that the feds have already 
taken a role through the United States Supreme Court. Unless 
you have a standard, that court could, following the precedent 
of Bush v. Gore, find that someone was denied their right to 
vote because there was no standard.
    So yes, we can set the standard here at the Congressional 
level. Somewhat like education, though, the primary role and 
function should be left at the state level, and what funds we 
can provide and guidance we ought do. At the federal level, the 
Bureau of Standards, now the National Institute of Standards 
and Technology, has been looking at elections for some 30 years 
or more.
    So we have an important role here at this Committee. I am 
going to submit my prepared statement for the record since the 
five bells have rung.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    The right of a free, open and honest election is the foundation 
upon which our democracy rests. During his inaugural speech in 1801, 
Thomas Jefferson said, ``I deem [one of] the essential principles of 
our government . . . a jealous care of the right of election by the 
people'' (Thomas Jefferson: 1st Inaugural, 1801). Many U.S. citizens 
feel that this ``essential principal'' has been damaged by the current 
state of our nation's election system. Two reports, by the federal 
standards and technology agency, now called the National Institute of 
Standards and Technology, one in 1978 and the other in 1988--found 
difficulties in vote-tallying stemming from management failures, 
technology failures, and human operational failures. As we all know, 
not much has changed since these reports were published; the 2000 
federal election in Florida exemplified every problem highlighted in 
those reports and more. Thus, two hundred years later, Thomas 
Jefferson's words provide a blueprint for what we all must accomplish. 
The Congress, the states, and the federal government must work together 
to rebuild the trust of the American people and restore this 
``essential principle.''
    The Committee's previous hearing on election reform focused on 
election problems evidenced in many states and experienced by many 
citizens in the 2000 election. Testimony revealed that voting and 
election systems flaws were widespread and varied. Systems that worked 
in one state, or a voting precinct, did not work as well in others. 
Nonetheless, the one thing that did not seem to vary is that most 
voting precincts experienced problems at some point in the election--
either during registration, during the act of voting, or in counting 
the vote and certifying the election.
    During today's hearing, witnesses will provide testimony on 
conclusions from several studies of our election system and potential 
solutions to fix it. Just as the problems in elections are variable, 
the solutions will likely be variable. For example, the city of Detroit 
replaced its punch card voting system with an optical scan system that 
allowed voters to check their ballots before leaving the polling 
station. The city also engaged in a city-wide voter education effort to 
inform voters about the new technology and teach them how to use it. 
This resulted in a decline of uncounted ballots from 3.1 percent in 
1996 to 1.1 percent in 2000--well below the national average of 2.1 
percent. Conversely, in a review of recent elections, the Caltech/MIT 
Voting Technology Project revealed a surprising finding: electronic 
voting, as currently implemented, has performed less well than was 
widely believed. In fact, manually counted paper ballots, followed 
closely by optical scan and lever machine ballots, had the lowest 
average incidence of undercounts. These results shows that better 
equipment in combination with voter education can have a profound 
positive effect on voters' ability to make their votes count. It may 
also show that expensive equipment alone, without education of voters 
and training of poll workers may not improve voters' ability to make 
their votes count.
    In addition to hearing about the results of recent studies on 
election reform, we will hear from 2 Secretaries of state on their 
efforts. More than 1,500 election reform bills have been introduced in 
state legislatures during the 2001 legislative sessions. Thirty-one 
states have considered legislation to upgrade or make uniform their 
voting systems. In particular, I am interested in learning what role 
the states believe the federal government should play in reforming the 
election system.
    In the current 107th Congress, more than 50 bills concerning 
elections have been introduced. Senator McCain and I have put forward 
what we hope will be part of the solution--S. 368 the American Voting 
Standards and Technology Act. This legislation would direct the 
National Institute of Standards and Technology, ``NIST'' to carry out 
the following activities: (1) facilitate the development of voluntary 
standards governing the performance of voting systems; (2) conduct a 
study of factors impacting voter participation by individuals and 
groups; and (3) implement a program making grants available to states 
and local governments to aid in the updating of voting equipment and to 
conduct voter educational programs.
    Other Senators have bills which offer reforms such as uniform poll 
closing times, same day registration, overseas military voting reforms, 
and reaffirmation of the Voting Rights Act, among others. Undoubtedly, 
this will not be the last hearing that the Senate will hold on this 
matter. Election reform is a complex problem. Senator McCain and I 
realize that our American Voting Standards and Technology Act is only 
one piece of the pie. In that regard, we look forward to working with 
other Senators who are examining other aspects of the electoral system.
    In conclusion, while we may have allowed our current election 
system to degrade to its present condition, I, for one, believe that we 
cannot let this sad state of affairs continue. All of us--the states, 
the Congress, the federal government--must do our utmost to improve our 
election system. We must, as Thomas Jefferson said, take ``jealous 
care'' of the people's right to vote because it is the very foundation 
of our great democracy.

    Senator Hollings. I want to thank both Secretary Bayless 
and Secretary Willis for their appearance here this morning and 
ask our good friend Congressman and Chairman Bob Michel to come 
on forward, you and the next panel of Bill Richardson and 
Professor Ansolabehere. The Committee will be at ease subject 
to the Chairman, who will be back momentarily.
    [Recess from 10:27 a.m. to 10:31 a.m.]
    The Chairman. The hearing will come the order. Thank you 
for being here. It is wonderful to see some of my dear friends 
from service here. Please proceed, the Honorable Robert Michel.

         STATEMENT OF HON. ROBERT H. MICHEL, CO-CHAIR, 
         NATIONAL COMMISSION ON FEDERAL ELECTION REFORM

    Mr. Michel. Mr. Chairman and Members of the Committee:
    May I first apologize for the fact that my colleague here, 
Bill Richardson and I do not have prepared statements. 
Actually, when we got the invitation from your distinguished 
Committee to our commission, we were just barely getting 
underway and, as a matter of fact, it might have been just a 
little bit premature to have the invite because we can be so 
much more effective after we have concluded our hearings, 
written our report, etcetera, etcetera.
    But with the distinguished Committee we did not want to 
decline the invitation, so we are hoping that we can make some 
contribution here in an extemporaneous sort of way.
    The Chairman. Could I just mention one thing? Perhaps it 
would be helpful in your remarks to comment on the remarks of 
the previous witnesses, in other words how you view them in the 
context of what you both are doing. Would that be okay?
    Thank you. Thank you very much.
    Mr. Michel. Mr. Chairman, first of all, you know that the 
commission of which I am now co-chairman with Lloyd Cutler, 
replacing Howard Baker, who has just been nominated to be our 
new Ambassador to Japan, President Jimmy Carter and President 
Ford are the honorary chairmen. President Carter was good 
enough to chair the first hearing that we had, down in Atlanta, 
and President Ford will chair the one as we conclude in his 
library in Michigan in June.
    Then of course, there are a number of your former 
colleagues who are members of that commission: Pat Moynihan and 
Jack Danforth. Of course, Griffin Bell and Bill Barr both were 
attorneys general in different parties; and Rudy Boschwitz, who 
is also a former colleague of yours. I mention that because it 
is a commission that has been made up with a national 
perspective and both parties, very bipartisan in nature, and a 
diverse varied citizen group--as I said, distinguished 
politicians and scholars from every part of the country, 
looking at practical policy, yet aided by task forces compiling 
best work for academic fields of law, political science and 
history.
    We have a strong program of hearings for the country, as I 
indicated. There will be four of them: the first one in 
Atlanta; the second one was in the Reagan Library in 
California. Unfortunately, Bill and I could not attend that 
hearing. We were at the first hearing. Then we will be within 2 
weeks down in Austin, Texas, for the hearing at the LBJ 
Library, and then concluding with that at Gerry Ford's library.
    Now, the scope of the commission's work is who votes, the 
breadth and accuracy of voter registration, how are votes cast 
and counted, how are disputes resolved, how are results 
reported by the media. I guess very briefly, if I could say, 
our emerging goal is for limited, but responsible federal 
partnership.
    Running federal elections is a state service, and locality, 
provided to the federal government, and they do so encumbered 
by various mandates. So it is only fair that the federal 
government should pay some of the bill. Yet, elections for the 
Congress and the presidency affect national interests and 
transcend any single state. So only fair, I guess, that within 
constitutional limits the federal government see that a few 
limited national interests are served.
    As a matter of fact, we talk about national or federal 
elections. What we really have are state elections to choose 
federal officers. So it has got to be a partnership, and we are 
hoping in our deliberations to get better voter participation. 
Oh goodness, if I remember correctly, in the last presidential 
primary election, among young people, for example, and that 
would be between 18 and 29, a miserable record of 8 percent 
turnout for those younger people. It has been riven through in 
different categories of lack of participation.
    Then of course we want to see that there is honest voting. 
Then you get to what is a registered voter and who is 
unregistered, and effective technology that effectuates the 
intent of all sorts of voters. Of course, that varies. Now, one 
would think maybe by hearing some of the testimony here this 
morning that punchcards are definitely out and everything else 
is in. That is not all that conclusive. We are going to have a 
third of the people in the next general election still voting 
by punchcards probably. So we have got to move as best we can 
to make sure that we are making some improvements over what we 
have had.
    Federal election reform does not mean a federal takeover. I 
am sorry Senator Hollings is not here because I know that he 
has been concerned about that. Election reform is likely to 
mean a shift in power to state government, to centralized voter 
rolls and standardize the definition of a vote. State 
governments will be critical in any new federal partnership.
    Florida's election reform bill is a welcome start. At our 
Atlanta hearing we heard from the Florida task force created by 
Governor Bush, which shaped the bill, even though there is 
still a great deal of bitterness about the events of that last 
year. I think the legislature has indeed shown a bipartisan 
effort here to do what they have done.
    We have learned that election reform is about a lot more 
than just picking the best machine. Different places need 
different procedures and equipment. Oregon does not even use 
polling places any more. Instead, the role of the federal 
government is to facilitate change, encourage innovation and 
competition, rather than telling everyone what machine to use.
    I know this Committee is interested in Internet voting. The 
witnesses we have heard have argued persuasively that Internet 
voting still has some fundamental problems that are far from 
being solved. But new touchscreen technology holds great 
promise. It saves money on ballot printing costs, can handle 
complex ballots in different languages, and can help disabled 
citizens vote.
    Older technologies can work well, too, especially if the 
system is set up to give voters a chance to correct their 
errors.
    These are just a few personal impressions. After our final 
hearing in Michigan, we will get together at Charlottesville in 
July, and then our goal is to have a report by September. Now, 
I do not know how that comports with the schedule of your 
committee, but there will be other committees, I think, on the 
Hill here, House and Senate, what will be holding hearings and 
discussions on this very critical issue. So hopefully what we 
are doing will be of an assist to your committee eventually. If 
it hopefully comes before your final markup, all the better.
    We want to be sure that our staff has some liaison with 
your staff and the other staffs of these committees, because it 
is useless for us to issue some report we think is going 
nowhere. I think we have got enough practical politicians in 
addition to the academicians on our commission to recognize the 
art of what is possible. That is not to say we shut out 
completely that which we know will not pass, because we ought 
to be thinking continually about new ways of improving the 
system.
    I am reminded particularly of what some of the witnesses 
said relative to the new technology. There is have some 
question whether to invest too much in today's technology when 
next year or within 6 months there will be something better. So 
we have got to remain flexible in this thing.
    Thank you, Mr. Chairman, very much for the opportunity to 
at least alert the Committee to the fact that we are in 
existence and we hope to assist in helping you as best we can.
    The Chairman. Well, we thank you, Bob. I would just like to 
say the composition of that commission is such that your 
recommendations and conclusions will be highly regarded and 
have a significant impact, I believe, on whatever actions the 
Congress may take. I think it may serve as a motivation for us 
to act.
    There is a fear, as I mentioned earlier, that we have sort 
of lost interest. I think what your commission will do will 
help us in a variety of ways. I thank you and the other members 
of the commission for serving.
    Ambassador/Secretary/friend, Mr. Richardson, welcome.

          STATEMENT OF HON. BILL RICHARDSON, MEMBER, 
         NATIONAL COMMISSION ON FEDERAL ELECTION REFORM

    Mr. Richardson. Thank you, Senator McCain. The chairman has 
outlined our goals and our objectives. I would just like to add 
a few words.
    Mr. Chairman, first of all, I am glad that you personally 
have taken this issue in terms of your interest. I think 
anything that you touch seems to go a lot of places.
    The Chairman. It may take a long time.
    [Laughter.]
    Mr. Richardson. So I am delighted, besides the fact that 
your committee has jurisdiction with the networks and the 
Internet issue, I am delighted that you have taken an interest.
    Second, I want to reinforce what Chairman Michel said. We 
really think election reform legislation is needed from the 
Congress. The Congress needs to lead, to keep the momentum 
going. I worry that, with the press of other legislation, that 
somehow these very important issues will be forgotten.
    I think we have gotten some very good momentum from the 
Florida initiative. The Florida initiative, Governor Bush and 
the Florida Legislature, have put forth a good bill. At the 
federal level, I hope that by September, when our report is 
ready, that you will carefully take a look at our 
recommendations. The National Commission on Federal Election 
Reform is an outstanding committee and the chairman has been 
outstanding in making sure that we reach out to all witnesses. 
We have two hearings left, at the Ford Library June 5, and at 
the Johnson Library May 24.
    I would just close, Mr. Chairman, with just some of the 
issues that we are looking at. The chairman outlined some of 
our preliminary impressions. We are focusing on: the breadth 
and integrity of voter registration; the timing of federal 
elections and release of election results; voting techniques 
and ballot design, whether with suggestions and subsidies or 
with minimal national and statewide standards; problems that 
have arisen with respect to absentee and overseas military 
votes; rules and procedures for contesting and recounting 
results of elections for federal offices; and new technology 
for conducting elections, as I think the chairman has outlined. 
We have heard some problems about Internet voting. We have, at 
the same time, heard a lot of promising things about the new 
touch machines that seem to be sprawling everywhere.
    On the subject of new institutions or strengthened versions 
of existing ones that oversee progress. I guess, Mr. Chairman, 
the main issue would be, do you beef up the existing entity 
within the FEC, or do you have a separate entity that you beef 
up? I think these are very important issues and federal 
leadership, Congressional leadership, is needed because I think 
the public wants to see some reforms. We have to ensure that 
the voters that you represent--that I used to represent, 
Hispanics, Native Americans in the West and rural areas--are 
full participants.
    But I just want to commend Chairman Michel for the 
leadership he has shown. This is a very good commission, an 
excellent staff. Many of them are back here. The membership 
bipartisan. Phil Zelikow sits back here. He does all the work. 
Well, not all of it.
    Mr. Chairman, again I thank you.
    The Chairman. I thank you and I want to thank you for your 
service on the commission, but I also want to thank you for 
your incredible service to our nation in a variety of 
capacities. I am very proud of you since we may have come some 
distance since we were elected in 1982 to the House and Bob 
Michel told us how we should behave. I thank you, Bill.
    Professor Ansolabehere, welcome.

STATEMENT OF STEPHEN ANSOLABEHERE, Ph.D., PROFESSOR, DEPARTMENT 
              OF POLITICAL SCIENCE, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Dr. Ansolabehere. Thank you. Thank you for inviting me to 
speak today. I would like to begin by telling you a little bit 
about our project and then tell you some specific findings. A 
week after the 2000 presidential election, David Baltimore, the 
president of Caltech, called Charles Vest, the president of 
MIT, with an idea: Our two institutions should collaborate to 
develop new voting technologies because, after all, the 
problems experienced in Florida had as much to do with 
technology as they did democracy, and for our institutions 
technology is central.
    Presidents Vest and Baltimore proceeded to assemble a team 
of computer scientists, mechanical engineers, and social 
scientists. The Carnegie Corporation and both Caltech and MIT 
have funded this endeavor.
    I am Steve Ansolabehere, professor of political science at 
MIT and co-director of this project. My counterpart at Caltech 
is Tom Paulfrey, a professor of economics. Our team consists of 
11 faculty members and many students, and our goal is to 
develop new voting technology. The engineers bring expertise in 
electronic security--and they are not very optimistic about 
Internet voting, but that is a dispute within our group--user 
interface design, machine design, and performance standards. 
The social scientists bring expertise in voter behavior, 
operations, and public finance.
    We are in the initial phase of our project, which we 
consider the learning or listening phase. Over the last 4 
months we have met with many voting machine manufacturers and 
election administrators to ascertain what the problems with 
voting are and also how we can contribute to the solutions.
    We have conducted also studies of voting machine 
performance and design, the public finances of elections, 
administration and voter registration practices.
    The complete work of our last 4 months of work is due out 
July 16th and it will include our assessment of existing voting 
processes in the United States. The report will also offer some 
specific recommendations, which I will share with you at the 
end of my testimony. The second phase of our project will 
discuss equipment design and prospects for development.
    What I would like to do now is share a couple of what we 
consider important central findings about the current voting 
system. Before our group sets out to consider equipment design, 
we first tried to answer two questions: First, how much is 
currently being spent on election administration in the United 
States today? Second, how accurate is the equipment being used 
and is there any opportunity for substantial improvement?
    Let me deal first with election expenditures and equipment 
costs. The basic point is that an immediate upgrade to new 
equipment will be expensive. It is not impossible.
    The main problem is the transition and how that will be 
financed, rather than the total amount of money that will be 
spent over the lifetime of the machines used.
    So how much does equipment cost? We see that two 
technologies are competing for the immediate future, optical 
scan equipment and electronic machines, also called direct 
recording electronic machines--or DREs for short. According to 
estimates provided by the industry, a typical DRE will cost 
about $20 per voter on average to acquire. The operating or 
variable cost for electronic is about 75 cents a voter on 
election day. The cost of acquiring a scanner system is on 
average about $6 a voter, so it is substantially less, but the 
operating costs are higher, about $1.50 a voter, so over time 
the operating costs will creep up and add to the total costs 
for the scanners.
    If the machinery lasts about 20 years, that is the 
lifespan, on these two systems the total expenditures are going 
to be about the same. We are not sure how long electronic 
equipment exists or lives. 15 to 20 years seem to be a pretty 
good ballpark. Just to give you some sense of what we 
discovered, the last lever machines really that were 
manufactured were distributed in the 1960s, 1963, 1964. We have 
come across in our studies lever machines dating back to 1923 
in some counties. That is a degree of longevity that the 
electronic equipment will not have.
    A nationwide upgrade today, then, would cost about $2 
billion on the outset if we all upgraded to direct recording 
electronic equipment--that is based on the idea that there are 
about 100 million voters, $20 a voter--or $600 million if we 
all upgraded to scanners. Again, that is just the upgrade cost. 
That does not include the variable cost, and it depends on how 
you prorate the life of the equipment.
    How big is the voting machine industry today? The voting 
machine industry is about $150 million to $200 million in 
revenues annually. We have been told this by the industry and 
we have corroborated that estimate from a study of various 
purchases that have occurred.
    The industry consists of four main firms and approximately 
20 smaller firms, so that is a lot of firms competing for a 
relatively small total industry size. We think the small 
industry size puts some limits on the amount of innovation and 
research and development that can happen feasibly in the 
industry. The industry emphasizes sales because it must sell to 
every county in the United States and every machine 
manufacturer tries to maintain, on an ongoing basis, 
relationships with those county administrators.
    Large firms tend to stay out. We saw a flurry of firms 
announcing projects after the 2000 election. Those firms have 
been in on and off in the past. IBM helped develop the 
punchcards, but they got out in 1968. Unisys developed the 
optical scan systems and they got out in the late 1980s. The 
reasons that these large firms get out is that the revenues 
that they could get out of this business line are small, and 
the down side risks are potentially enormous because you have a 
very embarrassing incident, such as in Florida, with the IBM 
brand name or the Unisys name splashed all over the headlines.
    To upgrade equipment, then, we are talking about a 
substantial increase in the size of the industry all at once. 
If we upgraded and spent $2 billion, that is probably 10 times 
the size of the industry sales on an annual basis. That is a 
big shock to an industry. It would probably have price effects 
and so forth.
    However, if we prorate the size of the industry over, say 
15 years, then we get roughly the amount of money that would be 
spent by counties on election purchases anyway. In other words, 
take 15 times $150 million and you get $2.25 billion, which is 
roughly what it would cost to upgrade all at once right now.
    The issue then is the transition: How do we transition 
from--how do we pay for an upgrade of equipment all at once? 
Should there be cost-sharing? That is one proposal. Another 
possibility is that the industry should adopt leasing, which 
would give them a constant revenue stream as opposed to a 
highly variable revenue. The best practice here might be the 
State of Rhode Island, which is the largest leasing practice 
that we have encountered in the U.S. so far.
    The second part of our analysis has been a study of the 
performance of current voting equipment, and I will alter what 
I have prepared for the remarks. There is a punchier way to do 
it. Is there a technology today that minimizes the incidence of 
questionable ballots, a technology that would make us more 
certain of the tally that comes out at the end of the election 
day? The answer is yes. We estimate that if the counties using 
punchcards switched to precinct-based optical scanning, the 
incidence of under- and overvotes in those counties using 
punchcards would be cut nearly in half, from a little over 3 
percent to a little over 1.5 percent.
    That is a pretty substantial reduction. Thirty percent of 
the voters in the U.S. vote with punchcards, a quarter use 
optical scanning. This finding is based on our evaluation of 
the incidence of under- and overvotes in the last four 
presidential elections. In this analysis we have held constant 
all sorts of factors at the county level, including the 
demographic composition, age, race, and so forth of the 
counties, and whether the county had changed voting equipment 
in any given year.
    The most surprising result, at least surprising to us, was 
that the electronic machinery, the DREs, had rates of 
undervotes--they exclude overvotes--nearly as high as the 
punchcards. We have some hypotheses as to why this is. We see 
this as a potential place for technological improvements in the 
DREs. To some extent, an evaluation like this is looking in the 
rear view mirror. It is looking at what is in the field 
currently, rather than at what is coming down the road.
    We feel that universities, such as MIT, Caltech, Ohio 
State, Michigan, and others that we have heard of becoming 
involved in this or interested in this area are prepared to 
contribute to the assessment and design of technology. That is 
a possible venue for federal investment. In that light, we see 
that there are three big recommendations I would like to put 
forward to you.
    The first is there needs to be a process for continual 
innovation. I think the thing to think about here is that the 
voting system is continually changing. Counties always are 
upgrading their equipment. That is what sustains a voting 
machine industry. If they were not continually doing it, there 
would not be an industry. There needs to be a process for 
testing and stressing systems that emphasizes the ease of use 
and the security of systems, especially as we are going to see 
the rise of Internet voting. I think it is impossible to hold 
the lid on that. The question for Internet voting is how can we 
direct this in a sensible way.
    In this respect, I see the universities as a possible 
venue. There are efforts afoot at Michigan and Ohio State, as 
well as at Caltech and MIT.
    Second, a federal agency, NIST or the FEC, should regularly 
assess the election day performance of technology and make that 
information publicly available. I think this is important 
information for any county or state wanting to purchase 
equipment. Right now the counties and states largely do the 
purchases without much of a sense of what has happened in other 
counties or other states with current equipment. They rely 
mainly on the vendors for some assessment of performance, 
rather than on an independent assessment of how the equipment 
has performed.
    Finally, existing standards should be revised to evaluate 
equipment as it is set up and managed in the field. One of the 
things that we have seen as we have gone to numerous 
demonstrations of voting equipment is that if you let a Caltech 
or MIT undergrad loose on some equipment they are going to 
break it in about 5 minutes. We have see far too many 
demonstrations of malfunctioning equipment, with blown fuses, 
loose cables, and paper jams. That is the equipment as it is 
set up in the field.
    The Chairman. That argues for better training of people who 
conduct the elections.
    Dr. Ansolabehere. Yes, that would also help. But the 
equipment as it is tested now is not tested for the setup and 
for maintenance by a 65- or 67-year-old poll worker and so 
forth.
    I think the equipment industry does a very good job, given 
its limited resources, to do as much as possible, but there is 
a capacity constraint.
    Thank you very much for your time and I welcome any 
questions.
    [The prepared statement of Dr. Ansolabehere follows:]

              Prepared Statement of Stephen Ansolabehere, 
                  Professor of Political Science, MIT

    Thank you for inviting me to speak today.
    I'd like to begin by telling you a little bit about our project, 
and then tell you about some specific findings.
Overview of the Caltech/MIT Voting Technology Product.
    A week after the 2000 Presidential election, David Baltimore, the 
president of Caltech, called Charles Vest, the president of MIT, with 
an idea. Our two institutions should collaborate to develop improved 
voting technologies--a new voting machine. They believed that the 
problems observed in the vote counting in Florida and elsewhere 
originated with technology.
    Presidents Vest and Baltimore assembled a team of computer 
scientists, mechanical engineers, and social scientists. The Carnegie 
Corporation and both Caltech and MIT have funded our endeavors.
    I'm Steve Ansolabehere, a professor of Political Science at MIT, 
and co-director of the Caltech/MIT voting technology project. My 
counterpart at Caltech is Tom Palfrey, a professor of Economics. Our 
team consists of 11 faculty and many students, and our central goal is 
to develop new voting technology. The engineers bring expertise in 
electronic security, user interface design, machine design, and 
performance standards. The social scientists bring expertise in voter 
behavior, operations design, and public finance.
    We are in the initial phase of our project, which I consider the 
learning phase. Over the last 4 months we have met with many voting 
machine manufacturers and election administrators to ascertain what the 
problems are and to explore ways that we can contribute to solutions. 
We have also conducted studies of voting machine performance and 
design, the public finances of election administration, and voter 
registration practices. A complete report of our work over the last 4 
months is due out at the beginning of July. It will include our 
assessment of existing voting processes in the United States. The 
report will also offer specific recommendations for the industry, 
governments, and universities to pursue.
    The second phase of our project will focus on equipment design. 
We've identified a number of user interface and security features of 
existing equipment that can be improved upon. We have identified 
specific practices in voter registration and polling place 
administration that can be improved at minimal cost or with cost 
savings with the use of computer technology. We have also identified 
the need for a process that would involve industry, government, and 
universities in continual innovation in voting equipment and software.
Where Technology Affects the Voting System
    Like most Americans, I have always taken the voting system for 
granted, even though I have voted with every kind of technology. With a 
little introspection, it is evident that computing technology has 
driven changes in voting technology. Today, we are in the of a 
computing and communication revolution, and that revolution will change 
the voting system over the next decade.
    The question before us is how can we make the transition to new 
voting systems a good one.
    There are three big pieces to the voting system where our group see 
technology, and, in particular, computer technology, changing the 
picture. These parts of the system are voter registration, casting of 
votes, and counting of votes.
    First, Voter Registration. The registration system serves two 
purposes: authentication and management. It is used to authenticate the 
voter. That is, to make sure that those who are not allowed to vote do 
not and that those who are allowed to vote do so only once. 
Registration is also used to manage the ballots. We vote on so many 
different offices and questions today that it has become a chore simply 
to keep straight who should vote on what. Voter registration 
information tells people what polling place to go to and it allows the 
administrators to distribute the ballots to the right polling places.
    Voter registration poses considerable database management problems 
for counties. How to keep the files up to date and free from incorrect 
or duplicate registrations? How to access the voter registration rolls 
at polling places on election day? Computing advances now afford 
improved database management. As the cost of maintaining and accessing 
databases has fallen, many counties and states have begun to 
computerize voter registration information. Excellent examples are the 
states of Kentucky, Maryland, and Michigan. Some counties have even 
linked the polling places to the counties' central voter files, 
substantially reducing polling place problems created by inaccurate 
registrations or by people going to the wrong polling place. A good 
example is Orange County, Florida.
    Second, Casting Votes. The act of casting a vote is fundamentally 
communication. Voters need a way to communicate their preferences and 
intentions: dropping a chit in a dish, raising their hands or voices, 
marking a piece of paper, pulling a lever, or, now, touching a screen.
    Since 1990, there have been important developments in understanding 
how to make computers more user friendly to the everyday person. 
Improvements in user interface design--the look and feel of electronic 
ballots--will improve the acceptance and usefulness of electronic 
voting machines. The challenge is how to implement better ballot 
designs.
    Third, Counting Votes. With the close of polls begins an enormous 
computing or tabulation problem. A brief history of the technology 
reveals the importance of computational speed.
    <bullet> Hand counted paper ballots are slow.
    <bullet> Lever machines speed up the count by aggregating many 
ballots at the precinct, leaving the administrator to tally the counts 
on the backs of the three or four machines at the polling place.
    <bullet> Punch cards improved on this by providing and fast counts 
of all ballots at once.
    <bullet> PC connected punch cards, scanners, and DREs permit the 
counts to be sent in via modem--faster still.
    With speed has probably come greater confidence in the process and 
less opportunity to tamper with ballots. Additional gains in the speed 
of counting are marginal at best. But there is a need for improved 
security and audit ability of counts. With electronic counting office 
the observability or visibility of the count. In most states this is 
done publicly, with representatives from the parties to check the 
counting. That check has been lost, and that check often caught 
problems. One challenge is to devise a new systems of automatic checks 
that would highlight suspicious looking counts. Also we feel that 
standards for audibility need to be developed.
The Current Voting System
    Before our group set out to consider equipment design, we first 
tried to answer two questions. First, how much is currently being spent 
on voting equipment, specifically, and election administration, 
generally? Second, how accurate is the equipment being used today? Is 
there any opportunity for substantial improvement?

Election Expenditures and Equipment Cost

    1. How much does equipment cost?
    We see that two technologies are competing for the immediate future 
of voting: optical scanning and electronic machines, called direct 
recording electronic machines, or DREs for short. According to 
estimates provided by industry to us and based on recent acquisitions 
that we have studied, the cost of acquiring a DRE is approximately $18 
to $25 per voter. The operating or variable cost for electronics is 
about $.50 to $1 a voter. The cost of acquiring a scanner system ranges 
from $3 to $8 per voter. The operating cost for scanners ranges from $1 
to $2 a voter.
    A nationwide upgrade today would be expensive. If we were to 
upgrade completely to electronics, assuming prices remained the same, 
the acquisition cost would be approximately $2 billion ($20/voter and 
approximately 100 million voters). If the U.S. were to adopt scanners, 
the cost would be approximately $600 million ($6/voter and 
approximately 100 million voters).
    2. How big is the voting equipment industry?
    Industry executives estimate that total voting equipment sales 
range from $150 million to $200 million per year.
    The industry consists of four main firms and approximately 20 
smaller firms, as well as many local contractors. Election Software and 
Services (ES&S) is the largest firm, followed by Guardian (a division 
of Danaher), Global, and Sequoia Pacific. Guardian vends the most 
widely used electronic machine, the 1242, which used to be called the 
Shouptronic. ES&S, Global, and Sequoia offer many different machines, 
including DREs and scanners, and offer some services, such as ballot 
design, printing and database management.
    Large firms stay out, but when they enter they bring significant 
design innovations. IBM and Unisys are cases in point. IBM was one of 
the first punch card innovators, but they got out of the business in 
1968 because of bad publicity. IBM spun off two companies, CES and EVM, 
which became two of the main punch card vendors. In the mid-1980s, 
Unisys developed the Optech scanner, the most widely used scanner in 
the U.S., but withdrew from the industry.
    Industry executives estimate that total voting equipment sales 
range from $150 million to $200 million per year. This appears to be 
consistent with data that we have collected on total number of changes 
in equipment per year.
    An upgrade to new equipment, then, would be 3 to 15 times more than 
the size of the industry today. That seems quite expensive. But it is 
the wrong calculation; one must also include the time horizon.
    Electronic equipment will probably last 15 years, before it becomes 
badly obsolete. Over a 15 year span (approximate life of these 
machines), we would spend nationwide between $2.25 billion and $3 
billion on machines anyway. That is, if revenues are between $150 
annually and $200 million annually, then over 15 years we expect to 
spend 15 times the revenues. At today's machine prices a complete 
upgrade to DREs would be approximately $2.5 billion, which is in the 
range of what the counties and municipalities would spend anyway.
    One concern is the effect of a massive upgrade. The industry may 
not have the capacity to fill orders. Such a large infusion of cash 
might increase prices. And, an immediate and complete upgrade would 
kill demand for the next 5 years or so, which might kill the industry.
    A second concern with an immediate upgrade concerns the public 
financing. Because equipment is mainly sold rather than leased, county 
budgets would have to absorb sizable capital costs. A separate capital 
request is required, which is often more difficult than a request for 
additional operating funds. Leasing is a solution that would smooth the 
costs over the life of the machine.
    A more general matter is how much do we spend on elections overall. 
When we began this project, it became immediately apparent that such a 
figure does not exist. We found audits of several counties and 
projections based on those counties, but we found no estimates of 
nationwide expenditures. If anyone knows of studies of election 
administration spending nationwide, we'd appreciate any information you 
have.
    To fill this void, we surveyed county administrators throughout the 
country by sending them faxes to ask how much they budget for election 
administration. This gives us a ball park estimate of the nationwide 
expenditure on all aspects of elections. The data are still coming in, 
but I can share with you our preliminary findings. In the 2000 
elections, the U.S. counties and municipalities spent (on average) 
approximately $8.80 per voter on all election administration. That 
works out to approximately $1 billion nationwide.
    This figure includes all expenditures--voter registration, 
salaries, office overhead, equipment purchases, equipment maintenance 
and storage, poll worker training and pay. Ernest Hawkins, the 
Sacramento County registrar, has performed an excellent cost analysis 
based on that county's expenditures. His total figure is slightly 
higher, but not much.
    The $1 billion figure suggests that there are considerable 
financial constraints on immediate upgrading to equipment. County 
election boards must make capital budget requests. One possible 
solution is leasing, which Rhode Island has done. This moves the line 
item for equipment acquisition out of the capital budget and into the 
operating budget, which is more affordable.
Performance of Current Voting Equipment
    A second study we have undertaken concerns the accuracy of existing 
equipment. This study is posted on our web page (www.vote.caltech.edu) 
and we have provided copies to the Committee.
    We undertook this study to establish some benchmarks:
    <bullet> How many votes are unmarked, spoiled, or uncounted, and 
thus problematic in the event of a recount?
    <bullet> Does the incidence of such ballots depend on the equipment 
used?
    The incidence of unmarked, spoiled, and uncounted ballots (which we 
call residual votes) is particularly important because it is a measure 
of the number of questionable ballots that must be resolved in the 
event of a recount. It does not, however, measure all mistakes that 
voters may make in the voting booth or all problems with equipment in 
registering voters' preferences and it does capture some intentional 
non-voting.
    If the incidence of residual votes is unrelated to machines then it 
may be unlikely that design improvements could help. However, if the 
incidence of residual votes does depend on equipment, then it is 
important to know which technologies are doing particularly well.
    We collected data on election results and equipment used in each of 
the counties in the U.S. for the 1988 to 2000 election. We began data 
from Election Data Services data and proceeded to fill in data for 
states not covered in that database. We also augmented that data with 
data from 2000, and we carefully checked the data for errors.
    There are some odd observations in the data (very few) that we were 
unable to resolve. We have omitted these cases.
    The metric we use is the percent of total ballots cast for which no 
Presidential vote was registered. This does not capture all errors, but 
it does capture those votes that would be problematic in the event of a 
recount or an audit of the election.
    The average county in the United States has a residual vote rate in 
Presidential contests of 2.3 percent. The percent of all ballots cast 
that had no Presidential vote recorded equals 2.1 percent. The figures 
differ because larger counties have lower residual vote rates. We 
suspect that this is because they have more resources to administer 
elections.
    We then performed several statistical analyses to assess the extent 
to which the residual vote rate depends on what voting equipment in 
use. It does. And some of the results surprised us.
    First, we looked at simple averages. For each type of voting 
equipment, what is the average residual vote rate?
    Counties using punch cards, either Votomatic or DataVote, had the 
highest residual vote rates--3 percent of total ballots cast.
    Counties using direct recording electronic equipment also averaged 
residual vote rates above the national mean.
    The average residual vote rate among counties using optical 
scanning, lever machines, or hand counted paper ballots were below the 
national mean.
    Results that we will include in subsequent versions of the report 
look at elections for U.S. Senate offices. Here again, optical scanning 
and hand counted paper are well below the national average. Punch cards 
are again above the mean. And DREs are double the residual vote rate of 
counties with scanning or paper. Lever machines also have higher than 
average residual vote rates for U.S. Senate races.
    Many factors may affect the residual vote rate. So we tried to 
control for these other factors statistically. Doing so did not change 
the results.
    Holding constant county-level factors, such as racial composition, 
literacy rates, income, and age, we find the same pattern. Hand counted 
paper ballots, optically scanned ballots are significantly better than 
Direct Recording Electronic equipment and punch cards.
    This is not to say that those other factors do not matter. A 
county's average per capita annual income, racial composition, 
percentage of voters over age 65, voter participation rates, and other 
factors, strongly affect the incidence of residual votes. Rather, 
holding those factors constant we still find the same pattern of 
effects:
    Hand counted paper ballots and optically scanned paper ballots and 
lever machines on average had significantly fewer unmarked, uncounted, 
and spoiled ballots than punch cards and electronic machines.
    Our immediate reactions to these results were two-fold.
    First, there is a good case to be made against punch cards. They 
are an established technology, and they are, on average, performing 
poorly.
    Second, these results sparked a heated debate within our group 
between adherents of paper (optically scanned or hand counted) and 
adherents of electronics. We have subsequently studied much of the 
equipment on the market, and we feel that design improvements for DREs 
are possible. This is the challenge facing our engineers. The results 
clearly set paper--hand counted or optically scanned--as the benchmark, 
the thing to beat.
    Doing so will require less attention to designs that speed up the 
count and more attention to designs that are easy-to-use, that start 
with the many different types of voters in mind.
                                 ______
                                 
                           EXECUTIVE SUMMARY
    RESIDUAL VOTES ATTRIBUTABLE TO TECHNOLOGY: AN ASSESSMENT OF THE 
                RELIABILITY OF EXISTING VOTING EQUIPMENT

The Caltech/MIT Voting Technology Project
Version 2: March 30, 2001

    This report examines the use of voting equipment and the incidence 
of spoiled and unmarked ballots associated with that equipment. We call 
the rate of spoiled and unmarked ballots the residual vote rate. The 
residual vote rate is not a pure measure of voter error. If voting 
technologies are not producing voter mistakes or confusion, the 
residual vote rate should be unrelated to equipment. The study covers 
election results from over 2700 counties and municipalities in the 
1988, 1992, 1996, and 2000 Presidential elections.
    <bullet> The United States uses five general types of election 
technologies: hand-counted paper ballots, lever machines, punch cards, 
optically scanned paper ballots, and electronic machines (called direct 
recording electronics). There are variations within each of these types 
of technology; this investigation focuses on the performance of the 
five broad types of voting technology.
    <bullet> Over the last two decades, election administrators have 
increasingly abandoned lever machines and hand-counted paper ballots in 
favor of electronic machines and optically scanned paper ballots.
    <bullet> Approximately 2 percent of all Presidential ballots are 
spoiled or unmarked (residual votes).
    <bullet> The incidence of residual votes is highest for voters in 
counties using punch cards and electronic machines and is lowest for 
voters in counties using lever machines, optically scanned paper 
ballots, and hand-counted paper ballots.
    <bullet> The same pattern holds once we statistically control for 
all features of individual counties (including county literacy rates 
and income), the year of the election, total turnout, shifts in 
technology, and other candidates on the ballot.
    <bullet> Optically scanned ballots are a viable alternative to 
older technologies. We see room for improvement with electronic 
machines, especially the newer touch screen technologies.
    <bullet> We find the performance of punch cards alarming: punch 
cards are an established technology and the residual vote rate of this 
technology is nearly double that of alternatives.

               RESIDUAL VOTES ATTRIBUTABLE TO TECHNOLOGY
     AN ASSESSMENT OF THE RELIABILITY OF EXISTING VOTING EQUIPMENT

The Caltech/MIT Voting Technology Project \1\
---------------------------------------------------------------------------
    \1\ The Caltech/MIT Voting Technology Project is a joint venture of 
the two institutions. Faculty involved are Michael Alvarez (Caltech), 
Stephen Ansolabehere (MIT), Erik Antonsson (Caltech), Jehoshua Bruck 
(Caltech), Steven Graves (MIT), Nicholas Negroponte (MIT), Thomas 
Palfrey (Caltech), Ron Rivest (MIT), Ted Selker (MIT), Alex Slocum 
(MIT), and Charles Stewart (MIT). The principal author of this report 
is Stephen Ansolabehere; communications about this report can be 
directed to him at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="384b5c597855514c165d5c4d16">[email&#160;protected]</a> We are grateful to the Carnegie 
Corporation for its generous sponsorship of this project.
---------------------------------------------------------------------------
Version 2: March 30, 2001 \2\
---------------------------------------------------------------------------
    \2\ This version updates our initial report in three ways. First, 
we have expanded the data set considerably: increasing the number of 
valid cases from roughly 5500 to 8000. We have added complete data for 
several states, such as Kentucky, Massachusetts, and Vermont, and 
nearly complete coverage of the available data from the 2000 election. 
Second, we present more detail about the data, such as yearly averages, 
and examine possible technology curves and other hypothesized 
relationships. Third, we incorporate more speculation about the 
performance of DREs. The next version of the report will integrate data 
from 1980 and from the 1980, 1990, and 2000 censuses, which will allow 
us to examine possible interactions between machine performance and 
demographic characteristics of county populations.

    American elections are conducted using a hodge-podge of different 
voting technologies: paper ballots, lever machines, punch cards, 
optically scanned ballots, and electronic machines. And the 
technologies we use change frequently. Over the last two decades, 
counties have moved away from paper ballots and lever machines and 
toward optically scanned ballots and electronic machines. The changes 
have not occurred from a concerted initiative, but from local 
experimentation. Some local governments have even opted to go back to 
the older methods of paper and levers.
    The lack of uniform voting technologies in the U.S. is in many ways 
frustrating and confusing. But to engineers and social scientists, this 
is an opportunity. The wide range of different voting machinery 
employed in the U.S. allows us to gauge the reliability of existing 
voting technologies. In this report, we examine the relative 
reliability of different machines by examining how changes in 
technologies within localities over time explain changes in the 
incidence of ballots that are spoiled, uncounted, or unmarked--or in 
the lingo of the day the incidence of ``over-'' and ``undervotes.'' If 
existing technology does not affect the ability or willingness of 
voters to register preferences, then incidence of over- and undervotes 
will be unrelated to what sort of machine is used in a county.
    We have collected data on election returns and machine types from 
approximately two-thirds of the 3,155 counties in the United States 
over four Presidential elections, 1988, 1992, 1996, and 2000. The 
substantial variation in machine types, the large number of 
observations, and our focus on Presidential elections allows us to hold 
constant many factors that might also affect election returns.
    The central finding of this investigation is that manually counted 
paper ballots have the lowest average incidence of spoiled, uncounted, 
and unmarked ballots, followed closely by lever machines and optically 
scanned ballots. Punchcard methods and systems using direct recording 
electronic devices (DREs) had significantly higher average rates of 
spoiled, uncounted, and unmarked ballots than any of the other systems. 
The difference in reliabilities between the best and worst systems is 
approximately 1.5 percent of all ballots cast.
    We view these results as benchmarks for performance. It is our hope 
that the information here is helpful to manufacturers as they improve 
equipment designs and to election administrators who may wish to adopt 
new equipment. Our results apply to broad classes of equipment; the 
performance of specific types of equipment may vary. Where possible we 
test for possible differences (such as different types of punch cards).
    We do not attempt to isolate, in this report, the reasons for 
differential reliability rates, though we offer some observations on 
this matter in the conclusions. Our aim is measurement of the first 
order effects of machine types on the incidence of votes counted.
Machine Types and Their Usage
    We contrast the performance of five main classes of technologies 
used in the U.S. today. The technologies differ according to the way 
votes are cast and counted.
    The oldest technology is the paper ballot. To cast a vote, a person 
makes a mark next to the name of the preferred candidates or referendum 
options and, then, puts the ballot in a box.\3\ Paper ballots are 
counted manually. Paper ballots enjoyed a near universal status in the 
U.S. in the 19th Century; they remain widely used today in rural areas.
---------------------------------------------------------------------------
    \3\ How we mark ballots has changed over time. In the middle of the 
20th Century, many states required that the voter cross out the options 
not chosen. See for example, The Book of the States, 1948.
---------------------------------------------------------------------------
    At the end of the 19th Century, mechanical lever machines were 
introduced in New York State, and by 1930 every major metropolitan area 
had adopted lever machinery. The lever machine consists of a steel 
booth that the voter steps into. A card in the booth lists the names of 
the candidates, parties, or referenda options, and below each option is 
a switch. Voters flick the switch of their preferred options for each 
office or referendum. When they wish to make no further changes, they 
pull a large lever, which registers their votes on a counter located on 
the back of the machine. At the end of the voting day, the election 
precinct workers record the tallies from each of the machines. Lever 
machines automate both the casting of votes and the counting of votes 
through mechanical devices.
    Punch card machines automated the counting process using the 
computer technology of the 1960s. Upon entering the polling place the 
voter is given a paper ballot in the form of a long piece of heavy 
stock paper. The paper has columns of small, perforated rectangles (or 
chads). There are two variants of the punch card--one, the DataVote, 
lists the names of the candidates on the card; the other (VotoMatic) 
does not. In the booth (for VotoMatics), the voter inserts the card 
into a slot and opens a booklet that lists the candidates for a given 
office. The voter uses a metal punch to punch out the rectangle beside 
the candidate of choice. The voter then turns the page, which lists the 
options for the next office and shifts the card to the next column of 
rectangles. When finished, the voter removes the card and puts it in 
the ballot box. At the end of the day, the election workers put the 
cards into a sorter that counts the number of perforations next to each 
candidate.
    Optically scanned ballots, also known as ``marksense'' or 
``bubble'' ballots, offer another method for automating the counting of 
paper ballots. The form of the optically scanned ballot is familiar to 
anyone who has taken a standardized test. The voter is given a paper 
ballot that lists the names of the candidates and the options for 
referenda, and next to each choice is small circle or an arrow with a 
gap between the fletching and the point. The voter darkens in the 
bubble next to the preferred option for each office or referendum, or 
draws a straight line connecting the two parts of the arrow. The ballot 
is placed in a box, and, at the end of the day, counted using an 
optical scanner. Some versions of this technology allow the voter to 
scan the ballot at the polling place to make sure that he or she voted 
as intended.
    Direct recording electronic devices, DREs for short, are electronic 
versions of the lever machines. In fact, the first widely used 
electronic machine (the Shouptronic 1242) was modeled on the lever 
machine and developed by one of the main lever machine manufacturers. 
The distinguishing feature of a DRE is that an electronic machine 
records the voter's intentions, rather than a piece of paper or 
mechanical device. To the extent that there is a paper trail it is 
generated by the machine, not the voter. Electronic machines vary along 
a couple of dimensions, having to do with the interface. First, there 
are many devices used to register the vote: the interfaces are either 
push button (e.g., the Shouptronic) or touch screen (e.g., Sequoia 
Pacific's Edge or Unilect's Patriot) or key pads (see the Brazillian 
machine). Second, the ballot design is either full-faced or paginated. 
With full-faced ballots, common among push button equipment, the voter 
sees the entire ballot at once. With paginated systems, common among 
touch screen devices, the voter views a page for each office or 
question on the ballot. A voting session goes roughly as follows. Upon 
entering the polling place, the voter is given a card that is inserted 
into the machine to activate the individual voting session. When 
finished the voter touches the name on the screen to register his or 
her preference and, typically, the voter may review the entire session 
(or ballot) to check the vote. Like lever machines it is not possible 
to vote twice for the same office (i.e., overvote). Each electronic 
machine tallies the votes locally and the tallies, usually on a disc, 
are sent to a central location.
    Each type of technology involves many variations based on 
specifications of manufacturers, ballot formats, and implementation. 
Our focus is on the five main types of machines, as we hope to learn 
which mode of voting looks most promising. In almost all states, county 
election officials decide which machinery to use, so counties are, 
almost everywhere, the appropriate unit of analysis. Some counties do 
not have uniform voting technologies. In these situations, 
municipalities and, sometimes, individual precincts use different 
methods. These counties are called Mixed Systems. They occur most 
commonly in Massachusetts, Michigan, Maine, New Hampshire, and Vermont, 
where town governments usually administer elections.
    We examine the variation in usage across counties and over time. 
Our data on voting equipment come from the Election Data Services and 
from state, county, and municipal election officials. We appreciate the 
helpfulness of election administrators and the EDS in our data 
collection efforts.
    The data do not distinguish centrally counted and precinct counting 
of ballots sufficiently well that we could estimate with confidence the 
difference in performance between central and precinct counting. Some 
states provide information about which administrative units count the 
ballots for some machine types. Precinct and central counting of 
optically scanned ballots became quite controversial in the Florida 
2000 election.
    Even without this additional level of detail, the pattern of 
equipment usage across the United States looks like a crazy quilt. 
Americans vote with a tremendous array of types of equipment. Table 1 
displays the wide variation in machines used in the 1980 and 2000 
elections. The first two columns present the average number of counties 
using various types of equipment in each year. The last two columns 
report the percent of the population covered by each type of technology 
in the 1980 and 2000 elections.
    In the most recent election, one in five voters used the ``old'' 
technologies of paper and levers--1.3 percent paper and 17.8 percent 
levers. One in three voters use punch cards--31 percent of the 
VotoMatic variety and 3.5 percent of the DataVote variety. Over one in 
four use optically scanned ballots. One in ten use electronic devices. 
The remaining 8 percent use mixed systems.
    Within states there is typically little uniformity. In some states, 
such as Arkansas, Indiana, Michigan, Pennsylvania, and Virginia, at 
least one county uses each type of technology available. The states 
with complete or near uniformity are New York and Connecticut with 
lever machines; Alaska, Hawaii, Rhode Island and Oklahoma with 
scanners; Illinois with punch cards; Delaware and Kentucky with 
electronics.
    As impressive and dramatic have been the changes in technology over 
time. The third column of the table reports the percent of the 2000 
electorate that would have used each machine type had the counties kept 
the technologies they used in 1980. The data are pretty clear: out with 
the old and in with the new. Optically scanned ballots and DREs have 
grown from a combined 3.2 percent of the population covered to 38.2 
percent of the population covered. There has been little change in the 
mixed and punch card systems. Paper ballots have fallen from 9.7 
percent of all people in 1980 to just 1.3 percent in 2000. Lever 
machines, by far the dominant mode of voting in 1980, covered 43.9 
percent of the electorate. Today, only 17.8 percent of people reside in 
counties using lever machines.
    A somewhat different distribution of voting technology across 
counties holds, owing to the very different population sizes of 
counties. Punch cards and electronic devices tend to be used in more 
populous counties, and paper ballots tend to be used in counties with 
smaller populations.

                        Table 1--Usage of Voting Equipment in the 1980 and 2000 Elections
----------------------------------------------------------------------------------------------------------------
                                                     Percent of Counties Using      Percent of 2000 Population
                                                            Technology                 Covered by Technology
                                                 ---------------------------------------------------------------
                                                       1980            2000            1980            2000
----------------------------------------------------------------------------------------------------------------
Paper Ballots...................................            40.4            12.5             9.8             1.3
Lever Machines..................................            36.4            14.7            43.9            17.8
Punch Card:
    ``VotoMatic''...............................            17.0            17.5            30.0            30.9
    ``DataVote'.................................             2.1             1.7             2.7             3.5
Optically scanned...............................             0.8            40.2             9.8            27.5
Electronic (DRE)................................             0.2             8.9             2.3            10.7
Mixed...........................................             3.0             4.4            10.4             8.1
----------------------------------------------------------------------------------------------------------------

    Three comments about the change in equipment are in order. First, 
this is an industry in flux. Between 1988 and 2000, nearly half of all 
counties adopted new technologies (1476 out of 3155 counties), and over 
the twenty-year period between 1980 and 2000, three out of five 
counties changed technologies. These changes have occurred without any 
federal investment.
    Second, there is a clear trend toward electronic equipment, 
primarily scanners but also electronic voting machines. This trend, and 
the adoption of punch cards in the 1950s and 1960s, reflects growing 
automation of the counting of votes. Punch cards, optical scanners, and 
DREs use computer technology to produce a speedy and, hopefully, more 
reliable count. An influential 1975 report sponsored by the General 
Accounting Office and subsequent reports by the Federal Elections 
Commission called for increased computerization of the vote counts and 
laid the foundation for methods of certification.\4\
---------------------------------------------------------------------------
    \4\ See, Roy Saltman, Accuracy, Integrity and Security in 
Computerized Vote-Tallying, NBS SP 500-158, August 1988, NIST, 
Gaithersburg, MD. The report is available online at www.nist.gov/itl/
lab/specpubs/500-158.htm.
---------------------------------------------------------------------------
    Third, voting equipment usage has a strongly regional flavor. The 
Eastern and Southeastern United States are notable, even today, for 
their reliance on lever machines. Midwestern states have a penchant for 
paper. And the West and Southwest rely heavily on punch cards. In 1980, 
almost all Eastern and Southeastern states used levers, and levers were 
rare outside this region. Notable exceptions were the use of paper in 
West Virginia and punch cards in Ohio and Florida. In 1980, Midwestern 
counties used hand counted paper ballots. Illinois was a notable 
exception with its use of punch cards. And in 1980, almost all counties 
along the pacific coast and in the Southwest used punch cards. Notable 
exceptions to the pattern were the use of levers in New Mexico.
    This historical pattern of usage evidently had a legacy. As 
counties have adopted newer technologies over the last 20 years, they 
have followed some distinctive patterns. Counties tend to adopt newer 
technologies that are analogous to the technology they move away from. 
Optical scanning has been most readily adopted in areas that previously 
used paper, especially in the Midwest. Where counties have moved away 
from lever machines, they have tended to adopt electronic machines--for 
example, New Jersey, Kentucky, central Indiana and New Mexico. These 
tendencies are strong, but they are not iron clad. In assessing the 
performance of technology, we will exploit the changes in election 
results associated with changes in technology. This allows us to hold 
constant features of the states, counties, and their populations.
Residual Votes: A Yardstick for Reliability
    Our measure of reliability is the fraction of total ballots cast 
for which no Presidential preference was counted. We call this the 
``residual vote.''
    A ballot may show no Presidential vote for one of three reasons. 
Voters may choose more than one candidate--commonly called an overvote 
or spoiled ballot. They may mark their ballot in a way that is 
uncountable. Or, they may have no preference. The latter two 
possibilities produce undervotes or blank ballots. The residual vote is 
not a pure measure of voter error or of machine failure, as it reflects 
to some extent no preference. Consequently we prefer the term residual 
vote instead of error rate or uncounted vote.
    The residual vote does provide an appropriate yardstick for the 
comparison of machine types, even though it is not purely a measure of 
machine error or voting mistakes. If voting equipment has no effect on 
the ability of voters to express their preferences, then the residual 
vote should be unrelated to machine types. To measure such effects, we 
estimate the average residual vote associated with each machine type, 
and we assess whether these averages differ significantly across 
machine type. Averaging guards against idiosyncratic results, and 
measures what we expect to happen in a typical case.\5\
---------------------------------------------------------------------------
    \5\ Some analyses focus on extreme cases--under- and overvotes in 
specific elections in particular counties. Indeed, much of the analysis 
of Florida falls into this category. Such case studies can be 
misleading, especially if they reflect outcomes peculiar to a locale, 
or a local machine failure. Another advantage of averaging is that it 
washes out the effects of typographical errors, which are inevitable in 
data, even official government reports.
---------------------------------------------------------------------------
    In our data, the residual vote in the average county equaled 2.3 
percent.\6\ In other words, in the typical U.S. county from 1988 to 
2000, 2.3 percent of ballots casts did not register a Presidential 
preference, for whatever reason. Because county populations vary 
dramatically, this does not equal the fraction of people who cast an 
under- or overvote for president in these years. This figure is 
somewhat smaller: 2.1 percent of people who cast ballots did not 
register a Presidential preference. There is considerable variation 
around this average. Our aim in this report is to assess whether 
machine types explain a statistically noticeable amount of the 
variation around this national average residual vote.
---------------------------------------------------------------------------
    \6\ We exclude from the analysis all cases in which the official 
certified report shows more Presidential votes cast than total ballots 
cast, that is, cases with negative residual vote rates. We have tried 
to resolve all of these cases. They do not appear to be due to absentee 
votes or other votes being excluded. Instead, they appear to be 
typographical errors in the data reported by the counties and 
secretaries of state. This affects about 2 percent of the counties in 
our analysis. Including these cases changes the numbers reported, but 
does not affect the pattern of results that we observe.
---------------------------------------------------------------------------
    We examine the residual vote instead of just the overvote because 
technology can enable or interfere with voting in many ways. Some 
technologies seem to be particularly prone to over voting, such as the 
punch card systems implemented in Florida in the 2000 election. Lever 
machines and DREs do not permit over voting. Some technologies may be 
prone to accidental undervotes. Lever machines either lock out a second 
vote or register no vote when the person switches two levers for the 
same office. Also, paper ballot are sometimes hard to count owing to 
the many ways that people mark their ballots. Finally, some 
technologies might intimidate or confuse voters. Many Americans are 
unaccustomed to using an ATM or similar electronic devices with key 
pads or touch screens, and as a result DREs might produce more under 
voting. Also, it may be the case that we react differently to paper 
than to machines. We are trained in school to answer all of the 
questions as best as possible, especially on standardized tests similar 
to the format used for optically scanned voting. Improper installation 
or wear and tear on machines may lead to high rates of under voting. In 
Hawaii in 1998, 7 of the 361 optical scanners failed to operate 
properly.
    In-depth study of particular states and of contested elections may 
provide insight into the components of the residual vote or more 
specific problems related to voting equipment. A number of papers 
published on the Internet examine the effects of machine types on 
overvotes and on undervotes separately for the Florida 2000 election, 
and several Secretaries of State and State Election Divisions or 
commissions present analyses of their own state.
    One important caveat is in order in this analysis. There are errors 
that we cannot count. There is no way to measure whether voters 
accidentally cast ballots for the wrong candidate. We know of no 
statistically acceptable measures of fraud. And we know of no studies 
that attempt to measure the incidence and magnitude of errors in the 
counting of votes produced by transcription errors or programming 
errors. Residual votes provides the best available measure of the 
extent to which technology enables or interferes with the ability of 
voters to express their preferences.
    Many other factors may explain under- and overvoting beside machine 
types. Other prominent offices on the ballot, such as senator or 
governor, might attract people to the polls who have no intention to 
vote for president. A large turnout might make it difficult for 
election administrators to tend to voter education at the polls. 
Demographic characteristics of the county's electorate might explain 
the incidence of people prone to make mistakes. The wealth of the 
county might account for expenditures on election administration. New 
machinery might produce elevated levels of voter confusion, simply 
because people make mistakes more with unfamiliar tasks.
    We examine total ballots cast and ballots cast for President in the 
1988, 1992, 1996, and 2000 elections. The data cover approximately 2800 
counties and municipalities, though not for all years. All told, there 
are approximately 7800 counties and municipalities for which we have 
been able to identify the machines used and to collect data on total 
ballots and Presidential ballots cast. As with the voting equipment 
data, our data on elections returns come from the Election Data 
Services and from the relevant election commissions of particular 
states, counties, and municipalities. The large number of observations 
produces high levels of precision in estimating average residual vote 
rates associated with each machine type. Studies of one election in one 
state may not have yielded sufficiently large samples to determine 
whether there are significant differences across voting equipment.
    We examine the Presidential vote in order to hold constant the 
choices voters face. Within each state one might also examine residual 
votes in Senate and governor races, with the caveat that these offices 
have higher ``no preference'' and thus higher residual votes.
    We examine the data at the level of the county or municipality that 
reports the information. Within each of these jurisdictions, the same 
voting equipment is used and the administration of the election is 
under the same office (e.g., has the same budget, etc.). Counties and 
municipalities are a useful level of analysis because they allow us to 
hold constant where the equipment is used when we measure which 
equipment is used. This is of particular concern because equipment 
usage today is correlated with factors such as county size. We do not 
want to attribute any observed differences in reliability to equipment, 
when in fact some other factor, such as county demographics, accounts 
for the pattern.
    To hold constant the many factors that operate at the county level, 
we exploit the natural experiment that occurs when locales change 
machinery. We measure how much change in the residual vote occurs when 
a county changes from one technology to another. The average of such 
changes for each technology type provides a fairly accurate estimate of 
the effect of the technology on residual voting, because the many other 
factors operating at the county level (such as demographic 
characteristics) change relatively slowly over the brief time span of 
this study.
    To guard against other confounding factors, we also control for 
contemporaneous Senate and gubernatorial races on the ballot, total 
turnout, and year of the election.

                                RESULTS

Typical Counties and Typical Voters
    A simple table captures the principle results of this 
investigation. Table 2 presents the average residual vote rate for each 
type of voting equipment. The first column of numbers is the average; 
the second column is the margin of error associated with this estimate; 
the third column is the median residual vote rate; and the final column 
is the number of observations (counties and years) on which the 
estimate is based. The average is the arithmetic mean residual vote 
across counties. The median is the residual vote such that half of all 
counties have lower values and half of all counties have higher values. 
A lower median than mean reflects skew in the distribution of the 
residual vote produced by a few cases with exceptionally high rates of 
under- and overvotes. These averages do not control for other factors, 
but they reveal a pattern that generally holds up to statistical 
scrutiny.\7\
---------------------------------------------------------------------------
    \7\ The data in the table only include counties with positive 
residual vote rate. Approximately 2 percent of counties report negative 
numbers; these are the figures in the official certified vote. 
Including counties with negative residual vote rates changes the 
numbers slightly but does not change the results. Changing voting 
equipment, without any additional improvements, could lower the 
incidence of under- and overvoting substantially.
---------------------------------------------------------------------------
    Two clusters of technologies appear in the means and medians. Paper 
ballots, lever machines, and optically scanned ballots have the lowest 
average and median residual vote rates. The average residual voting 
rates of these technologies are significantly lower than the average 
residual voting rates of punch card and electronic voting equipment. 
The differences among punch card methods and electronic voting 
equipment are not statistically significant. Punch cards and electronic 
machines register residual voting rates for president of approximately 
3 percent of all ballots cast. Paper ballots, lever machines, and 
optically scanned ballots produce residual voting rates of 
approximately 2 percent of all ballots cast, a statistically 
significant difference of fully 1 percent. Or to put the matter 
differently, the residual voting rate of punch card methods and 
electronic devices is 50 percent higher than the residual voting rate 
of manually counted paper ballots, lever machines, and optically 
scanned ballots. This pattern suggests that simply changing voting 
equipment, without any additional improvements, could lower the 
incidence of under- and overvoting substantially.

                                 Table 2--Average Residual Vote By Machine Type
                      [In U.S. Counties, 1988-2000, Presidential Elections, Residual Vote]
----------------------------------------------------------------------------------------------------------------
                                                     Standard                     Percent of All
          Machine Type            County Average     Deviation        Median          Ballots            N
----------------------------------------------------------------------------------------------------------------
Paper Ballot....................             1.9             2.1             1.5             1.9           1,540
Lever Machine...................             1.9             1.7             1.4             1.7           1,382
Punch Card:
    ``VotoMatic''...............             3.0             1.9             2.5             2.6           1,893
    ``DataVote''................             2.9             2.7             2.0             2.4             383
Optically scanned...............             2.1             2.8             1.3             1.6           1,821
Electronic (DRE)................             2.9             1.8             2.7             2.2             494
Mixed...........................             2.2             1.8             1.7             1.5             283
Overall.........................             2.3             2.2             1.8             2.1           7,796
----------------------------------------------------------------------------------------------------------------

    Another take on the average reliability of equipment is the percent 
of all ballots cast for which no Presidential vote was registered. This 
is displayed in the fourth column of numbers: this is the weighted 
average of the county residual vote, in which we weight by total 
ballots cast in the county. All of the figures shrink toward zero but 
the same general pattern holds. In fact, optical scanning seems to do 
particularly well by this measure. Only 1.6 percent of all ballots cast 
with optical scanners showed an overvote or no vote over the years 1988 
to 2000. Approximately, 1.8 percent of voters cast an overvote or no 
vote using paper ballots or lever machines. Slightly more than 2 
percent of voters cast an overvote or no vote with punch cards or 
electronics.
    To explore the robustness of the pattern further, we isolate 
specific years. Table 3 presents the residual vote rates for each year 
of our data.\8\ The bottom row of the table presents residual vote as a 
fraction of all ballots cast in each year. The entries in the table are 
the residual vote as a fraction of all ballots cast using each type of 
technology in each year. It should be noted that year-to-year one 
expects more random variation in the numbers simply by chance. Every 
time someone votes on a machine they have a small chance of making a 
random error. Taking averages over many cases gives us a more precise 
measure of the typical behavior. This is especially true for categories 
of equipment for which there are relatively small numbers of 
observations, namely DataVote and Electronics.
---------------------------------------------------------------------------
    \8\ We also present these yearly analyses to set the record 
straight. A story on cnn.com reports that different people looking at 
the same data can reach different conclusions. The story cites a 
separate analysis of the EDS data which suggests that electronics did 
particularly well in 1996. We have contacted EDS and have confirmed 
that the pattern of results in Table 3 is consistent with their data. 
Our data for 1996 come mainly from EDS. When we analyze just the EDS 
data, we arrive at the same pattern of means, with electronics 
producing a relatively high average residual vote.
---------------------------------------------------------------------------
    Even with this statistical caveat, the yearly averages bear out the 
same general pattern as the overall averages. In each year, except 
perhaps 2000, paper ballots and lever machines on the whole have lower 
residual vote rates than the other technologies. In 2000, paper and 
levers had relatively low residual vote rates, but so too did scanners 
and electronics.
    Electronics did relatively poorly in 1988, 1992, and 1996. 2000 was 
the banner year for electronics, but in that year paper ballots and 
optically scanned ballots had even lower average residual vote rates.
    VotoMatic punch cards have consistently high average residual vote 
rates. In 1988, 1996 and again in 2000, punch cards had substantially 
higher rates of over- and undervotes than other available technologies. 
This is of particular concern because approximately one in three voters 
use punch cards. If election administrators wish to avoid catastrophic 
failures, they may heed the warning contained in this table and the 
last. It is the warning that Roy Saltman issued in his 1988 report. 
Stop using punch cards.
    Electronic machines look similarly prone to high residual vote 
rates, except for 2000, which offers a glimmer of promise for this 
technology.

               Table 3--Residual Vote as a Percent of Total Ballots Cast By Machine Type and Year
          [U.S. Counties, 1988-2000 Presidential Elections; Residual Votes as a Percent of All Ballots]
----------------------------------------------------------------------------------------------------------------
                  Machine Type                         1988            1992            1996            2000
----------------------------------------------------------------------------------------------------------------
Paper Ballot....................................             2.2             1.4             2.1             1.3
Lever Machine...................................             2.0             1.5             1.7             1.7
Punch Card:
    ``VotoMatic''...............................             2.9             2.2             2.6             3.0
    ``DataVote''................................             3.7             2.4             2.1             1.0
Optically scanned...............................             2.5             2.4             1.5             1.2
Electronic (DRE)................................             3.5             2.5             2.9             1.6
Mixed...........................................             2.1             1.4             1.5             2.7
Overall.........................................             2.5             2.0             2.1             2.0
----------------------------------------------------------------------------------------------------------------

Effects of Technology Adoption on Residual Vote Rates
    Of course many other factors might explain the observed pattern, 
including features of the counties and specific elections. The 
difference between the county and population-weighted averages suggests 
that county size strongly affects residual vote rates: larger counties 
typically have lower residual vote rates than smaller counties. We 
clearly need to hold constant where equipment is used in order to gauge 
accurately the effects of equipment types on residual vote rates. There 
are certainly many other factors, such as county literacy rates, 
education levels, election administration expenditures, other 
candidates on the ballot, years in which shifts in technology occur.
    We hold constant turnout, shifts in technology, other statewide 
candidates on the ballot, and all factors at the county and state level 
that do not change dramatically over the period of study, such as 
literacy rates. To hold these other factors constant we performed a 
multiple regression of changes in the residual voting rate at the 
county level on changes in the machine used at the county level, 
controlling for the year of the election, whether there was a switch in 
technology in a specific year in a given county, and the total vote in 
the county. This approach removes the effects of all factors that 
distinguish the counties, changes in turnout levels within counties, 
and some features of the election in the state.
    In essence, our statistical approach is that of a ``natural 
experiment.'' We observe within each county how residual votes change 
when counties change machine technologies. Between 1988 and 2000, 
slightly more than half of all counties changed their voting equipment.
    The effect of specific technologies on residual votes is expressed 
relative to a baseline technology. We chose lever machines to serve as 
this baseline for the contrasts, because levers were the modal machines 
in 1988. The observed effects contrast the change in residual vote 
associated with a specific technology compared to a baseline 
technology. By making multiple comparisons (e.g., paper to lever, 
scanners to lever, etc.), we measure the relative performance of 
existing equipment.
    We omit counties with Mixed Systems, as it is unclear exactly what 
technologies are in use. The exceptions are Massachusetts and Vermont, 
where equipment is uniform within towns: we have collected the 
information at the town level for these states.
    Table 4 reports the observed difference between lever machines and 
other machine types, along with the ``margin of error'' (i.e., a 95 
percent confidence interval) associated with the observed differences. 
The complete regression analyses are available upon request. Positive 
numbers mean that the technology in question has higher average 
residual vote than lever machines and negative numbers mean that the 
technology in question has lower average residual vote than lever 
machines. The wider the margin of error, the less certainty we have 
about the observed difference. A margin of error in excess of the 
actual effect means that the observed effect could have arisen by 
chance.
    Table 4 presents results from two separate analyses. One analysis, 
presented in the first two columns, contains all valid cases. A second 
analysis, presented in the last two columns, trims the data of extreme 
cases. To guard against outliers and typographical errors, we omit the 
cases with lowest 5 percent of residual vote and highest 5 percent of 
residual vote.
    Table 4 bears out the same patterns as Tables 2 and 3. After 
introducing considerable statistical controls, we reach the same 
conclusions about the relative performance of different equipment 
types. Two clusters of technologies appear in Table 3. Paper ballots, 
optically scanned ballots, and lever machines appear to perform 
noticeably better than punch card methods and electronic devices. Paper 
might even be an improvement over lever machines and scanners.

                                             Table 4--Which is Best?
  [Residual Vote Attributable to Machine Type Relative to Lever Machines; U.S. Counties, 1988-2000 Presidential
                                                   Elections]
----------------------------------------------------------------------------------------------------------------
                                                           All Counties                 Excluding Extremes
                                                 ---------------------------------------------------------------
                Machine Contrast                     Estimated                       Estimated
                                                   Difference In     Margin of     Difference In     Margin of
                                                       % RV         Error  (a)         % RV            Error
----------------------------------------------------------------------------------------------------------------
Paper Ballot v. Levers..........................           -0.55        +/- 0.37           -0.19        +/- 0.19
Punch Card ``VotoMatic'' v. Levers..............            1.32        +/- 0.38            1.11        +/- 0.20
``DataVote'' v. Levers..........................            1.24        +/- 0.52            0.97        +/- 0.28
Optically scanned v. Levers.....................            0.11        +/- 0.35           -0.05        +/- 0.19
Electronic (DRE) v. Levers......................            0.90        +/- 0.30            0.67        +/- 0.16
Number of Cases.................................  ..............            7513  ..............           7078
----------------------------------------------------------------------------------------------------------------
(a) This is the 95 percent confidence interval for the estimated effect; the half-width of the confidence
  interval equals 1.96 s/vn, where s is the estimated standard error of the estimated coefficient for each
  machine type.

    First consider the contrast between paper and levers. Looking at 
all counties (the first two columns of the table), the estimated effect 
of using paper ballots rather than lever machines of is to lower the 
residual vote rate by approximately one-half of 1 percent of all 
ballots cast (i.e., and estimated effect of - 0.55). This effect is 
larger than the margin of error of .37, so the effect is unlikely to 
have arisen by chance. Omitting extreme cases, the evident advantage of 
paper ballots over lever machines shrinks: the effect becomes two-
tenths of 1-percent of ballots cast and this is not statistically 
different from zero difference between levers and paper.
    Second consider optical scanning. The difference in the residual 
vote rate between scanners and levers is trivial once we hold constant 
where equipment is used, how many people voted, the year, other 
statewide candidates on the ballot, and technological changes. In both 
analyses, the difference between optically scanned ballots and lever 
machines is quite small and statistically insignificant. Levers and 
paper and scanned ballots appear to offer similar rates of reliability, 
at least as it is measured using the residual vote.
    The third contrast in the tables is of punch cards to lever 
machines. Punch card methods produced much higher rates of residual 
voting. The VotoMatic variety of punch cards produced residual vote 
rates more than 1-percentage point higher than what we observe with 
lever machines. In our examination of all cases, punch cards recorded 
1.3 percent of all ballots less than lever machines did. The estimated 
effect remains in excess of 1-percentage point even after we exclude 
the extreme cases. The DataVote variety of punch cards looks extremely 
similar to the VotoMatic variety. Because DataVote punch cards have the 
candidate's names on the card, they were widely believed to be superior 
to the VotoMatic cards. We find no evidence to support this belief.
    A final contrast in the table is between DREs and lever machines. 
Electronic machines registered significantly higher residual vote rates 
than lever machines (and, by extension, paper ballots and optically 
scanned ballots), but DREs do not do as badly as punch cards. Direct 
Recording Electronic devices had a residual vote rate that was almost 1 
percentage point higher than lever machines, holding constant many 
factors, including the county. In other words, a county that switches 
from levers to DREs can expect a significant rise in residual votes of 
approximately 1 percent of total ballots cast. Excluding extreme 
observations, the effect is somewhat smaller, two-thirds of 1 percent 
of all ballots cast. But that is still highly significant from a 
statistical perspective, and we find it to be a substantively large 
effect.
    One final note about the estimated effect of the DRE performance is 
in order. Because this machine does not permit over voting, the 
observed difference in residual vote rates is due to a very significant 
rise in undervoting attributable to electronic devices.
    We checked the robustness of our results in a variety of ways. We 
tried various transformations of the dependent variable, and we split 
the data into counties of different sizes (under 5000 votes, 5000 to 
100,000 votes, and over 100,000 votes). The pattern of results is 
always the same.
    Perhaps the most instructive check on the robustness of our 
analysis comes when we track changes in equipment usage over time. What 
happened in the counties that used levers in 1988 in the subsequent 
three presidential elections? Some of those counts continued to use 
their lever equipment over the succeeding three presidential elections. 
Approximately half decided to adopt other technologies and almost all 
of those that changed went to either electronics or scanners. How did 
the residual vote rates in these counties compare to 1988?

                                     Table 5--Counties Using Levers in 1988
                                [From 1988 to Current year (1992, 1996 or 2000)]
----------------------------------------------------------------------------------------------------------------
                                                     Change in
                                                   Residual Vote  Avg. Change in   Median Change
                                                    As % of All       County         in County           N
                                                      Ballots      Residual Vote   Residual Vote
----------------------------------------------------------------------------------------------------------------
Kept Levers.....................................           -0.21           -0.13           -0.25             520
To Scanners.....................................           -0.62           -0.18           -0.32             137
To DREs.........................................            0.55            0.73            0.83            250
----------------------------------------------------------------------------------------------------------------
Baseline Residual vote rate is 1.8 percent in 1988 for counties with lever machines.
Standard Deviation is approximately 0.16 for each group in the first column and 0.17 for each group in the
  second column.

    The rows of Table 5 present three different sorts of counties. The 
first row shows counties that used lever machines in 1988 and stayed 
with levers in 1992, 1996, and 2000. The second row represents counties 
that had lever machines in 1988, but switched to optical scanning in 
one of the succeeding elections. The third row represents counties that 
had lever machines in 1988, but switched to DREs in one of the 
succeeding elections.
    The columns of the table present the average change in the residual 
vote rate from 1988 to the current year. We then average over all 
years. Consider, for example, a county that had levers in 1988 and 
1992, but scanners in 1996 and 2000. The first row includes the 
observed the change in the residual vote rate from 1988 to 1992 for 
such a county. The second row contains the average change in the 
residual vote rate from 1988 to 1996 and from 1988 to 2000, the two 
elections in which the county used scanners.
    What happened in these histories? On average, counties that kept 
their lever machines saw a slight improvement in their residual vote 
rates from 1988 to 1992, 1996, and 2000. On average, counties that 
switched to scanners had their residual vote rates fall by even more 
than the counties that stuck with levers. On average, counties that 
switched to DREs saw their residual vote rates increase above the 
residual vote rate that they had in 1988. The difference between the 
increment in residual vote rate for counties that changed to scanners 
and counties that changed to DREs is fully 1 percent of total ballots 
cast.
What Explains the High Residual Vote Rate of DREs?
    We were very surprised by the relatively high residual vote rate of 
electronic equipment. When we began this investigation we expected the 
newer technologies to outperform the older technologies. Considering 
some of the glowing reports about electronics following the 2000 
election, we expected the DREs to do well. They did not, especially 
compared optically scanned paper ballots.
    We are not pessimistic about this technology, however. It is 
relatively new, and we see this as an opportunity for improvement. In 
this spirit we offer six possible explanations for the relatively high 
residual vote rates of electronic voting machines.
    First, the problems may reflect existing interfaces and ballot 
designs. The results might stem from differences between touch screens 
and push buttons or between full-face and paginated ballots (paper and 
levers are full faced).
    Second, there may be a technology curve. As the industry gains more 
experience with electronics they may fix specific problems.
    Third, we may be still low on the voter learning curve. As voters 
become more familiar with the newer equipment errors may go down. As 
more people use electronic equipment in other walks of life, such as 
ATM machines for banking, residual votes may drop.
    Fourth, electronics may require more administrative attention, 
especially at the polling place, and thus be more prone to problems 
under the administrative procedures used in most counties.
    Fifth, electronic equipment may be harder to maintain and less 
reliable than a piece of paper or a mechanical device. Power surges, 
improper storage, and software errors may affect DREs.
    Sixth, the problem may be inherent in the technology. One 
speculation is that people behave differently with different 
technologies. Electronic machines may be simply a less human friendly 
technology.
    There is simply too little data from existing equipment usage to 
say with confidence what exactly accounts for the relatively high 
residual vote rate of DREs that we observe. We observe approximately 
480 instances of electronic machine usage. When we divide the cases 
according to features of the interfaces, there are too few cases to 
gain much leverage on the questions of interface design. Half of the 
observations in our data are Shouptronic 1242 machines; another one-
quarter are Microvote machines. These are push button, full faced 
machines. One-in-six are Sequoia AVC Advantage machines. There is not 
enough variety in machines used or enough observations to accurately 
measure whether some features of the interface explain the results. 
Careful, systematic laboratory testing may be required to identify the 
importance of the interface.
    Year-by-year analysis casts some doubt on the notion that there is 
a voter learning curve. The residual vote rate does not fall steadily 
for counties using DREs, but jumps around. This variation may owe to 
the small number of observations in each year. Again, to resolve 
questions of possible learning or technology curves more detailed 
analyses and information beyond what we have collected will be 
required.

Conclusions
    Paper ballots, lever machines, and optically scanned ballots 
produce lower residual vote rates on the order of 1 to 2 percent of all 
ballots cast over punch card and electronic methods over the last four 
Presidential elections.
    Lever machines serve as a useful baseline: they were the most 
commonly used machines in the 1980s, the starting point of our 
analysis. The incidence of over- and undervotes with lever machines is 
approximately 2 percent of all ballots cast. The incidence of such 
residual votes with punch card methods and electronic devices is 40 to 
70 percent higher than the incidence of residual votes with the other 
technologies.
    We have not analyzed why these differences in residual votes arise. 
We believe that they reflect how people relate to the technologies, 
more than actual machine failures. State and federal voting machine 
certification tolerate very low machine failure rates: no more than 1 
in 250,000 ballots for federal certification and no more than 1 in 
1,000,000 ballots in some states. Certification serves as an important 
screen: machines that produce failure rates higher than these tolerance 
levels are not certified or used. We believe that human factors drive 
much of the ``error'' in voting, because the observed differences in 
residual voting rates that are attributable to machine types are on the 
order of 1 to 2 out of 100 ballots cast. Given the stringent testing 
standards for machinery in use, these differences are unlikely to arise 
from mechanical failures.
    We have also not examined many details about the implementation of 
the machinery, such as manufacturer or precinct versus central counting 
of ballots or specific ballot layouts.
    A final caveat to our findings is that they reflect technologies 
currently in use. Innovations may lead to improvements in reliability 
rates. In particular, electronic voting technology is in its infancy 
during the period we are studying, and has the greatest room for 
improvement. It seems the most likely technology to benefit 
significantly from new innovations and increased voter familiarity.
    In the wake of the 2000 election, many state and local governments 
are reconsidering their choices of and standards for voting equipment. 
Many manufacturers are seeking to develop or improve machinery. This 
report identifies a performance standard in practice--an average 
residual vote not in excess of 2 percent of total ballots cast. With 
this benchmark in mind, we wish to call attention to the excellent 
performance of the optically scanned ballots, the best average 
performance of the newer methods, and especially to the older methods 
of voting--lever machines and paper ballots.

    The Chairman. Thank you, Professor. You said the cost could 
range between $600 million and $2 billion depending on what 
technology was adopted. What would be the difference in those 
technologies? The effect--obviously, we are looking the cost 
effectiveness here. What would you view as a reasonable fix, at 
least in the short term?
    Dr. Ansolabehere. If I were an election administrator 
purchasing equipment, given what I have learned and seen and so 
forth, if I were to buy equipment today, based on what I 
believe about the performance of existing equipment, I would 
buy optically scanned precinct-based equipment, which would 
cost about $6 a voter to purchase. I would lease it, like Rhode 
Island did. That would spread the cost over many years.
    That is what the $600 million figure would be.
    The Chairman. What about touchscreen technology?
    Dr. Ansolabehere. The touchscreen technology clearly 
represents an improvement over the older DREs, which were 
pushbuttons. There would be a big panel and you would push a 
button next to the name. There are too few of those cases in 
existence as they have been tested in the field to get a really 
good read on the performance. There is Riverside County, which 
had a very good experience, and there is Beaver County, 
Pennsylvania, which had a horrible experience. So the whole 
gamut is out there with the touchscreens.
    I think that that is one of the things where having some 
sort of testing before you go into the field with equipment 
where real voters are using the equipment and trying to----
    The Chairman. What was the problem in Beaver County?
    Dr. Ansolabehere. I think their undervote rate was 10 
percent.
    The Chairman. With touchscreen technology?
    Dr. Ansolabehere. Touchscreen technology.
    The Chairman. All we hear about is the Riverside 
experience. Interesting.
    Dr. Ansolabehere. Assembling these data are really painful, 
because you have to call every county in the United States, 
basically, to get it.
    The Chairman. Well, I thank you.
    Mr. Michel and Mr. Richardson, I would ask that in the 
process of your deliberations you would address this whole 
issue of--a couple of issues. One is, as I asked our previous 
witnesses, when the federal government gets involved with a 
cost-sharing procedure, which I think is probably something 
that is going to happen--I was interested in Secretary of State 
Willis' proposal of a $1-$1-$1 ratio--we always have a tendency 
in Congress whenever we start giving them money to set mandates 
and requirements.
    Obviously, they would like to see everything done 
voluntarily. I am not sure that Congresswoman Lee would like to 
see everything done voluntarily by the various local 
authorities. So I hope you will address that aspect of this 
issue.
    The other aspect of it I think is this whole issue of 
Internet voting. You know, in Arizona in our Democrat primary 
last cycle they had Internet voting. It was not real 
successful, but it was the first attempt at it. We just passed 
a law last year that made all transactions legal and binding 
the same as someone's signature on a legal paper document. So 
clearly it is a technology that I think we may want to make use 
of.
    I think of the State of Oregon, where all voting is done by 
mail now. It is just a very brief step to allowing someone to 
vote over the Internet, if they are required to mail in their 
ballot. So I hope you will look at that whole issue as well.
    Finally, I think the issue that drove this commission and 
this Committee and Congress and the American people is the 
inequity that exists. Clearly, evidence has been presented that 
is compelling that people from lower income areas of America 
are less likely to have their vote counted than people from 
more affluent areas.
    Montgomery County might be the exception that makes the 
rule here, as our previous witness stated, Mr. Willis stated. 
But it really is an inequity that I think should be the 
fundamental principle driving our efforts for electoral reform.
    I thank you for your willingness to serve. I am absolutely 
certain that, with the kind of weight and gravity of your 
commission, that I think the Congress will clearly, and the 
administration will clearly, want to see your recommendations 
carefully scrutinized and put into law, I hope. I also hope 
that the results of your efforts will again highlight the 
importance of it. There is a belief, as I stated earlier, that 
this whole issue has sort of faded from the radar screen. I 
hope that is not the case, because it will pop right back up 
again November of the year 2002, and then we will receive some 
deserved responsibility and blame for not acting.
    I want to thank you all for being here. Do you have any 
final comments you would like to make, Bob?
    Mr. Michel. Well, only in a sense on the funding. We had 
quite a spirited debate in the very first hearing that we had 
down in Atlanta, on how much federal money would be available. 
Does that tend to diminish the states' action? They may say 
``We are going to wait on the federal government to bail us out 
of this thing.'' We of course, do not want that to happen.
    I am glad to see not only Florida, but also Georgia, took a 
marked step in election reform. I think you are finding more 
and more state legislatures getting acclimated to doing that. 
If the publicity prompts some of the other legislatures to 
move, then I think we will eventually get a little better sense 
of feel about what that proper ratio ought to be. We want to 
encourage the states to do it with kind of seed money from the 
Feds, but we do not want them totally to rely on it.
    We have had to make that decision any number of times in 
many other federal programs: What is the magic formula? I guess 
that is why we need as much testimony as we can from as 
divergent sources to get the right answer.
    The Chairman. Once you find that formula, what degree of 
compliance or responsibility to the federal government and the 
American people should be exercised by the recipients of that 
funding?
    Bill, do you have anything?
    Mr. Richardson. I agree with the Chairman. Senator, you 
really put your finger on the key issue: What is the federal 
and the state responsibility? I think Chairman Michel and our 
commission is heading in the direction of the federal 
government not being totally intrusive on the states, but if we 
can, to devise a system of incentives. I just want to keep an 
eye a little bit on what is happening. I know Congresswoman Lee 
has worked on this extensively.
    My concern is what you also said and that is minority 
voters, elderly voters, low-income voters, on Indian 
reservations, how can we ensure that there is full voter 
participation? I think you have to have a little bit of 
oversight. Some states have taken some good initiatives. I 
mentioned Florida, I mentioned Georgia. So maybe a little 
combination of what Bob said is what is going to be needed.
    The Chairman. Thank you.
    Professor Ansolabehere.
    Dr. Ansolabehere. I just wanted to share one final cost, 
feature of the costs of paying for elections that fits with 
what we have heard earlier. That is that elections are a very 
high fixed cost kind of enterprise. So from the election 
administrator or the county's perspective, there is a very high 
fixed cost per voter and there is a big economy of scale for a 
big city or for a high populace county. Very expensive and very 
difficult for rural counties to pay for election 
administration. We see that in the cost data very clearly.
    So I think if there is some federal role maybe it does make 
sense to help rural counties in particular bear some of the 
costs.
    The Chairman. It may make some sense to have a means 
testing or a priority for the lower income areas. In Santa Cruz 
County in the southern part of my state, the cost of upgrading 
the voting machines would be a huge part of the budget.
    Do you have any comment, by the way, on the Internet voting 
issue?
    Dr. Ansolabehere. Well, I think the security experts in our 
group are most concerned about denial of service. They are most 
concerned about the Internet crashing during election night, 
not by the volume of the Internet----
    The Chairman. Like during a brownout?
    Dr. Ansolabehere. Exactly. A lot of the security problems 
have been resolved and compared to the security of absentee 
voting currently it is probably an improvement.
    The other problem is what we call scalability, which is 
with most voting systems it is very hard for one individual to 
commit large-scale fraud. One individual can maybe steal a 
couple ballots here or there, vote a couple of times on 
election day to commit fraud. With the Internet, there is the 
prospect of someone, some individual, committing a large-scale 
fraud.
    There is a second issue here which does have to do with 
standards, and that is that all the electronic equipment upload 
the ballots electronically. So some of those interfaces are 
through the Internet already. So the Internet, to the extent 
that we are getting electronic equipment out there, is present 
either directly or in ballots being uploaded through modems. 
The prospect of some sort of security breach exists there.
    But our security guys tend to be nervous about all sorts of 
things.
    The Chairman. Given what hackers have been able to 
accomplish, I think it is a very legitimate concern.
    I thank the witnesses and I really am appreciative of your 
presence here today. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 11:08 a.m., the hearing was adjourned.]

                                APPENDIX

  Prepared Statement of The National Conference of State Legislatures

    The National Conference of State Legislatures has established a 
bipartisan Task Force on Election Reform to assist state legislatures 
in their efforts to improve election technology and administration. The 
Task Force is focusing its efforts in three areas:
    <bullet> Restoring faith and public confidence in state election 
systems;
    <bullet> Ensuring that election reform on the federal level 
complements state efforts, does not pre-empt state authority and allows 
states the ability to be innovative; and
    <bullet> Providing states with important information on methods and 
best practices to address election reforms.
    The NCSL Task Force will issue a report at the NCSL Annual Meeting 
in August 2001. In the interim, the Task Force has adopted the 
following recommendations for any federal election reform legislation:
    <bullet> NCSL acknowledges that a national debate on election 
reform has begun and that any Congressionally mandated changes in 
elections processes necessarily will impact state and local elections. 
NCSL recognizes that state law controls the processes and the 
administration of matters pertaining to federal, state, and local 
elections. It logically follows that NCSL, as the national voice of the 
various state legislatures, should be at the center of this national 
debate.
    <bullet> NCSL finds that most of the significant federal 
legislation introduced in the 107th Congress contains guidelines for 
the formation of an election commission or task force to examine 
election issues and to develop guidelines or mandates for federal 
elections which necessarily will affect state and local elections. NCSL 
recognizes Congress' desire to have a voice in the national debate on 
election reform and understands the formation of a federal commission 
or task force to provide such a voice may be inevitable. NCSL believes 
that it must be an equal partner within any such federal commission or 
task force because this effort must be a partnership among federal, 
state, and local officials.
    <bullet> Should Congress move forward with election reform 
legislation that requires the formation of a federal commission or task 
force to examine election reform issues in the states, NCSL will lend 
its support to such effort only if state legislators are included in 
the composition of any such commission or task force.
    <bullet> NCSL acknowledges that, due to events surrounding the last 
Presidential election, public confidence in the elections process must 
be restored. NCSL recognizes that states may need federal block grant 
funding to assist in the implementation of new and innovative election 
reform procedures. NCSL also believes that such funding should be based 
on broad principles, not upon specific mandates which would lead to a 
``one size fits all'' approach to elections. Therefore, NCSL supports a 
block grant formula which awards money to states for broad-based 
purposes dealing with election reform, and opposes any funding 
mechanism which seeks to mandate specific requirements on the states.
    <bullet> NCSL is of the opinion that the creation of another new 
agency to administer these block grants is unnecessary, believing that 
the Federal Elections Commission may be the most appropriate federal 
agency to administer any such federal block grant program.
    <bullet> NCSL supports federal block grant funding to states for 
the following broad purposes:
    <bullet> Improving election technology, systems and ballot design;
    <bullet> Facilitating voter registration, verification and 
maintenance of voter rolls;
    <bullet> Improving the accuracy and security of election procedures 
and vote counts;
    <bullet> Educating citizens on representative democracy and 
election processes and systems;
    <bullet> Providing greater access to voter registration and polling 
places especially for rural and disabled voters; and
    <bullet> Providing training and education opportunities for 
elections personnel.
Overview of State Election Reform Legislation
    On May 4, the Florida legislature passed what is by far the most 
sweeping election reform proposal passed in the states this year. The 
Florida bill, SB 1118, contains the following provisions:
    <bullet> $24 million for new voting systems. The bill bans punch 
card machines and requires counties to purchase electronic or optical 
scan precinct-count equipment by 2002. The state will give smaller 
counties $7,500 per precinct for equipment purchase, and larger 
counties will get $3,750 per precinct.
    <bullet> $6 million for counties to conduct voter education and 
poll worker recruitment and training.
    <bullet> $2 million for the creation of a statewide voter 
registration database
    The bill also:
    <bullet> Requires the secretary of state to create a uniform ballot 
design to be used statewide.
    <bullet> Requires data collection and reports of voter error 
(overvotes and undervotes).
    <bullet> Establishes no-excuse absentee voting.
    <bullet> Allows for provisional ballots, permitting a voter who 
claims to be registered but whose eligibility to vote cannot be 
determined at the polls on election day, to cast a ballot.
    <bullet> Sets new deadlines for counties to submit election returns 
to the state.
    <bullet> Creates uniform recount provisions.
    <bullet> Requires the secretary of state to develop rules for 
determining voter intent.
    <bullet> Creates uniform standards for voting by overseas citizens.
    <bullet> Requires the secretary of state to set standards for and 
county election supervisors to implement voter education, including but 
not limited to registration, polling place and absentee balloting 
procedures, voter rights and responsibilities, sample ballots, and 
public service announcements.
    <bullet> Sets standards for poll worker training.
    <bullet> Eliminates the run-off primary.
    <bullet> Requires a study of the feasibility of establishing 
uniform statewide polling place hours.
    Other legislatures around the country have been busy with election 
reform as well. Nearly 1,600 bills have been introduced to date, and 
130 have been signed into law as of May 4, 2001. 1,100 bills are 
pending in the 32 states where legislatures are still in session.
    Some of the highlights of new election laws are:
Voting Systems
    <bullet> Georgia passed SB 213, which requires the adoption of 
uniform election equipment throughout the state by 2004. Georgia will 
conduct a pilot project to test electronic touch-screen voting 
equipment in the 2001 municipal elections. They have established the 
21st Century Voting Commission to oversee the pilot project and to 
advise the state on the selection of new voting equipment.
    <bullet> The Maryland General Assembly has passed HB 1457 and SB 
833 (both are currently awaiting gubernatorial action), which require 
the State Board of Elections, in cooperation with local boards of 
elections, to select and certify a new voting system to be used in all 
counties in the state. Under the Maryland plan, the state would pay for 
half the cost of acquiring and operating the new system, and counties 
would pay the other half.
    <bullet> Idaho passed H 206 requiring that voting systems meet 
Federal Election Commission standards and undergo independent testing 
authorized by the National Association of State Election Directors.
Standards for Counting and Recounting
    <bullet> Colorado passed SB 132, which expands the time allowed for 
recounts from 21 to 30 days, and stipulates that ballots must be 
recounted using the same procedures by which they were originally 
counted.
    <bullet> Virginia passed HB 1843 and HB 2849, which require the 
State Board of Elections to provide standards for determining whether a 
ballot has or has not been voted for a candidate and for promoting a 
timely and accurate resolution of recount questions. Virginia also 
passed SB 986, which sets specific standards for reviewing punch card 
ballots that are not accepted by a counting machine because chads are 
not fully separated from the card.
    <bullet> The Washington Legislature approved HB 1644 (currently 
awaiting gubernatorial action), which specifies uniform statewide 
procedures for recounts.
    <bullet> Kansas passed SB 126, which specifies who pays for 
recounts in national and statewide races.
Registration
    <bullet> The Colorado legislature passed HB 1307 (currently 
awaiting gubernatorial action), providing for the establishment of a 
computerized registration database.
    <bullet> Indiana passed a similar measure, HB 1510 (awaiting 
gubernatorial action), creating an Internet-accessible statewide voter 
registration file.
    <bullet> SB 213 in Georgia establishes a new process for removing 
deceased voters and convicted felons from voter registration lists.
    <bullet> Kansas passed SB 127, enabling the secretary of state to 
create within the centralized registration database a category of 
inactive voters (voters who have failed to vote in two consecutive 
elections or who have failed to respond to confirmation mailings). The 
bill also permits county election officials to use Social Security 
Administration data to remove deceased persons from voter registration 
lists. Kansas also passed SB 63, requiring the use of the last four 
digits of voters' social security numbers in registration lists as a 
way of identifying registered voters.
    <bullet> Montana passed HB 204, making it easier to remove inactive 
voters from registration rolls.
    <bullet> South Dakota passed two bills which will completely revamp 
their system of voter registration. HB 1252 creates a centralized voter 
registration database in the secretary of state's office. HB 1009 
creates a process for keeping the centralized voter database up-to-date 
by providing means of removing the names of voters who are deceased, 
who have been declared mentally incompetent or have been convicted and 
sentenced for a felony, and who fail to vote, update their 
registration, and fail to respond to confirmation mailings.
    <bullet> Virginia passed a package of 11 bills to clean up their 
registration system.
    By far the most common subject of bills this year is the 
establishment of task forces, study commissions, and interim 
committees. At least 75 bills proposing studies of election laws have 
been proposed in 28 states. The intense media and public scrutiny of 
election laws that has gone on since the drawn-out Presidential 
election last year has clearly placed pressure on legislatures to act. 
However, many states are finding that the issue is broader and more 
complex, and that solutions are more expensive, than they initially 
thought. Taking some time to study the situation is a pragmatic first 
step and can help states come to grips with the complexity of the 
issue. Some of the proposed studies are broad in nature, looking at 
election procedures as a whole; others are highly specific and propose 
studies of issues such as Internet voting, voting systems, recount 
procedures, and poll working training and recruitment. Newly passed 
legislative measures that propose election reform studies include:
    <bullet> Georgia passed SB 213, which creates the 21st Century 
Voting Commission to study voting systems and recommend a new system 
for the state to adopt by 2004.
    <bullet> Montana passed HJ 8, commissioning an interim study on 
election reform.
    <bullet> Nebraska passed LB 67, which creates a six-member task 
force to conduct a 2-year study of the election process.
    <bullet> North Dakota passed HCR 3039, which encourages the 
secretary of state to establish a committee to study election laws.
    <bullet> Pennsylvania passed H.R. 14, creating a joint select 
committee to study the laws, practices and procedures of elections.
    <bullet> Virginia passed HJ 681 and SJ 363, which create a joint 
subcommittee to study the state's election process and voting 
technologies.
    1,100 bills are still pending in the 32 states whose legislative 
sessions haven't yet ended. A few states are considering sweeping 
election reform bills. These bills encompass everything from 
registration procedures to announcing election results, and everything 
in between. Most bills, however, focus on narrower topics. They tend to 
reflect problems that were highlighted in the 2000 elections, or are 
modeled after successful programs in other states. These include:
    <bullet> Absentee voting.
    <bullet> Ballot design.
    <bullet> Modernizing voting equipment.
    <bullet> Standards for counting votes and judging voter intent.
    <bullet> Recount standards.
    <bullet> Modifying the Electoral College.
    <bullet> Poll worker recruitment, training and compensation.
    <bullet> Registration procedures.
    <bullet> Requiring voter ID at the polls.
    <bullet> Alternative voting methods, such as Internet voting and 
mail ballots.
    <bullet> Campaign practices.
         Prepared Statement of the Federal Election Commission
    Mr. Chairman, Senator Hollings, members of the Committee, the 
Federal Election Commission (FEC) is pleased to submit this testimony 
for the record in connection with this very important hearing on 
federal election reform.
    There has been considerable discussion about the need for federal 
assistance to the state and local election administrators responsible 
for acquiring, installing, operating and maintaining the nation's 
voting machinery. The 2000 Presidential election raised issues about 
both the adequacy of voting machines and the standards used by local 
election officials, who, in some cases, are not trained election 
administrators. Apparently, there is a general consensus the federal 
government could provide valuable and timely assistance to the states 
to improve their election administration. We believe the FEC is well 
positioned to provide that assistance.
    The federal government already has taken steps to help state and 
local election officials make informed decisions about voting 
equipment. In response to requests from states for technical 
assistance, Congress authorized the FEC to develop national Voluntary 
Voting Systems Standards (VSS) for computer-based systems. These 
standards, first published in 1990, established minimum performance 
requirements for reliable voting systems. The FEC has established an 
Advisory Panel of election officials from around the country to assist 
with this and other election administration projects.
    Despite limited funds, the FEC's Office of Election Administration 
(OEA) is in the process of updating the existing standards. In fact, 
the FEC began this modification of VSS in 1999, long before the 2000 
election. The FEC plans to release Volume I (Technical Standards) of 
the updated VSS for public review and comment on June 29, 2001. Volume 
II (test criteria) will be released for public comment on October 31, 
2001, with the FEC issuing the final updated standards (Volumes I and 
II) on April 12, 2002.
    The VSS currently are being used in a national testing effort 
overseen by the National Association of State Election Directors 
(NASED), who have established a process for vendors to submit their 
equipment for evaluation under these national standards. States are 
free to adopt the VSS. Thirty six states have done so, either wholly or 
in part. The standards do not dictate a particular type of design for 
voting equipment; instead they measure the reliability of existing 
voting equipment, without stifling future innovation.
    While establishing the VSS was a useful initial step toward raising 
the quality of voting systems, the problems in the 2000 election 
illustrate the need to expand the VSS in two crucial areas. First, the 
standards should be enhanced to address human interface with the voting 
system to prevent, for example, a poorly designed ballot from causing 
confusion at the polling place. Thoughtful and logical ballot layout 
should use time-tested elements borrowed from the graphic and 
communication design communities to make voting a more natural, 
intuitive function. Second, the VSS should be expanded to include 
certain standards for operation, for example in the area of 
maintenance. While a machine may meet a particular standard when it is 
new, repeated use without proper maintenance can render a machine 
ineffective or useless. Other areas of interest to election officials 
include operational standards for testing and measuring performance of 
equipment, acquiring new systems, and security.
    In addition to updating and expanding the VSS, the FEC also 
believes, the federal government should make a sustained commitment to 
help state and local election officials gather and compare data about 
the nature of any equipment failures that occur. As numerous witnesses 
have testified, the lack of consensus among the states about the pros 
and cons of punch-card, optical scan, and direct recording electronic 
(DRE) voting systems is fueled, in part, by insufficient comparative 
data. As members of the technology and design communities have noted, 
there is no formal mechanism for systematically reporting voting 
equipment failures. Until there is a national commitment to track the 
performance of voting equipment over time, voters and election 
officials will find it difficult to determine whether their 
jurisdiction's equipment is performing as well as it should.
    For the Commission's efforts to update and enhance the existing 
standards to be successful, there must be participation from the 
interested public, including election officials and the technology and 
design communities. The contribution of citizen organizations also will 
be critical to the ultimate success of the standards. Setting standards 
essentially is a matter of identifying what works and what does not. 
And, it emanates from the collective experience of vendors and 
purchasers, of experts and end users.
    With several Senate and House hearings held this week to address 
voting technology and election reform issues, we hope Congress will 
continue to examine how the federal government can contribute to 
improving election systems nationwide. Coupled with an on-going 
commitment to gathering data on actual voting equipment performance, 
up-to-date standards can go a long way toward ensuring the quality of 
voting systems, while still allowing innovation and improvement to 
occur.
    The FEC believes an objective, comprehensive approach is the best 
solution to the current issues about federal election administration. 
While an immediate response might be for Congress to provide federal 
funds to acquire new voting machinery, that approach alone would not 
address the establishment of ballot design standards and operation 
standards for testing and performance measurement of voting equipment, 
maintenance, acquisition procedures for voting systems, and system 
security practices.
    The FEC has submitted a proposal to Congress which is designed to 
accomplish the objectives noted in this testimony as noted by several 
witnesses. We believe the most efficient way to accomplish these 
objectives for improving the nation's voting systems is to buildupon 
the work begun by the FEC's OEA. Any federal initiatives to improve 
election administration should be located at the FEC, both to leverage 
existing expertise and to build on existing relationships with state 
and local election officials. This is a critical advantage if swift and 
meaningful assistance to state and local officials is sought for future 
elections.
    We have submitted for the record a copy of the Federal Election 
Commission's proposal for an enhanced FEC/OEA mission. It was prepared 
in response to the numerous calls for reform of election 
administration. This enhanced support for OEA is sought to assist state 
and local election administrators to develop election administration 
standards and guidelines.
    We also submit for the hearing record various resolutions in 
support of the FEC's enhanced OEA budget request. Organizations that 
have adopted resolutions are:
    <bullet> The Election Center.
    <bullet> The National Association of State Election Directors.
    <bullet> The National Association of Secretaries of State.
    <bullet> The International Association of Clerks, Recorders, 
Election Officials and Treasurers.
    <bullet> The Council of State Governments.
    <bullet> The National Conference of State Legislatures.
    <bullet> The National Association of Counties and the National 
Association of County Recorders, Elections Officials and Clerks.
    We thank the Chairman and members of this committee for holding 
this hearing. The FEC welcomes any questions you may have.
                                 ______
                                 
                                                  January 31, 2001.
Hon. Richard B. Cheney, President of the Senate.
 S-212, the Capitol, Washington, DC 20510
    Dear Mr. Vice President: The Federal Election Commission herewith 
transmits a supplemental fiscal year 2001 request for additional funds.
    Specifically, the FEC is requesting $3 million in no-year funds and 
3 FTE (6 staff for 50 percent of 2001). This proposal would provide for 
an enhancement of the FEC Office of Election Administration (OEA) 
mission. It is in response to the numerous calls for reform of election 
administration. This enhanced support for OEA is sought to assist state 
and local election administrators, who are responsible for 
administering federal elections, to develop election administration 
standards and guidelines. The FEC's current fiscal year 2001 funding 
level will not support this effort.
    A copy of the formal supplemental budget request is enclosed.
            Sincerely,
                                                Danny Lee McDonald,
                                                          Chairman.
                                                    David M. Mason,
                                       Chairman, Finance Committee.
                                 ______
                                 
   Federal Election Commission Fiscal Year 2001 Supplemental Request
    Pursuant to our authority as a concurrent submission agency, the 
Federal Election Commission (FEC) is seeking a fiscal year 2001 
Supplemental Appropriation request for $3 million dollars in no-year 
funds (i.e., funds that would be available beyond September 30, 2001) 
and 3 FTE staff (6 staff for 50 percent of fiscal year 2001). This 
proposal for supplemental funding in fiscal year 2001 would provide for 
an enhancement of the FEC Office of Election Administration (OEA) 
mission. It is in response to the numerous calls for reform of election 
administration. This enhanced support for OEA is sought to better 
assist state and local election administrators who are responsible for 
administering federal elections to develop operational standards.
    There has been considerable discussion of the need for federal 
assistance to the state and local election administrators responsible 
for acquiring, installing, operating and maintaining the nation's 
electoral machinery. The 2000 Presidential election raised issues with 
regard to both the adequacy of the voting machines and the standards, 
or lack thereof, used by local election officials, who in some cases 
are elected political officials and are not necessarily trained 
election administrators.

                                FEC ROLE

    OEA was created under 2 U.S.C. Sec. 438(a)(10), which mandates that 
the Federal Election Commission serve as a national clearinghouse with 
respect to the administration of federal elections. The FEC has staffed 
OEA with recognized election experts who have extensive experience in 
election administration. Moreover, the FEC's Commissioners are 
themselves well-versed in a variety of issues that confront election 
administrators. Prior to their service at the FEC, several 
Commissioners had substantial experience in election administration and 
other election issues, including selecting and testing voting equipment 
for both urban and rural areas, supervising the resolution of contested 
Congressional elections, and practicing election law in the area of 
recounts. Federal initiatives in improving election administration 
should be located at the FEC to leverage this expertise and to build on 
existing relationships with state and local election officials. This is 
a critical advantage if rapid action is desired and if meaningful 
assistance to state and local officials is to be provided for future 
elections. The proposal also avoids creating any new, duplicative 
bureaucracy.
    The OEA staff serves as an objective moderator, brokering the 
interests of issue groups such as the disabled community with the 
interests of election officials and political office holders. They have 
experience working with the vendors of voting machines as well as with 
the election officials and state officers responsible for acquiring and 
operating voting machinery. OEA has worked with many groups of election 
officials and has chaired numerous meetings with election 
administrators to address a variety of issues, including polling place 
accessibility, Internet voting, and the Voting System Standards. OEA 
has participated in the implementation of federal initiatives in 
election administration, such as the Polling Place Accessibility for 
the Elderly and Handicapped Act and the National Voter Registration Act 
(``Motor Voter''), and has been engaged in a multiyear project to 
revise voluntary Voting Systems Standards (VSS), which represent 
technical standards for voting equipment. As a result of these efforts, 
OEA has gained the confidence of the election community by working 
closely with local and state officials on these collaborative efforts.

                              FEC PROPOSAL

    An objective, comprehensive approach is the best solution to the 
current issues regarding administering federal elections. The FEC 
proposal is designed to address both short-term and long-term issues. 
While an immediate response might be to provide federal funds to 
acquire new voting machinery, that approach would not address the 
establishment of operational standards for the testing and performance 
measurement of voting equipment, acquisition procedures for voting 
systems, system security practices, and ballot preparation and design.
    The FEC proposal is designed to accomplish five objectives:
    <bullet> Enhance the existing voluntary voting system performance 
standards (VSS) that provide election officials with testing and 
measurement criteria to verify the performance, accuracy, reliability, 
and security of election systems. The VSS are currently being updated 
by OEA, with completion expected by the end of calendar year 2001 
(funded with existing fiscal year 2001 money). The enhancements would 
expand existing standards and test criteria to address design/
performance features that optimize ease of use and minimize voter 
confusion.
    <bullet> Extend the scope of the voluntary standards beyond testing 
and measurement to include operational standards for acquisition, 
installation, testing, training, administration and maintenance of both 
existing and new automated voting systems. Develop standards for other 
management issues such as planning for and administering elections; 
system security practices; ballot design and preparation; public 
education; contested elections; and recounts. Provide up to date 
information and assistance for issues such as ballot access, 
reprecincting, and absentee and early voting. Establish and disseminate 
information on best practices in election administration.
    <bullet> Complete a census of existing election systems.
    <bullet> Identify the needs and resource requirements of local and 
state election officials, to assure that the most pressing needs are 
addressed, and that best practices are widely disseminated.
    <bullet> Design grant program criteria by which federal funds could 
be distributed to state and local jurisdictions should Congress decide 
to provide funds for the replacement of voting systems or for other 
election administration needs.
    The most efficient way to meet these objectives to improve the 
nation's voting systems is to buildupon the work already accomplished 
by the FEC's OEA. Ongoing funding will be required in future years to 
ensure that all aspects of the VSS are kept up-to-date.

                     FY 2001 SUPPLEMENTAL PROPOSAL

    This supplemental proposal requests $3.0 million in no-year funds. 
Work would begin on enhancing the VSS (beyond the update of the VSS 
funded by existing fiscal year 2001 funds) and on developing the 
operational standards in fiscal year 2001. The gathering of information 
regarding the needs and resource requirements of state and local 
election officials and the development of the proposals for research 
would occur in fiscal year 2001. In addition to any supplemental funds 
remaining after fiscal year 2001, the fiscal year 2002 and later Budget 
Requests would contain funds for continuing work on the operational 
standards and for a comprehensive educational and information outreach 
program to widely disseminate the enhanced VSS, the operational 
standards, and other OEA elections administration efforts. Finally, if 
Congress determines to enact a grant program to provide federal 
financial assistance to state and local election officials, OEA would 
administer the grant program.
    The $3.0 million would be spent as follows:
    1. Development of Election Operations Standards--$1,100,000. 
Enhance and expand the VSS standards to establish operational standards 
for the procurement, installation, testing, operation, and maintenance 
of voting systems; develop standards for system security, ballot design 
and preparation, public education, training, polling place access and 
absentee processes. These new standards would focus on election 
planning and the vote tabulation process and would be designed to 
assist election officials in correctly setting up and operating the 
voting systems during elections. Some of this money also would be used 
to expand the existing qualification test criteria to address design/
performance features that optimize ease of use and minimize voter 
confusion. The standards would be consolidated in a best practices in 
election administration document.
    2. Update and Develop OEA Publications--$300,000. Update and 
develop publications addressing current election issues, including 
elections and recounts, absentee/early voting options, and contested 
elections. The FEC also would explore developing models for 
administering elections, and models for ballot design, as well as 
models governing the conduct of elections and the counting of votes. 
The emphasis of this project would be to disseminate needed information 
to local election officials and provide extensive training 
opportunities. In future FYs, OEA staff and contractors would conduct 
workshops at various locations to present the materials and models and 
to provide training sessions for state and local officials on best 
practices in elections administration. The scope of the outreach and 
training envisioned is far beyond the ability of OEA within the limits 
of current funding levels and would be part of the additional funding 
requested for these projects in fiscal year 2002.
    3. Identify Needs and Resource Requirements of Local and State 
Election Officials--$450,000. A major portion of these funds would be 
used for OEA to meet with state and local election officials to 
determine their resource requirements and to obtain their guidance on 
election policy issues that can be incorporated into the development of 
election operations standards. In addition to its existing Advisory 
Panel of State and local election officials, OEA would also consult 
with groups such as the National Association of State Election 
Directors (NASED), National Association of Secretaries of State (NASS), 
International Association of Clerks, Recorders, Election Officials and 
Treasurers (IACREOT), and the Election Center to ensure that there is 
broad participation and support for the development of new standards or 
proposed best practices and model procedures. This initiative would 
allow election officials to compare and share solutions for election 
problems developed by other election jurisdictions and officials.
    4. Design Grant Program Criteria to Provide Federal Funds to State 
and Local Jurisdictions--$500,000. This project would establish an OEA 
data base on the election systems in use in all local jurisdictions. 
This would allow estimates to be developed for the cost of replacing 
existing voting systems nationwide with systems that meet the standards 
for improved performance. The FEC would recommend to Congress a grant 
program, including proposed criteria for the distribution of funds. If 
a grant program were established, the funds to cover the grants would 
be sought in future budgets.
    5. Additional OEA staff--$650,000. Funding would be used to hire 
3.0 additional FTE (6 staff for 50 percent of fiscal year 2001): a 
Senior Level Administrator; 2 project managers to administer the 
project; a technical position to provide technical advice on the 
contracts and assist with the workshops; a conference and workshop 
planner and coordinator; and one clerical position employee. The six 
additional staff would cost $262,000 in fiscal year 2001. The remaining 
$388,000 would be used to support the conferences for consultation with 
state and local election administrators. Estimated budget:

Personnel--$262,000
Travel--$100,000
Printing--$125,000
Postage--$ 25,000
Conference expenses--$ 50,000
Equipment, etc.--$ 63,000
Rent $25,000

    The requested travel and printing in fiscal year 2002 and future 
years would be used to disseminate the new standards to state and local 
election officials through a series of workshops starting in fiscal 
year 2002. OEA anticipates holding a conference in fiscal year 2002 to 
introduce the updated VSS to election officials.

           FY 2001 VSS PROJECTS AND FISCAL YEAR 2002 FUNDING

    The projects proposed above are in addition to the current VSS 
updates that OEA plans to complete by December 2001. Budgeted fiscal 
year 2001 funds will be used to enhance the current VSS and to hold 
Advisory Panel meetings on the VSS updates, as well as to consult with 
elections officials in initiating the development of operational 
standards. In fiscal year 2002, OEA will hold a conference to introduce 
the revised VSS to the election administration community. When the 
operational standards are completed, fiscal year 2002 funds will be 
used to undertake a comprehensive educational outreach program to 
widely and aggressively disseminate the new standards.
    In sum, the proposed course of action is as follows: complete VSS 
updates with current fiscal year 2001 funds; use the fiscal year 2001 
Supplemental (no-year funds) to expand VSS technical standards and 
develop operational standards, undertake an assessment of elections 
administration resources and a census of current elections systems, and 
design grant program criteria; complete the operational standards and 
initiate comprehensive educational and dissemination program in fiscal 
year 2002 (with some of the no-year fiscal year 2001 funds and the 
funds requested in the Full fiscal year 2002 Budget); and implement any 
enacted grant program in fiscal year 2002 and future fiscal years.

[GRAPHIC] [TIFF OMITTED] T8707.012

[GRAPHIC] [TIFF OMITTED] T8707.013

[GRAPHIC] [TIFF OMITTED] T8707.014

[GRAPHIC] [TIFF OMITTED] T8707.015

[GRAPHIC] [TIFF OMITTED] T8707.016

[GRAPHIC] [TIFF OMITTED] T8707.017

[GRAPHIC] [TIFF OMITTED] T8707.018

[GRAPHIC] [TIFF OMITTED] T8707.019

[GRAPHIC] [TIFF OMITTED] T8707.020

[GRAPHIC] [TIFF OMITTED] T8707.021

[GRAPHIC] [TIFF OMITTED] T8707.022

[GRAPHIC] [TIFF OMITTED] T8707.023

[GRAPHIC] [TIFF OMITTED] T8707.024

[GRAPHIC] [TIFF OMITTED] T8707.025

[GRAPHIC] [TIFF OMITTED] T8707.026

[GRAPHIC] [TIFF OMITTED] T8707.027

[GRAPHIC] [TIFF OMITTED] T8707.028

[GRAPHIC] [TIFF OMITTED] T8707.029

[GRAPHIC] [TIFF OMITTED] T8707.030

[GRAPHIC] [TIFF OMITTED] T8707.031

[GRAPHIC] [TIFF OMITTED] T8707.032

[GRAPHIC] [TIFF OMITTED] T8707.033

[GRAPHIC] [TIFF OMITTED] T8707.034

[GRAPHIC] [TIFF OMITTED] T8707.035

[GRAPHIC] [TIFF OMITTED] T8707.039

[GRAPHIC] [TIFF OMITTED] T8707.040

[GRAPHIC] [TIFF OMITTED] T8707.041

[GRAPHIC] [TIFF OMITTED] T8707.042

[GRAPHIC] [TIFF OMITTED] T8707.043

[GRAPHIC] [TIFF OMITTED] T8707.044


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
